<html>
<title> - THE STATE OF THE RURAL ECONOMY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     THE STATE OF THE RURAL ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 27, 2019
                               __________

                            Serial No. 116-1
                            
                  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          
          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                               ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-465 PDF                  WASHINGTON : 2019                         
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     1
    Prepared statement...........................................     3

                                Witness

Perdue, Hon. Sonny, Secretary, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
    Prepared statement...........................................     6
    Submitted questions..........................................    75

 
                     THE STATE OF THE RURAL ECONOMY

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to other business, at 10:00 
a.m., in Room 1300 of the Longworth House Office Building, Hon. 
Collin C. Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, David Scott of 
Georgia, Costa, Fudge, McGovern, Vela, Adams, Spanberger, 
Hayes, Delgado, Cox, Craig, Brindisi, Van Drew, Harder, 
Schrier, Pingree, Bustos, Carbajal, Lawson, O'Halleran, 
Panetta, Axne, Conaway, Thompson, Austin Scott of Georgia, 
Crawford, DesJarlais, Hartzler, LaMalfa, Davis, Yoho, Allen, 
Bost, Rouzer, Kelly, Comer, Marshall, Bacon, Dunn, Johnson, 
Baird, and Hagedorn.
    Staff present: Kellie Adesina, Melinda Cep, Patrick 
Delaney, Jasmine Dickerson, Emily German, Brandon Honeycutt, 
Keith Jones, Prescott Martin III, Clark Ogilvie, Troy Phillips, 
Lisa Shelton, Anne Simmons, Mike Stranz, Alison Titus, Katie 
Zenk, Paul Balzano, Bart Fischer, Rachel Millard, Matthew S. 
Schertz, Patricia Straughn, Jennifer Tiller, Dana Sandman, and 
Jennifer Yezak.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    The Chairman. All right, the Committee will come to order. 
We welcome all the Committee Members, all the new Members. This 
is the first official hearing of the Committee, and we 
appreciate you all being here, we appreciate the Secretary 
being willing to join us. We have plenty of ground to cover 
today, and I am sure there will be all kinds of questions that 
I am glad you have to answer, and not me.
    Mr. Secretary, I look forward to hearing your outlook for 
the farm economy in the coming year, your take on the 
implementation of the farm bill, an update on the overall 
health of the Department, and any other thoughts that you would 
like to share with us.
    Before we move on, I would like to take a second to talk 
about money. Your visits to the Committee over the last 2 years 
have come roughly at the same time that the White House has 
called for billions of dollars of cuts in USDA programs. This 
year, it appears, is no different. Just this week, the White 
House called for a five percent cut to non-defense spending, 
and while that is concerning on its own, it is compounded by 
your comments that this number may potentially be as high as 
ten percent or higher. That worries me a lot, and given the 
broad range of challenges that we are confronting as farmers, 
ranchers, rural communities, and working families, we are 
concerned about that.
    Mr. Secretary, as you know, things have not gotten any 
better in farm country. Whatever you can tell us about where 
that process is at, I have no doubt that you are on our side, 
that you are concerned about our farmers and ranchers, but you 
have a role to play. We understand that. I would just like your 
take on things.
    As these incomes continue to be down or prices continue to 
be down and continue to decline, the wins on the trade which I 
hoped were going to happen have not materialized. The bankers 
are telling me that they are not going to be financing some 
people. We are just concerned about where we are heading, and 
whatever you can tell us in that regard will be helpful.
    When it comes to the farm bill, the main thing that I have 
been focusing on is the dairy provisions. I am very proud of 
what we were able to do in the farm bill for dairy, and I thank 
the former Chairman for his help with that, and the other 
Committee Members. What I am concerned about is that the dairy 
people were so soured on the old program that it is difficult 
to get them to look at the new program. And we have a couple 
dairy farmers in our part of the world going out of business 
every week or every month. And what I am worried about is that 
we get the message out to these people that this is a different 
world that we are facing with these new provisions in the farm 
bill.
    I have had some people tell me that the safety net we put 
in there is actually too good, because you are going to have 
$9.50 above feed cost, which is $17.50 milk that you can get 
for a pretty reasonable price.
    I am doing what I can to get this message out. I have been 
talking to the co-ops, talking to the farm press, dairymen, and 
so forth to get the word out to dairy farmers that if you are 
thinking about pulling the plug, give us a couple months until 
we can roll out this program before you make a decision. 
Because, if you look at what is in this bill, that will change 
your mind and the future for dairy is actually pretty good, 
given this new safety net.
    Whatever the Department can do to help us with that 
message--as I understand it, it is going to be probably early 
summer before you get these regulations written, but they will 
be retroactive, as I understand it, to the first of the year. 
We have some information, for any of you on the Committee, that 
show what you would have gotten last year if this program would 
have been in effect in 2018. If you have 5 million pounds of 
milk and you signed up for the whole thing at $9.50, it would 
have cost you about $5,000 to get almost $100,000 of benefit if 
the program would have been in place last year.
    I just hope that we can all talk to our dairy farmers and 
make sure that they factor that in before they go off and make 
a decision that is going to be irreversible, because when we 
lose these dairy folks, they are hard to replace. It is hard to 
get the expertise and what it takes to learn how to be a dairy 
farmer back into place.
    The farm bill also provides the resources to small 
communities for broadband, and we hope that that will be 
focused on people that don't have broadband, and not overbuild 
existing systems like we have done over the last number of 
years. There has been help for mental health and substance 
abuse, which are problems in rural areas. As I said, what 
doesn't help would be to take an indiscriminate whack at this 
funding. I know you are on our side. We will do whatever we can 
to help convince the Administration that this is not a good 
idea, and we will see where that all goes.
    It is my hope that you have good news to share with us 
today, and that there is some blue sky amongst the clouds that 
I have mentioned. The thing about it is you have always given 
it to us straight, and I expect that you are going to do that 
again today. You have always been a fierce defender of the 
programs at USDA, and we appreciate that. We look forward to 
your comments.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    Good morning, and welcome to our witness, Agriculture Secretary 
Sonny Perdue. We've got plenty of ground to cover today, so I will be 
brief in my comments.
    Mr. Secretary, I look forward to hearing your outlook for the farm 
economy in the coming year; your take on the implementation of the farm 
bill; an update on the overall health of the Department; and any other 
thoughts you'd like to share. Before that, I want to take a second to 
talk about money.
    Your visits to the Committee over the last 2 years have come 
roughly at the same time as the White House's call for billions in cuts 
to USDA programs. This year is no different. Just this week, the White 
House called for a five percent cut to non-defense spending. While that 
is concerning on its own, it's compounded by your comments that this 
number may potentially be as high as ten percent or higher. That 
worries a lot of us given the broad range of challenges confronting 
farmers, ranchers, rural communities, and working families.
    It's worrisome, Mr. Secretary, because the situation hasn't gotten 
any better in farm country. In our discussions the last few times 
you've been up here, I've sadly started my comments by pointing to the 
growing economic storm in farm country.
    Incomes continue to decline, wins on trade have yet to materialize, 
credit and capital are becoming harder to obtain, and folks are 
deciding it's easier to sell the farm and move to the city than to 
continue trying to grind out a living.
    When it comes to dairy, I'm worried that folks are so soured on the 
old program that they'll decide to hang it up before they give the new 
dairy provisions in this bill a chance. That's a mistake, because the 
new Dairy Margin Coverage is specifically designed to give those 
smaller and medium-sized dairies the safety net they need. We need them 
to know that this program will help. But they're ``snakebit'', and it's 
going to take persistent outreach to get them on board. I hope that's a 
challenge you're committed to tackling, Mr. Secretary.
    Beyond the dairy provisions, the farm bill helps provide resources 
to small communities for broadband connectivity, mental health 
services, and substance abuse prevention.
    But what doesn't help is taking an indiscriminate whack at funding 
for these and other programs in the midst of a farm economy like this 
one.
    Now it's my hope that you've got some better news to share--that 
you see some blue sky through these clouds. You've always given it to 
us straight, Mr. Secretary, and you've always been a fierce defender of 
the programs USDA is charged with administering. I appreciate that very 
much. I look forward to your comments and with that I recognize the 
distinguished Ranking Member from Texas for any remarks he would like 
to make.

    The Chairman. And with that, I recognize the distinguished 
Ranking Member, former Chairman of the Committee from Texas, 
Mr. Conaway.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Thank you, Mr. Chairman. I appreciate you 
convening this important hearing this morning on the state of 
the farm economy.
    Mr. Secretary, welcome back. Thank you for being here with 
us as well.
    Earlier during the consideration of the Committee's budget 
and views estimates letter, I commented on the extremely 
difficult conditions in farm and ranch country. As I said then, 
I wish we could have strengthened the farm safety net more in 
the farm bill, but folks in the other body had different ideas 
about what to spend money on. In any event, worsening 
conditions certainly warrant our close attention.
    Thankfully, there are some things we can do right now to 
improve conditions in rural America and farm and ranch country, 
and Mr. Secretary, I believe you are at the tip of the spear on 
this front. You ably defended the critical market access for 
our farmers and ranchers gained at NAFTA while the agreement 
was improved upon under the USMCA. If we truly want to help our 
nation's farmers and ranchers, and the entire U.S. economy, 
moving USMCA should be a priority of every Member of Congress.
    Mr. Secretary, I know you are also working hard to ensure 
there is a successful resolution very soon to the ongoing trade 
dispute with China, a resolution that will help level the 
playing field for the United States and require China to live 
by the same rules that we do. During this process, I greatly 
appreciate the initiative you took to provide farmers and 
ranchers the Market Facilitation Program to help them weather 
the unjustified retaliatory tariffs that had been imposed. And 
Mr. Secretary, I am behind you and the Administration, and your 
efforts to unwind all the arbitrary and costly regulatory 
burdens that have been heaped upon our nation's farmers and 
ranchers, including the prior Administration's Waters of the 
U.S. regulation and its climate change regulations. Expanding 
markets, regulatory relief, and a strong safety net are three 
essential ingredients to a healthy environment in rural 
America, and you, Mr. Secretary, have worked hard to ensure all 
three.
    I am looking forward to visiting with you further at this 
hearing and offline about how we can improve the lives of those 
who feed and clothe our nation, and the lives of all rural 
Americans. Our farmers and ranchers and rural Americans are 
still the backbone of our country, and if we keep them strong, 
we will also have a much stronger country.
    Mr. Secretary, I know you and I share this conviction. I am 
grateful for all that you do. I look forward to your testimony, 
and I yield back.
    The Chairman. I thank the gentleman.
    I just want to notify the Members that you are going to be 
put in order by seniority, based on the fact that you were here 
when the gavel was struck. Anybody that comes in later will be 
put down the list, and you will keep your place if you have 
to--I know there are a whole bunch of committee meetings going 
on and all that. If you have to step out, as long as you get 
back here in time to keep your place, you will keep your place 
in line. We will try to work this in an orderly fashion and 
make sure everybody has a chance to weigh in.
    Mr. Secretary, again, thank you very much for being with us 
today. We appreciate it. We know you have a tough job, and I 
was dealing with some of your Georgia constituents last week, 
and I know they are having a very tough time. We appreciate 
what you do and we want to be supportive and helpful with USDA 
to complete your mission.
    The floor is yours.

 STATEMENT OF HON. SONNY PERDUE, SECRETARY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Secretary Perdue. Thank you, Mr. Chairman, and [audio 
malfunction in hearing room] good partnership with this 
Committee, as well as your Members.
    I come willingly. I thought it was better than being 
subpoenaed, but nonetheless, you stated the obvious. The farm 
economy and coming to speak about the farm economy, we know it 
is tough out there. You mentioned one sector, certainly, that 
probably has been under more duress than most any, and that is 
the dairy industry. We will talk more about that later on. If 
they can hold on, help is on the way, thanks to the farm bill.
    We know that the farm income has fallen about 50 percent 
over the last 5 years. There are very few businesses that can 
survive that kind of revenue decrease. That is from probably 
the peak in 2013. Most commodity prices have fallen, while 
global stock levels due to good growing seasons around the 
world, primarily in other places, have rebounded with several 
years of record production. Working capital, farmers, just like 
any other business, depend on working capital to fund their 
operations, and that has decreased by 70 percent since 2012. 
Farm debt has been rising more rapidly over the last 5 years, 
increasing by 30 percent since 2013. But fortunately, we are 
not to the levels of the early 1980s. I don't think we will get 
there, but what you all have done in this farm bill, and 
previous farm bills, has been a great safety net with crop 
insurance, primarily, that enables our farmers to be better 
risk managers.
    Certainly, one indication of that is relatively firm land 
values have kept farmer debt-to-asset levels relatively low. By 
historical standards, and certainly our low interest rates over 
the last period of years have helped as well.
    USDA and our economists are projecting a net farm income of 
$77.6 billion. That is an increase from last year, not 
including the Market Facilitation Program, but it remains to be 
seen, and farming, as you well know, it is never over until the 
crops are in the bins and the check is in the bank. Many things 
can happen, as we saw in 2017 and 2018, regarding disasters.
    The current state of the rural economy, as you indicated 
Mr. Chairman, leaves many producers vulnerable to market 
disruptions, including illegal retaliatory tariffs and 
disasters, as we said. Overall, the new farm bill fulfills the 
primary goal of farm programs, helping farmers and ranchers 
manage risks and continue to produce food, fiber, fuel in good 
years, as well as bad, as well as taking care of our consumers 
and food safety in many ways as well.
    We were honored to participate in the deliberation of the 
farm bill last year. I was very proud of our team in providing 
over 2,000 items of technical assistance, both to Majority and 
Minority in that area, both Senate and House, and we believe 
that you all gave a good product at the end of the day. We are 
eager to implement that farm bill.
    Our Deputy Secretary, Steve Censky, is already leading 
those implementation efforts. We had been since the beginning, 
even prior to the signing, as I had some heads-up about some of 
the provisions there. We actually continued during the 
shutdown, although on a more limited basis, during that period 
of time, and so we are following a process similar to one that 
USDA put in place to implement the 2014 Farm Bill. Our farm 
bill implementation group formally met on December the 20th, 
and as the signing of the bill, enactment, and catalogued 
provisions requiring action, assigned them to responsible 
agencies and finalized timelines for implementation.
    We have already begun and are getting stakeholder input on 
how best to implement the provisions. Just on Tuesday, 
yesterday, our FPAC production and conservation group held a 
public listening session. I think over 600 people were there 
and present, and many others joined by the Internet. These 
formal and informal listening sessions will continue.
    Although not under the direct jurisdiction of the 
Agriculture Committee, these are the top three legislative 
issues that farmers continue to raise for me as I travel. 
Certainly, we will have some discussion about that today. 
Labor, a legal farm workforce. Labor is becoming more and more 
difficult to attract in most all areas of the country. I don't 
hear of any people that are flush with ag labor in that regard. 
Regulation, as the Ranking Member mentioned, we are continuing 
to work on regulations to keep it safe but make it productive. 
And the third thing that we hear more about now, certainly in 
certain regions of the country, from California to Florida, the 
Carolinas to Georgia, are the disaster programs.
    In conclusion, over the past 2 years as I have traveled 
across the country--in fact, I have been to 48 states since May 
of 2017 and will finish up those last two this year, hearing 
directly from the people we serve. It is important for us to 
get out among them, and to look them in the eye and to hear 
directly from them.
    I am proud of the great strides that the good men and women 
of USDA are making. I found them to be an honorable, hard-
working workforce when we got there. Our goal and our mantra 
that drives us each and every day is to be the most effective, 
the most efficient, the most customer-focused agency in the 
Federal Government.
    As we work to implement the 2018 Farm Bill, we want to keep 
in mind our motto that we think drives us in all that we do, 
and that is: ``To do right and feed everyone.''
    Thank you for the opportunity to testify, and I look 
forward to discussions with your Members.
    [The prepared statement of Mr. Perdue follows:]

Prepared Statement of Hon. Sonny Perdue, Secretary, U.S. Department of 
                     Agriculture, Washington, D.C.
    Chairman Peterson, Ranking Member Conaway, and distinguished 
Members of the Committee, I am honored to be with you this morning. 
Today's hearing marks my third occasion to appear before this Committee 
as the 31st Secretary of Agriculture. I thank you once again for the 
opportunity to testify about the current state of the rural economy and 
our work at USDA on behalf of the American people and our farmers.
    Over the past year, USDA made great strides toward becoming the 
most effective, most efficient, and most customer-focused department in 
the Federal Government. Our Rural Development agency delivered the 
ReConnect program to create high-speed, reliable broadband e-
Connectivity. The Food and Nutrition Service (FNS) finalized a rule to 
make school meals more appealing to children and reduce food waste 
through flexibilities in the National School Lunch Program and School 
Breakfast Program. FNS proposed another to encourage able-bodied adults 
without dependents to take steps toward self-sufficiency through the 
dignity of work. We refocused USDA to be more customer-oriented, 
merging offices and agencies where it made sense to maximize 
efficiencies, while modernizing and optimizing IT to improve delivery 
of services. The Interagency Task Force on Agriculture and Rural 
Prosperity, which President Trump established and appointed me as 
Chair, completed a report identifying over 100 Federal actions to help 
improve life in rural America.
    In addition to these notable achievements, USDA responded in 2018 
to conditions that tested the resilience of the American farmer with 
initiatives to create economic conditions where they can prosper. With 
the help of crop insurance, natural disaster assistance programs, and 
short-term trade mitigation programs, many producers are managing the 
stresses of these difficult times and are indicating increased 
optimism, particularly with expectations that trade partnerships will 
strengthen in the near future.
The State of the U.S. Rural Economy
    Ever since the record prices and farm income levels reached in 2013 
the U.S. farm sector has faced declines, leaving producers increasingly 
vulnerable to production disruptions posed by natural disasters and 
market disruptions. Net farm income has fallen nearly 50 percent from 
its peak in 2013, as most commodity prices have fallen over the past 5 
years while global stock levels have rebounded with several years of 
record production. We saw the largest U.S. soybean crop ever in 2017 
and again in 2018, U.S. corn production was the second highest ever in 
2017 and third highest ever in 2018. However, other countries have also 
seen high production numbers. In 2019, global production will continue 
to expand, trade challenges will persist, and these factors will 
continue to impact commodity prices.
    As a result, many farmers will continue to face tight bottom lines 
with fewer resources. Our Chief Economist at USDA calculated that 
working capital has decreased by 70 percent since 2012. However, total 
cash receipts are forecast to be slightly higher in 2019 across crop 
and livestock commodities and average net farm income is forecast to be 
higher in 2019 compared to 2018. Overall, the record levels of crop and 
livestock production we have seen over the past few years have helped 
to stabilize farm incomes, despite their contribution to continuing low 
prices. Producers have reduced spending on inputs and tapped a 
combination of savings, loans, and off-farm income and assets to remain 
in business in the face of continuing stresses in the farm economy. 
After 5 years, however, those resources are dwindling for many.
    Farm debt has been rising more rapidly over the last 5 years, 
increasing by 30 percent since 2013--up from $315 billion to $409 
billion according to USDA data, and up from $385 billion in just the 
last year--to levels seen in the 1980s. Demand for commercial farm 
operating loans continues to increase in most regions despite a steady, 
if slow, rise in interest rates on agricultural loans. Although the 
Farm Service Agency's (FSA) Farm Loan Program saw another slight annual 
decline in lending in 2018 following a year of bumper crops, loan 
demand remains historically high. Increasing farm financial stress 
could lead commercial lenders to seek more loan guarantees. FSA may see 
an increase in repayment difficulties with continued low commodity 
prices and expected increases in costs, though delinquencies have been 
stable and restructuring of direct loans fell slightly in 2018.
    Relatively firm land values have kept farmer debt-to-asset levels 
low by historical standards at 13.5 percent and continued low interest 
rates have kept the cost of borrowing relatively affordable. But those 
average values mask areas of greater vulnerability. The strength of 
land values varies geographically, with some regions seeing greater 
weakness even as others hold steady or see modest increases. Debt-to-
asset ratios vary among farm businesses by commodity specialization. 
Overall, however, the number of crop farms in a highly leveraged 
financial situation sits at about one in ten and the number of 
livestock or dairy farms in a highly leveraged financial situation sits 
at about 1 in 15. Highly leveraged operations are more vulnerable to 
low prices or market disruptions and less able to recover from natural 
disasters.
    U.S. farmers faced a number of natural disasters, including 
wildfires, hurricanes, droughts, severe freezes, and even a volcanic 
eruption. USDA responded with all the tools available to it, making 
timely payments for loss claims on crop insurance policies and through 
FSA's suite of disaster assistance programs for non-insured crops, 
livestock, trees, vines, and bushes. USDA also provided assistance to 
producers to install conservation practices on land damaged by severe 
weather and continues to provide help to communities to restore and 
enhance damaged watersheds and floodplains.
    Producers also received payments during 2018 for losses from the 
disasters experienced in 2017. The Bipartisan Budget Act of 2018 
provided $2.36 billion for expenses related to crop, trees, bushes, and 
vine losses from hurricanes and wildfires in 2017. The funds are being 
distributed to producers through the 2017 Wildfires and Hurricanes 
Indemnity Program, also known as WHIP. The program provides benefits 
above the crop insurance program and incentivizes future participation 
by requiring recipients to purchase buy-up coverage for the next 2 crop 
years.
    In addition to weather and low commodity prices, farmers contended 
with significant market disruptions in 2018 arising from retaliatory 
tariffs that were affecting billions of dollars of agricultural trade 
and disrupting markets for commodities ranging from soybeans to almonds 
to hogs. To aid producers facing those disruptions, USDA developed a 
three-pronged approach at the request of President Donald J. Trump: the 
Market Facilitation Program to provide funds to help producers 
implement alternative marketing strategies for their products, the Food 
Purchase and Distribution Program to direct surplus food commodities to 
low-income Americans who need them, and the Agricultural Trade 
Promotion to develop new markets overseas. To date, those programs have 
provided more than $8 billion to assist with the disruption in 
commodity markets caused by unfair tariffs on U.S. agricultural 
products.
    In many ways, 2018 underscored the financial risks farmers take to 
produce food, fiber and fuel for the fellow citizens. Regardless of the 
challenges the past year brought to rural America, farmers and ranchers 
are resilient and remain optimistic about the future.
    Looking forward, USDA projects 2019 net farm income at $77.6 
billion, a $14 billion increase from the projections made last year. 
The upward swing comes as USDA projects an increase in 2019 cash 
receipts--$375.8 billion in this year's report, rising $11 billion from 
last year--and a drop in cash expenses--$322.3 billion, a $3 billion 
drop from last year's projections. Direct government payment 
projections for 2019 rose $1.2 billion to $10.2 billion. The majority 
of farm households are at or above the median income for all U.S. 
households; and farms of all sizes face lower effective income tax 
rates due to the Tax Cuts and Jobs Act (TCJA)[.]
    It is in this context that USDA is undertaking the important work 
of implementing the 2018 Farm Bill.
Implementing the 2018 Farm Bill
    The 2018 Farm Bill provides a strong safety net for farmers and 
ranchers, who need the long-term decision-making tool it affords. This 
farm bill also invests in important agricultural research and supports 
trade programs to bolster exports. While I feel there were some missed 
opportunities in forest management and in improving work requirements 
for certain SNAP recipients, this bill does include a number of helpful 
provisions, and USDA will continue to build upon these through our 
authorities. Overall, the new law fulfills the primary goal of farm 
programs: to help farmers and ranchers manage risks and continue 
producing food, fiber, and fuel in good years and as well as bad.
    I applaud the many of you who worked to complete the 2018 Farm Bill 
just a couple of months ago. Having a farm bill in place gives our 
farmers, ranchers, foresters and producers peace of mind to make 
decisions for the future. At USDA, we committed to provide counsel to 
Congress at the outset of the legislative process and were pleased to 
complete over 2,000 pieces of technical assistance to the Congress as 
you wrote the bill. Now, we are eager to implement it.
    I want to assure you that USDA is implementing the farm bill as 
quickly as possible. Deputy Secretary Stephen Censky is leading 
implementation efforts within the Department, following a process 
similar to one put in place by USDA to implement the 2014 Farm Bill. 
The implementation working group met initially on December 20th before 
the recent shutdown began. The entire team is working aggressively on 
implementation, and has catalogued the provisions requiring action, 
assigned them to responsible agencies and staff, and is finalizing 
timelines.
    Agencies have also started gathering stakeholder input on how best 
to implement the provisions, in line with Congress' direction laid out 
in the law. On Tuesday, our Farm Production and Conservation mission 
area held a public listening session. Formal and informal listening 
sessions will continue in the weeks ahead.
    As example of our early efforts, USDA already allocated Fiscal Year 
2019 funding to recipients for the Market Access Program (MAP) and the 
Foreign Market Development (FMD) Program, which were both reauthorized 
in the farm bill. The allocations mark a significant investment in 
creating new export opportunities for our farmers and ranchers.
    Other examples include USDA's work on core conservation programs--
Environmental Quality Incentives Program (EQIP), Conservation 
Stewardship Program (CSP), Agricultural Conservation Easement Program 
(ACEP), and the Regional Conservation Partnership Program (RCPP)--which 
are on-track for FY 2020 implementation as required by the farm bill. 
Natural Resources Conservation Service (NRCS) utilized mandatory 
program funding to keep staff working throughout the recent shutdown, 
providing significant time to begin building the framework for the new 
and revised conservation programs they are responsible for 
implementing.
    In addition, the FSA dairy task force has begun to identify policy, 
software, training and other implementation issues and gather 
recommendations for leadership decisions. We understand the dairy 
industry's critical financial situation and we will make sure we 
prioritize the quick yet sound implementation of the industry's safety 
net.
    My commitment is that USDA will plow ahead with implementation, 
working diligently to deliver quality programs that serve the urgent 
needs of our customers.
    Among the provisions of the new farm bill are significant 
investments in USDA research. Congress' continued support for these 
programs is a reflection on our world-class research scientists and 
their track record of providing solutions to problems that affect 
farmers and the American consumer. I want our research programs to be 
on the cutting edge, and I believe that the research our scientists are 
conducting at USDA will be even more effective if the team is closer to 
the farmers they serve.
    In August, USDA announced we would realign the Economic Research 
Service (ERS) under the Office of the Chief Economist and would 
relocate both ERS and the National Institute for Food and Agriculture 
(NIFA) outside of the National Capitol Region. Those changes are 
intended to improve customer service, strengthen offices and programs, 
and save taxpayer dollars. USDA received 136 expressions of interest 
submissions from 35 states. The firm Ernst & Young was retained to 
evaluate and conduct the site selection process. We recognize there are 
outstanding questions regarding this decision and are committed to an 
open process as we move forward together to address concerns.
Creating Conditions for Rural Prosperity
    Before I conclude my testimony, I would like to address three 
topics that lie outside of the direct jurisdiction of this Committee 
but are among the top legislative priorities that farmers raise with me 
as I travel the country--I know these are important to the Members of 
this Committee as well. As we implement the 2018 Farm Bill, we must 
also focus attention on favorably resolving these issues if we expect 
the full potential of our farm communities to be realized.
    The first is that our farmers--the backbone of America--need access 
to a legal and stable workforce so American-grown products will 
continue to feed our nation and the world. In today's booming economy, 
many farmers are having trouble recruiting workers during peak seasons 
of need in rural parts of America. Estimates show currently over half 
of the experienced agricultural labor force is working without proper 
documentation on our farms, and the H-2A program is in need of 
improvement and modernization. Despite being a program used as a last 
resort, we have seen exponential growth in the H-2A program, suggesting 
that local workers are not available to do farm work. Farmers need 
long-term solutions that guarantee access to a legal and stable 
workforce. USDA is working closely with the Departments of Labor, 
Homeland Security, and State on revisions to the H-2A program; however, 
farmers need legislative reform that ensure access to a legal 
workforce.
    The second is the importance of rebalancing our trading 
relationships with key agricultural trading partners, and we can start 
with Mexico and Canada. President Trump negotiated a better deal for 
U.S. farmers in the United States-Mexico-Canada Agreement (USMCA), as 
he promised. The USMCA represents greater export opportunities in these 
vital markets and will maintain and improve the highly productive 
integrated agricultural relationship we have as nations. Notably, as 
one of the President's top goals, this deal eliminates Canada's unfair 
`Class VII' milk pricing scheme, cracks open additional access for U.S. 
dairy into Canada, and imposes new disciplines on Canada's milk pricing 
system. The agreement also preserves and expands critical access for 
U.S. poultry and egg producers and addresses Canada's wheat grading 
process, so it doesn't discriminate against U.S. wheat growers, 
including those along the border. We also hope for rapid progress in 
negotiating agreements with Japan, the EU, and the UK, resolution of 
China negotiations, and potential new agreements with other Asian 
markets that will expand opportunities for agriculture.
    Finally, farmers and ranchers were battered last year by a series 
of monumental storms, robbing them of their livelihoods and inflicting 
damage well beyond the financial risks they normally assume in their 
operations. These are the men and women who dedicate their lives to 
feeding, fueling, and clothing this nation, and we cannot turn our 
backs on them when they need assistance. Just as important, another 
devastating wildfire season left our Forest Service badly in need of 
replenished funds to fight fires, remove excess fuels, and conduct 
necessary forest management. Without these resources, we risk falling 
behind in forest maintenance and inviting even more severe wildfire 
seasons in the future. In 2017, Congress provided supplemental 
assistance for producers who experienced losses not covered by existing 
forms of relief. USDA stands ready to quickly implement assistance, 
bolstered by lessons learned, for similar losses in 2018 should 
Congress decide once again to act.
    The distinguished Members of this Committee represent the size, 
scale and reach of American agriculture, and rural America is counting 
on your leadership as these issues come before Congress for 
consideration. I look forward to continuing to work with President 
Trump and the Members of this Committee to address these critical 
issues on behalf of those living in rural America.
Conclusion
    Over the past 2 years, my team and I have traveled across the 
country to hear directly from the people we serve: farmers, ranchers, 
consumers, foresters, school children and others touched by the work of 
USDA each day. I am proud of the men and women at USDA who strive each 
day to improve life in rural America and provide the highest level of 
customer service. As we work to implement the 2018 Farm Bill, we will 
always keep in mind our motto to ``Do Right and Feed Everyone.''
    Thank you for the opportunity to testify this morning. I would be 
happy to answer any questions at this time.

    The Chairman. Thank you, Mr. Secretary. We appreciate that. 
And with that, I will recognize myself for a couple of 
questions.
    I talked to you a month or so ago about this African swine 
fever situation in China, and my constituents are still very 
concerned about this, they are worried about grandmothers 
bringing meat in from China. Has there been any significant 
upgrade at the airports with these flights that are coming in 
from mainland China to make sure that we don't have this 
potential swine fever coming in?
    As far as I understand it, it has decimated the hog 
industry in China, and if this gets in the United States, it is 
going to put us out of business. Are we on the ball here?
    Secretary Perdue. Well, I think we are, but there is no 
doubt with these kinds of transmissible diseases and the 
mobility of society today, there is no way to guarantee that, 
Mr. Chairman. APHIS, our Animal and Plant Health Inspection 
Service, is on the job at borders, working hand-in-glove with 
our Customs and Border Protection, using, obviously, dogs, 
rescue beagles in order to sniff out incoming travelers, 
internationally, particularly in those areas that we fear.
    But the pest transmission, both of animal and plant, is a 
real concern always. We are ever vigilant about that. We feel 
that we have a good protocol in place. We are working both with 
our primary threats, although there is no evidence of African 
swine fever in Canada or Mexico, you know that we both enjoy 
very long borders and fairly porous borders with each, and that 
is a concern. We work with those countries. We are going to 
Ottawa in the end of May to, again, collaborate on our 
protocols, making sure that we are all aware and doing the same 
thing. Awareness is the first key, but inspection and checking 
is second. I think we are doing that.
    Something like this, there is just no way to guarantee, but 
I believe we are doing everything possible at this time to be 
as preventive as possible for a very devastating disease. It is 
the mobility of our swine population in the United States, as 
you well know, from your area. Many of these pigs are born 
elsewhere and they transfer to be fed out in other parts of the 
country, and there are a lot of pigs on the road at any given 
time, which makes it very difficult. Unlike maybe a 
regionalization or a concept in poultry where you can more 
identify and encapsulate, the mobility of our pig population 
makes that more difficult. But I believe we are doing 
everything we can.
    The Chairman. Well, thank you. I am glad to hear that, and 
whatever we can do to help, we are here.
    You were last weekend, I guess, at Pheasant Fest in 
Illinois, am I right?
    Secretary Perdue. I was, in Chicago last Saturday.
    The Chairman. I guess you indicated that you are going to 
hope to reopen the CRP signup by the end of the summer. Is that 
just the continuous, or does that include a general sign-up?
    Secretary Perdue. We will begin with the continuous. If I 
can refer to notes, I have some notes about when we expect 
those deadlines of those to begin. The answer to the question 
as you well know, and these regulations on top of all the 
things we do, are based on how we have wrapped ourselves in a 
lot of checks and balances in this world. It is very difficult 
and onerous, many times, to get through.
    We expect all the CRP pieces on the general sign-up to be 
around December the 1st. We will probably be available sooner 
than that and continuous in that way. I know that is an 
interest of yours, and the things you have done with the whole 
field and Senator Thune's contribution over the short-term 
prospects make a real purpose of CRP from producing on the 
healthy lands and keeping these fragile lands for passive 
fallow with the wildlife growth in others will be helpful.
    The Chairman. Well, we hope so, and we will have to see how 
this plays out.
    But, I have been concerned that all of the focus has been 
on continuous, and there has been no focus on general sign-up, 
which is a big mistake.
    Secretary Perdue. Sure.
    The Chairman. And especially for wildlife. Big field CRP is 
what made wildlife come back and the reason we are losing it is 
because we are losing those big tract CRP, in my opinion, in my 
part of the world, but anyway.
    Secretary Perdue. Right.
    The Chairman. I am over my time, but just your 
implementation of dairy, as I understand it, you are hoping to 
get that done by June? Is that correct?
    Secretary Perdue. We are. I just had that in front of me 
here, and I think I covered it up. Let me give you the dates on 
our Dairy Margin Coverage.
    We think that we will have sign-up beginning June 17, if 
that is specific enough. We make these predictions. We are not 
totally in control, as you know. It goes through OMB process, 
whether it is significant or not significant, but these are 
what we think we can achieve. The interesting thing on the net 
refund provision that you all had on prior premiums, we think 
we can get that out in early April, middle of April, and the 
end of April on the net refund begins there. We think the 
calculator for farmers to calculate will be ready in the middle 
of April, and we think on July the 8th--we think that they can 
begin receiving the retroactive payments up to then.
    One of the challenges we have had on calculating it, and 
the effort in the 2014 Farm Bill, in order to get people served 
quickly, they used paper recording there on many of the 
components. It is not electronic. It is much more laborious to 
go back on the first 2 years and calculate who got payments, 
who didn't, and whether the farms have been converted, they are 
still in business. There is really a lot of manual 
administrative work that has to be done on those first 2 years. 
We could achieve even faster results if we didn't have that 
provision.
    The Chairman. Thank you. Thank you very much, Mr. 
Secretary.
    I recognize the gentleman from Texas.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Secretary, many of your predecessors have shied away 
from reorganizing the Department. You seem to have taken this 
head on. You have taken a lot of heat on some of the decisions 
you have made, but most of them seem pretty rational to me.
    One of those was to create FPAC and the FPAC business 
center. Would you please provide an update on the business 
center, plans to modernize the IT infrastructure, and how far 
along you are with the process, and are those efforts improving 
program delivery and customer service at FSA, RMA, and NRCS?
    Secretary Perdue. Thank you, sir. Again, while many people 
maybe misunderstood our motives initially on that, we began 
with the premise that if we are going to be customer focused, 
we need to not have customers going here and yon or reporting 
to different lines of reporting there. And having NRCS in with 
the Forest Service, we felt, made more sense to have it align 
with our FSA offices and created FPAC, the Farm Production and 
Conservation mission area, with a single Secretary, Bill 
Northey of Iowa, who was the Secretary of Agriculture in Iowa, 
an authentic farmer himself, and I have been very pleased with 
the assimilation. After the early move your cheese kind of 
problems, I have been very, very pleased with anecdotal results 
that we hear from internal and external customers. Both our 
NRCS and FSA, and as well as our customers have given good 
accolades to that.
    One specific example, during the shutdown, as you recall, 
NRCS was funded through mandatory programs, and they were in 
the FSA offices co-located in many places, and were helping 
answer farmer questions there, even though they couldn't do the 
FSA work. They worked together and helped them catch up that 
way. It is really a joint effort. The primary focus is serving 
that customer across the counter, whether it be from farm 
plans, conservation issues, or signing up for programs or loans 
for the FSA office. By all accounts, that combination has been 
a success.
    Mr. Conaway. The backbone IT infrastructure, all the 
resources needed to be able to combine those, that one-stop 
sign-up, you have the resources to make that happen?
    Secretary Perdue. We are making progress. You know that IT 
doesn't move as fast as many of us would like, but we are 
making progress on that. Our goal initially was to have one 
application. Between RMA or the risk management or crop 
insurance, we have different criteria and different blocks 
there. NRCS has different blocks than FSA.
    What we are trying to do, from an IT perspective, or have 
some commonality there where people could look from a crop 
insurance, an NRCS to an FSA application and have some of the 
common things filled out there where farmers would not be asked 
to go fill out all three. They use different units. Sometimes 
one uses acres, one uses bushels, and it is a lot of things to 
work together, but the business center and the IT is making 
progress on that, and hopefully we will have that soon. I would 
say soon would probably be early 2020.
    Mr. Conaway. Thank you for that.
    In the time remaining, would you give us your thoughts on 
USMCA? Where the wins are for production agriculture, and just 
your perspective on that trade deal?
    Secretary Perdue. Well, certainly. It is a very, very 
important trade agreement, and like any negotiated agreement, 
you don't get everything any side wants, all they want in that 
regard. If you remember when we began this process, there was 
sort of a big sucking sound from all of agriculture in the U.S. 
that said, ``Oh no, don't withdraw.'' NAFTA has been relatively 
good for agriculture. And I think we would agree with that.
    The fact is, there were some things that had been left out 
of the original NAFTA. President Trump had committed to a 
better deal, and if one is honest and objective in looking at 
the USMCA agreement, basically in every sector, in every 
section, in every chapter, you will find an improved agreement 
from labor to ag, to phytosanitary provisions to intellectual 
property to electronic trading, certainly to rules of origin 
that will bring more jobs back to the U.S. But for agriculture, 
it is improved.
    Certainly, there are people in some parts of the country, 
both in the southernmost part and Florida and Georgia and 
vegetable producers were not able to get the seasonal and 
perishable vegetable provisions they wanted. I can tell you 
that Ambassador Lighthizer hung tough and promulgated those 
until the very end, and at trading day, that fell off. But by 
and large, they continue to work on side agreements whereby 
they can still have their day in court regarding a dumping 
countervailing duty type of situation on those products.
    But, all in all, the USMCA agreement is improved, and I 
hope that we can all look at the objectivity of it and 
understand this is in the best interest of the United States of 
America's economy, and vote for its ratification.
    If you would like me to continue on the section 232 
tariffs, I can do that, or I can answer that later.
    Mr. Conaway. There will be other Members that want to talk 
about USMCA, but Mr. Secretary, thank you for your solid 
service to rural America, and you are making a great Secretary.
    Thank you. I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Georgia, Mr. Scott.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman.
    Mr. Secretary, first, I want to thank you. I want to thank 
you for the great work and partnership that you provided in 
helping us get the $80 million for the African American 1890s 
land-grant colleges and universities. The $80 million in the 
farm bill. Thank you so much. I can't tell you how appreciative 
we all are.
    And while I am at it, please say hello to my good friend, 
your cousin, Senator David Perdue, who provided the sterling 
leadership in the Senate. What an extraordinary, bipartisan 
program we have started together. Thank you for that. I deeply 
appreciate it.
    Now, Mr. Secretary, I am very disturbed. I am very 
frustrated with the treatment or lack of treatment of our 
farmers with these natural disasters.
    According to the University of Georgia, Georgia suffered 
$2.8 billion in losses. On top of that, Mr. Secretary, we have 
to do something. This is terrible. Agriculture is the single-
most important industry we have. It is the very foundation of 
this country. Still is. You recognize that. You have traveled 
to all 50 states, and you know as I do that in 44 of those 
states, it is agriculture and agriculture businesses that is 
the largest share of these states' economies. It is the food we 
eat, the water we drink, clothes we wear, our shelter. Who can 
be any more important to us than that?
    But right now, Mr. Secretary, we have to sound the alarm 
bigger. If we don't get some payments down to our Georgia 
farmers by April, we lose the planting season. That means 2 
years that we are losing the planting season, just coming from 
one natural disaster, Hurricane Michael. And in the last 3 
years, we have had three different back-to-back. In 2016, we 
had Hurricane Matthew; 2017, we had Hurricane Irma; 2018, we 
had Hurricane Michael, and some of our Georgia farmers haven't 
had a crop since 2015. If that ain't enough to get us moving 
here, Mr. Secretary, I know you share the angst, the 
frustration that many of us do. Austin Scott, Rick Allen, and 
myself, we have been up here beating the drum left and right.
    But this stuff has to stop. We have farmers hanging on by 
their fingernails. The suicide rate among farmers is alarming, 
up in our dairy farmers particularly, but all over.
    Please tell us, what is it we have to do from your 
standpoint to get the respect and the dignity that our farmers 
deserve, and help them?
    Secretary Perdue. My friend, Congressman Scott, I would 
probably be better off just saying Amen and stop, but it is 
heartwarming to see you and your colleagues, Mr. Scott and Mr. 
Allen, on the same team there, advocating for those disasters.
    And you all live it. You know it. You have constituents 
there. I thought Congress did a wonderful job in the 2017 bill. 
We did, I thought, an extraordinary job in administering the 
WHIP Program there. You have no difference, and it is really a 
sad state of affairs that we have not cared for the 2018 
victims as we did earlier. I believe there is still time to do 
that. You said April. We need it sooner rather than later. I 
hope we can do it even before April.
    I know that the Senate has dropped a bill that does take 
care of that. We were, frankly, disappointed because it had 
been in most versions of the appropriations bill prior until 
the last times, and hopefully, we can see that restored. It is 
the right thing to do, and frankly, it is the necessary thing 
to do, as you said, in your part and from your observation. I 
appreciate your passion about that. I certainly appreciate your 
passion about the scholarship money that was done. I feel a 
little bit like Davy Crockett's son, me and daddy killed the 
bear. You killed the bear and I was there and watched. We 
appreciate your passion in that.
    Mr. David Scott of Georgia. Thank you.
    Secretary Perdue. I am happy that we agreed very early on 
that these are students that we want to cultivate and 
incorporate into the future of agriculture and USDA, and we are 
making good progress there. I have been to many of the 1890s 
schools, and they have some great programs. I have been down 
with your colleague, Mr. Lawson, at his alma mater, and your 
alma mater, I believe, and they are doing good work.
    We look forward to utilizing the extra money. I am glad to 
see you are presuming about that other $40 million from the 
appropriators, and our $40 million. We will see how that works 
out. But nonetheless, we are going to do a good job with that.
    I want to echo your comments to your colleagues, primarily, 
and I know the message is to all of us. This disaster must be 
done. It must be done soon, or there will be some real harm 
going on. Thank you.
    Mr. David Scott of Georgia. Absolutely. Thank you, Mr. 
Secretary.
    The Chairman. I thank the gentleman. The gentleman from 
Georgia, Mr. Scott.
    Mr. Austin Scott of Georgia. Well, guess what I want to 
talk about.
    Secretary Perdue, always good to see you. You mentioned the 
USMCA, the seasonal issues with the dumping. Obviously, for the 
farmers that I represent, the number one concern is that there 
are no provisions in the current draft that would keep Mexico 
from dumping at a subsidized price into our markets at harvest 
time, and so that is something I look forward to having further 
discussions about. I have talked with Secretary Lighthizer 
about it as well, and I appreciate the fact that you brought 
that up without even having to be asked about it, that you 
recognize that that is a concern for our growers.
    But, the number one issue right now--and quite honestly, I 
get more phone calls from bankers than I am getting from 
farmers these days about disaster relief. I know that you were 
there with the President, it was October the 15th, and the Vice 
President on October the 16th when Vice President Pence, who I 
very much like and respect, made the statement: ``We will be 
with you until we succeed,'' I believe was what he said. 
Certainly, there was a sense of relief that came across the Ag 
Expo in Crawford County when those statements came from Vice 
President Pence.
    I know a Senate bill has been introduced. I know Senator 
Perdue, I saw him on Monday and Senator Isakson have both 
indicated they are doing everything they can to push that bill 
as soon as possible.
    Before I go any further, I want to thank Jim McGovern, the 
Chairman of the Rules Committee, and Sanford Bishop for their 
work in helping us plus up the amount available to agriculture 
to a number that is much more reasonable with regard to what 
the total losses are.
    But I am at a loss for what to tell my people. When I get 
off of I-75 and I go home, I drive past these fields. I drive 
past these farmers' homes. I know these people. We go to church 
with them. I have been telling them since October, help is 
coming. And I honestly don't know what to tell them anymore. It 
feels like a broken promise back home to the people when we 
just keep saying help is coming.
    Secretary Perdue. I think that is certainly understandable. 
I believe, based on what we were all led to believe, that this 
money was in that appropriation bill and was removed in the 
crisis of whatever. I don't know that it does any good to even 
try to do the forensics on a blame game from a diagnosis. We 
have to go forward and use the structure that is before us 
right now to cure this as quickly as possible so we don't have 
to answer those questions very long. We have both gotten them, 
and they are reasonable. Not only, as you said, were producers, 
it was as much their financiers asking that of whether they are 
going to be able to pay out loans for people that had great 
crops.
    We know that we have a good safety net in the farm bill, 
but things like pecan trees and timber and those kind of 
things, even losing the bumper crop in cotton that was blown 
away and the safety net there doesn't replace the profit that 
was needed to repay loans and go forward again the next year.
    We just need to go forward expeditiously, as quickly as 
this Congress can move, to rectify what was a significant 
leave-out of the previous appropriation there. I do believe 
that your colleague in the state and the Chairman of the 
Appropriations on Ag, Mr. Bishop, is very interested in that. 
You know that he has many of these producers in his district 
that got hardest hit, and we do appreciate Mr. McGovern and 
others plussing that up. If you look back at how we expended 
the WHIP Program for 2017, you will find that we did it very 
judiciously and frankly, there have been very little complaints 
that I am aware of since that time as well. We expedited that 
and, I think, made you all proud of putting the money out 
there, and we got it in the hands of the people that needed it 
most.
    Mr. Austin Scott of Georgia. And I think that the previous 
WHIP is proof that the checks and balances are there with that 
system so that we provide the relief that is necessary, but 
that we are not making somebody more than whole prior to the 
storm.
    I appreciate your support of the farmers. I know you feel 
the pain as I do when you go home. You live in the 8th 
district, and just any help with getting this thing expedited 
would be appreciated. Thank you.
    Secretary Perdue. The good news, Mr. Scott, is that having 
had the experience last year of designing that program, we are 
way ahead of the curve. It won't take us nearly as long to 
implement and get money into those hands as it did last year. 
Even though that was quick, it will be a very similar type of 
program. Trees and those kinds of things have not been a 
typical issue of the farm bill before, or part of USDA, but we 
think after the citrus experience last year, we have a better 
idea of how to do that.
    Mr. Austin Scott of Georgia. Thank you.
    The Chairman. I thank the gentleman, and as I said in my 
opening statement, I will do anything I can do to--I don't know 
how much anybody will pay attention to me--but whatever good it 
will do, we are there to help you.
    The gentleman from California, Mr. Costa.
    Mr. Costa. Mr. Chairman, I always pay attention to you. And 
for the Ranking Member, this is an important hearing for our 
House Agriculture Committee to get a report early in the year 
by our Secretary of Agriculture to discuss the status of the 
challenges that American agriculture is facing, and they are 
many. And we know the farm economy is suffering, not only 
across the country, but in California as well.
    As the new Subcommittee Chairman of Livestock and Foreign 
Agriculture, in speaking with the Chairman of our Committee and 
Members of the Subcommittee, we intend to hold a hearing early 
on as it relates to the challenges facing U.S. dairy industry 
and the changes in the program that you cited earlier in your 
comments. And the timeline that you laid out to us, Mr. 
Secretary, will be probably good as it relates to better 
understanding how we attempt to address the economic 
challenges, the loss of liquidity that is affecting dairy, not 
only in California, but around the country. We look forward to 
coordinating with you on that timeline and on that very 
important Subcommittee hearing, probably in April, I would 
guess.
    Let me also cite to you, before I get to my question, Mr. 
Secretary, that on February 1, a significant portion of the 
California Congressional delegation sent you a letter about the 
impacts of the devastating forest fires that have impacted not 
only California, but the entire West. The United States Forest 
Service obviously has the responsibility, the jurisdiction of 
coordinating with individual states, and the question that we 
cited in the letter that we sent to you about a month ago was 
trying to determine the impacts of the 35 days of the 
government shutdown, the closure, as it relates to contracts 
that had been noted for hiring, training for new firefighting 
personnel and other mitigation efforts that were put on hold 
for 35 days. We have not yet received a response, Mr. 
Secretary, and I can speak for the California delegation. We 
would like to find out where we are on that, because obviously, 
after the winter, we will have another fire season that we will 
have to contend with, and we hope for the best.
    If you can get back to us, give us an idea when you can get 
some answers to us on the questions that we asked.
    Secretary Perdue. Absolutely, and I am embarrassed that we 
have not responded already. We have set new accountability 
terms in our office over the timeliness of responses. As you 
finish, I will do my best to give you a verbal answer.
    Mr. Costa. All right. Very good.
    Let me ask you my question. It is on trade, part of the 
jurisdiction of the Subcommittee.
    Last week, Canadian Ambassador David MacNaughton to the 
United States and White House Economic Advisor Larry Kudlow 
predicted that the Administration could remove Section 232 
tariffs on steel and aluminum in a matter of weeks.
    Mr. Secretary, I don't need to tell you that the 
retaliation of U.S. agriculture as a result of these tariffs 
have been incredibly difficult to our producers. Dairy 
producers, processors depend on exporting their cheese to 
Mexico. I have a significant processor that you met when you 
came to California last year. Twenty percent of his product 
goes to Mexico. We have products that are in decline in China 
and India, exports to Canada, the list goes on. Forty-four 
percent of California agriculture depends upon foreign trade.
    The President admitted last week that his strategy to get 
the USMCA approved was to threaten the use, or increase of, 
section 232 tariffs on Canada and Mexico. That has also 
impacted our European allies. He also threatened to withdraw 
from NAFTA before USMCA is brought to a vote.
    I think that strategy is a mistake. I was in Mexico in 
December for the inauguration. They simply said, ``Look, we are 
willing to reduce our tariffs, but we want you to pass USMCA,'' 
and that is our only leverage.
    My question to you is whether pursuing new markets and 
trade deals, which we need to do with Japan, and we need to 
resolve with China where are we with regards to USMCA and these 
section 232 tariffs. Can you confirm that Ambassador 
MacNaughton and Larry Kudlow have hinted on that the 
Administration will finally remove these misguided section 232 
tariffs in the next few weeks?
    Secretary Perdue. I can confirm that we have had 
discussions at my level with my contemporaries, both Minister 
MacAulay in Canada and Secretary De Lobos in Mexico regarding 
the interest of all three countries to ratify USMCA, which we 
all believe would need to have the section 232 tariffs resolved 
as well.
    Mr. Costa. I mean, that is their only leverage, obviously. 
They want it to pass. We want it to pass, but we need to get 
going.
    Secretary Perdue. Certainly, again, the removal of the 
tariffs is in the interest of all and we are advocating to the 
Administration to do that. Certainly, the President has 
responsibility for the whole economy. He began the section 232 
investigation, demonstrated a weakness in our steel and 
aluminum sector, and the potential for losing----
    Mr. Costa. But the 80 percent target date on aluminum, that 
has been met.
    Secretary Perdue. Yes, sir, and what we are moving towards 
is a resolution over the tariffs possibly to be replaced by 
reasonable quotas with which Canada and Mexico can live, and 
have the retaliatory tariffs removed.
    Mr. Costa. We look forward to continuing to work with you, 
and my time has expired, but this is a critical issue, 
obviously for American agriculture, as you know.
    Secretary Perdue. Let me respond on the Forest Service 
regarding your letter and your question.
    Overall, the hiring program, while we were concerned about 
that, preparing for the 2019 Fire Service, our Under Secretary 
and Chief tell me that they have regained the momentum that 
way. We don't think there will be any permanent harm.
    I do want to mention, however, I failed to mention earlier 
regarding the disaster provision. In the appropriations bill 
that was passed, the backfill of money that we used to fight 
and suppress forest fires this past year was not refilled. That 
has been typically done. Over $720 million that we took from 
operations to help prevent forest fires and suppressing forest 
fires, that is money that we need to fill that back so we can 
continue to do the things you have authorized us to do.
    Mr. Costa. Duly noted. We will work with our friends with 
the Appropriations Committee.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate you being here today. I think 
my colleagues have been drinking muddy water, because I can't 
see through them, but anyway.
    Secretary Perdue. It is the Red River Valley up there.
    Mr. Crawford. Exactly. It took them a second to figure out 
what I was talking about there.
    I want to commend you on the regulatory reform that you are 
undertaking. We worked on a deal in the farm bill the last time 
around that removed the SAM and DUNS requirements, and I know 
that you are working on that. Thank you for that. That is going 
to go a long way.
    I wanted to ask if there was specifically any other 
regulatory initiatives that you are undertaking right now that 
also might provide some relief to farmers?
    Secretary Perdue. Well, working on, I believe we have that 
SAM DUNS issue that was very troubling, we have it done, and 
the good news is farmers don't have to do that any longer. That 
was an unnecessary provision.
    Again, in the overall management of being the most 
effective and efficient, whether regulations or policy or just 
management tactics, we are ongoing, working on things that will 
make us better customer servants there of the people that 
depend on us to implement the farm bill in that way.
    Obviously, many of the things that you talk about from a 
regulatory standpoint have to do with implementation of the 
farm bill. We are trying to make it as user-friendly as 
possible. Again, labor is a great issue there, over the H-2A 
Program. We are working with the Department of Labor to 
eliminate the very onerous provisions of having to advertise in 
several counties and regions in order to qualify to get H-2A 
provisions. We are creating at USDA sort of a Turbo Tax type 
model portal where the farmer can come there, fill out all the 
information. We send that then to Labor, DHS and Secretary of 
State, State Department, as the primary statutory provisions on 
H-2A to help do that. We think that will be a big help. There 
still need to be statutory changes made in the labor force, but 
that is one area that we are trying to work on as well that 
will enable people to get the labor they need on their high-
touch crops.
    Mr. Crawford. Some of my colleagues have mentioned USMCA, 
and you have addressed that as well, but just give me your gut 
assessment of what happens if we don't close the deal on USMCA.
    Secretary Perdue. I don't like to think about that.
    Mr. Crawford. I don't either.
    Secretary Perdue. It would be devastating, and I hope all 
434 of your colleagues understand the threat it would be to the 
U.S. economy, especially the ag economy, if we don't ratify 
that. I hope that, frankly, everyone here, I believe, is well-
intended and will put partisan politics aside to vote for the 
benefit of the country and ratify the USMCA.
    Mr. Crawford. Let me just ask you, finally, and you don't 
have enough time to answer this completely, but just give me 
your assessment of the Green New Deal. There are some estimates 
out there that it is going to cost a ton of money, money that 
we don't have. Certainly, what we know is that farmers are 
active environmentalists, as opposed to environmental 
activists, and so we can count on farmers to do the right thing 
with regard to protecting the environment.
    But give me your assessment on the Green New Deal as it 
proposed, and what the impact might be on agriculture in 
general.
    Secretary Perdue. You are right, I don't have time to 
answer that. But aside from giving our cattle Pepto-Bismol, I 
am not sure what we can do.
    Mr. Crawford. Well, I won't ask you anything further, Mr. 
Secretary, but I do want to commend you again for doing a 
fantastic job. It is very satisfying to see the right person in 
the right job at the right time, and you are certainly that 
person. Thanks so much for all you do.
    Secretary Perdue. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from Ohio, Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank you 
so much, Mr. Secretary, for your testimony.
    Mr. Secretary, under your leadership, USDA has implemented 
a series of what I really believe are kind of half-baked 
proposals to reorganize the Department and introduce harmful 
regulations that we have had to come behind you and correct.
    In May of 2017, you eliminated the position of Under 
Secretary for Rural Development. Congress restored it 
permanently in the farm bill. In August of 2018, you proposed 
the relocation of ERS and NIFA, as well as decided to put ERS 
under the direction of the Chief Economist. Just in our most 
recent appropriations bill, the language delays this because we 
want to be sure that you are doing this in a way that makes 
some sense. We have requested that you provide cost estimates 
and a detail analysis to show us this plan before it can 
proceed. This past December, you issued a proposed rule on 
ABAWDs, and it is my understanding that you are getting ready 
to develop another rule to limit categorical eligibility.
    Congress debated these proposals just last year during the 
farm bill. They were rejected. You call it a missed 
opportunity. We call it intentional rejection.
    It is important to me to try to understand what your 
disdain is for poor people or people who have fallen on hard 
times or people who are just living on the edge, because what 
you are doing in these proposals is hurting those very people.
    Further, you have tried to circumvent other rules, and this 
one in particular really, really bothers me. There is a woman, 
her name is Naomi Churchill Earp who has been nominated for the 
position of Assistant Secretary for Civil Rights. This is a 
person who couldn't even get confirmed to be an EEOC 
commissioner. This is a person that the entire civil rights 
community has said is not good for civil rights, and so, I am 
not sure if you really are interested in civil rights, or if 
you just want the person because you want them for some other 
reason. But I am concerned that now you have made her a deputy 
to go around the process of confirmation.
    It is just difficult for me to figure out where you are 
going, and if, in fact, you really do care about under-served 
communities, about people who have had problems with the 
Department, or those who have difficulty finding a job.
    My first question to you, Mr. Secretary, is with your new 
ABAWD rule, can you please tell me what percentage of ABAWDs 
are veterans, are homeless, have mental or physical 
limitations, lack access to public transportation, or need 
language interpretation? That would help me determine how many 
people you are really talking about.
    Secretary Perdue. Ms. Fudge, I don't have those statistics 
in front of me today. I can get them for you, but I would 
respectfully disagree with many of your conclusions.
    If I can begin with the Secretary of Rural Development, as 
you mentioned, we still don't have a confirmed Secretary and 
two other important issues, along with Ms. Naomi Earp, in civil 
rights. There are three of those out there that are all three 
very qualified people. We wanted to get started very quickly on 
rural development. The farm bill before had created an Under 
Secretary for Trade that had not been filled because there was 
not money appropriated for that. We moved that to an Under 
Secretary for Trade because we thought trade was one of the 
most important ones, and asked Anne Hazlett to come from the 
Senate committee----
    Ms. Fudge. Reclaiming my time. You thought that, but the 
Congress who makes these decisions didn't think that.
    Secretary Perdue. Well, that was totally under the purview 
of the USDA to do that, ma'am.
    Ms. Fudge. Well, we put it back in the farm bill, so it 
couldn't have been entirely under your purview.
    Secretary Perdue. And we are delighted to have that. I look 
forward to having a confirmed Under Secretary for Rural 
Development. I welcome that. There was no provision to do that 
prior to that. You had seven and we needed eight.
    Ms. Fudge. That sounds like a problem in your Department, 
sir. I mean, Congress determined what we wanted to see, and 
that is what we expect to see.
    Secretary Perdue. And I am happy to have the eighth, and I 
appreciate that, and we will certainly comply with that. We 
have already had----
    Ms. Fudge. Reclaiming my time. You say you comply with it, 
but you turn around and try to promulgate a rule that is in 
direct conflict to something we just put in the bill last year.
    Secretary Perdue. I do classify it as a missed opportunity, 
and I want to, since you brought that up, I would like to give 
you a couple of quotes from former Democratic Presidents. When 
this bill was signed, for instance, President Clinton said: ``I 
have made my principles real well for a reform very clear from 
the beginning. First and foremost, it should be about moving 
people from welfare to work. It should impose time limits on 
welfare. It should give people all they need in order to go to 
work. This legislation meets these principles. It gives us a 
chance we haven't had before to break the cycle of dependency 
that has existed for millions and millions of our fellow 
citizens, exiling them from the world of work. It gives 
structure, meaning, and dignity''----
    Ms. Fudge. My time is up, Mr. Secretary, but let me just 
suggest to you. President Clinton he was in office 20+ years 
ago. Second, the economy has changed; and third, and more 
importantly, you can't even tell me who this affects.
    I yield back my time, Mr. Chairman.
    Secretary Perdue. I would like to quote from another 
President who was in office long before that, President 
Franklin Delano Roosevelt, who said; ``The lessons of history 
show conclusively that continued dependency upon relief induces 
a spiritual and moral disintegration that is fundamentally 
destructive to the national fiber.''
    The Chairman. I thank the gentlelady.
    The gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. I thank the Chairman.
    Secretary Perdue, we are very grateful to have you here 
today. So many of my friends back in Tennessee at the Tennessee 
Farm Bureau, Tennessee cattlemen and poultry industries, Cotton 
Council, et cetera, have been so pleased with the attentiveness 
you have shown to Tennessee, making many trips there, and they 
are very, very grateful for your service. We thank you for 
that.
    One concern we have in our district, and I am sure many 
others here, is the rural areas have continued to struggle with 
insufficient Internet connectivity and broadband service. Can 
you talk about the changes made in the new farm bill to improve 
rural broadband, as well as the USDA's plan to implement those 
changes and help bridge the digital divide?
    Secretary Perdue. I appreciate this question very much. It 
has the potential to be one of the most transformative things 
we can do for rural America to bridge the urban rural divide 
with connectivity and data access, certainly in telemedicine, 
distance learning, rural economics of entrepreneurship, as well 
as precision agriculture. We need a moonshot of broadband 
connectivity all over this country, not just in Tennessee, but 
in every rural hamlet, field around this nation. And the sooner 
we get there, the better off the economy of the country will 
be.
    We have taken the $600 million that you all appropriated 
last year and developed a very good program based on those 
unserved areas, not duplication for applications. People are 
busy doing their applications. We have given them information 
and we hope to receive those applications very soon to deploy 
these and demonstrate to you all that USDA can get the job done 
regarding rural broadband connectivity.
    Mr. DesJarlais. What does really soon mean? Can you give us 
a timeframe?
    Secretary Perdue. Yes, the applications should be accepted 
around May 1.
    Mr. DesJarlais. Excellent.
    I want to turn it over to rural lending for a minute. You 
are aware credit availability is crucial to farmers, ranchers, 
and forest owners. There has been some concern in my district 
regarding USDA's lending branch of the Farm Service Agency. 
What is the USDA doing to ensure FSA offices are staffed and 
ready to meet the needs of the vulnerable producers?
    Secretary Perdue. Well, obviously labor and workforce 
continues to be at the forefront. We can't get things done 
without appropriate people to do that. We continue to work. We 
have authorized a hiring plan, and you probably are aware that 
it is not the most easy place to onboard workers into, the 
Federal Government, but we are aggressively pursuing on a 
needs-based area. We have tried to put not a cookie cutter 
approach, but look at the workload in every FSA office to make 
sure they have the people to meet the needs. But that is a 
continuing challenge.
    Mr. DesJarlais. Well, speaking of labor and workforce, that 
is one comment I hear from constituents and employers in my 
district time and time again. They are very thankful for this 
booming and robust economy, but very frustrated about the 
insufficiencies in the workforce. Can you discuss USDA's 
proposed rule that would adjust requirements for able-bodied 
adults without dependents on SNAP, and how this would foster 
self-sufficiency and bolster our workforce?
    Secretary Perdue. Well as part of our previous 
conversation, we think, again, we believe the purpose of our 
welfare system should help people to become independent, rather 
than permanent dependency. We believe it does this with 6\1/2\ 
million people unemployed and over seven million jobs out 
there. We think, again, from the 20 hours a week of training or 
volunteer even, or working, if people have a job that they 
still qualify for SNAP, they will still be eligible to get food 
assistance in that way.
    We think we are helping people to, again, move into the 
dignity of work and the respect of providing for their 
families.
    Mr. DesJarlais. It amazed me that that was taken out of the 
farm bill when across the country, over 80 percent of people 
agree with this concept, whether you are Democratic, 
Independent, Republican, you can go ask your constituents, 
people believe that able-bodied people who can work, should 
work. Do you have any idea why there might be so much pushback 
and concern on this measure, and can you clarify to help 
alleviate that issue?
    Secretary Perdue. I have no clue.
    Mr. DesJarlais. Well, me either. Thank you for your time.
    The Chairman. I thank the gentleman.
    The gentleman from Massachusetts, Mr. McGovern.
    Mr. McGovern. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    I was here, the first time you testified before this 
Committee, back in May of 2017. And as you know, I care very 
much about the issue of food insecurity and hunger, and I asked 
you a question back then. I said I am looking for some 
assurances that you are a strong defender of the program, 
meaning SNAP, that you are not advocating structural changes or 
trying to put more hurdles in place to make it more difficult 
for people to get food, because it is a concern a lot of people 
in this country have. I would be interested in hearing your 
views on what you plan for SNAP. And I thought your answer was 
brilliant. You began with Mr. McGovern, I agree with you.
    Secretary Perdue. And I still do.
    Mr. McGovern. And then you went on to talk about how you 
support the program, and you ended with but as far as I am 
concerned, we have no proposed changes. You don't try to fix 
things that aren't broken. And when the motto is: ``Do right 
and feed everyone,'' I view that as very inclusive. And I was 
comforted by that, but like my colleague, Ms. Fudge, I am 
concerned about some of the actions by the Department, 
especially in the aftermath of the farm bill which rejected 
some of the issues that have been raised here by my colleague 
from Tennessee, and that is with regard to able-bodied adults 
without dependents.
    Just by the way, if the gentleman was still here, I would 
tell him that the concern that many of us have is that this is 
a very complex population. This is just not a bunch of people 
hanging around doing nothing trying to take advantage of 
government programs. This population includes returning 
veterans who are having a difficult time reintegrating into our 
society. It includes young people who have recently aged out of 
foster care. It includes people recovering from opioids, and 
individuals who are subjected to mass incarceration.
    And I also want to say to the gentleman who left, and Mr. 
Secretary, to you, you mentioned that we don't want to 
encourage a life of dependency on these programs. That is not 
the reality. The average person on SNAP is on the benefit for 
less than a year. And that is according to your own statistics 
in your Department. I am concerned about the proposals that you 
are putting forward, and your language in the proposed rule 
continues to stigmatize people on SNAP, and it blocks states 
from using their own discretion and waiving work requirements. 
Different states have different needs, and as we all know, this 
would especially create a crisis in rural areas. Able-bodied 
adults without dependents, as I said, are a complex, already 
vulnerable demographic that will be further immobilized if you 
take their food away.
    My question to you is was there any specific research FNS 
used to justify this rule change?
    Secretary Perdue. I appreciate your passion for this 
constituency, and I stand by my answer when you referred to my 
question last year, and I still think that we agree on many of 
those things. I do believe that what I said earlier regarding 
dependency, as I agree with President Roosevelt. I think it 
leads to a decline in personal dignity.
    We are talking about able-bodied adults without dependents.
    Mr. McGovern. Correct.
    Secretary Perdue. Some of them have issues. I think what 
you all have done masterfully in criminal justice reform, 
destigmatizes that part of the population. We are talking about 
not just getting a job, but getting prepared to go to work, 
which enables them.
    I was a former governor. My job as a governor was to draw 
down as much Federal dollars as I could, because I didn't have 
any skin in the game.
    Mr. McGovern. Right.
    Secretary Perdue. And that is what we see across the 
country with these waivers, which I know that they were abused 
in Georgia. I believe they are being abused in many places.
    Mr. McGovern. Well, I mean, I have talked to a lot of 
governors who would take issue with you on that. But, as I 
said, a lot of people who will be affected by this change are 
veterans, children who have recently aged out of foster care, 
people recovering from opioids, and individuals who were 
subjected to mass incarceration. I am just trying to understand 
the basis for the change. Does USDA have data on the 
demographics within the ABAWD classification?
    Secretary Perdue. We will be happy to provide you what we 
have.
    Mr. McGovern. I would request on the record that you share 
this data with the Committee because it would be helpful. Is 
there specific research in FNS to justify the rule change, or 
can you point me to specific research that proves that taking 
someone's SNAP benefits away will help them get a job?
    Secretary Perdue. Sure. Mr. McGovern, we are simply trying 
to preserve the integrity of the law as it was passed by 
Republicans and Democrats in 1996, which indicated there is a 
time period when a loss of a job or a health issue would give 
people an opportunity to have these benefits for 120 days.
    Mr. McGovern. No, and I understand that, and because the 
population we are talking about is complicated, and there are 
hurdles for many of these people to be able to get into a work 
training program or to get a job. I mean, returning veterans 
who are having a difficult time reintegrating back into the 
community, for example. I am just trying to understand the 
benefit of throwing these people off of a food benefit, how 
that helps them get a job? I don't understand that. I mean, 
this is not a population, contrary to what some have suggested, 
who are just lazy who don't want to work. This is a very 
complicated population, and I want to know what the research is 
and what the data is that the Department is using to basically 
justify this rule change. And I would appreciate it if there is 
such data, if there is a study, if FNS has done something, to 
be able to share that with this Committee.
    Because one of the problems, when we talk about SNAP and we 
talk about ABAWDs, we tend to generalize. Everything fits into 
a nice, neat category. It is a much more complicated 
population. It is a vulnerable population, and I am worried 
that if we go forward with what you are proposing, a lot of 
people are going to be hurt.
    And by the way, it goes against what the farm bill, which 
was passed in a bipartisan way, advocated for, and we will do 
everything we can to protect this population. And if that means 
going to court, we will go to court as well.
    Secretary Perdue. I appreciate that. We are actively and 
aggressively addressing many of the needs of the veterans and 
incorporating them into USDA, as well as the agriculture 
environment, to help these people. We have education training 
programs specific for them as well as some of the other 
vulnerable populations that you mentioned.
    Mr. McGovern. Again, we would appreciate any research that 
you have or any data that could justify what you were doing.
    I appreciate it. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from Missouri, Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for all that you are doing. I know that you care 
about all Americans, no matter their income level. Specifically 
regarding the conversation we just had, I just wanted to 
clarify that the changes in the proposals that you are putting 
forth don't kick people off. They give them an opportunity to 
get some training, and then if they participate in a training 
program to help them link to the 7.3 million open jobs 
available right now, that they can keep their benefits. Isn't 
that correct?
    Secretary Perdue. Better said than I did.
    Mrs. Hartzler. Okay, thank you.
    I wanted to move on to the program that was referenced 
earlier about relocating the two USDA research agencies, the 
National Institute for Food and Agriculture, and the Economic 
Research Service. And I just want to let you know that those of 
us in Missouri are excited about that opportunity. You have 
gotten some letters from us commending you on that. We believe 
that we have the personnel and the individuals with the skills 
necessary, and we would love to have those located there. Could 
you kind of give us an update on your rationale for why you 
wanted to move this agency out of D.C., out of the beltway, and 
move it closer to the heartland, closer to where the farmers 
are?
    Secretary Perdue. Surely. You, along with 135 others, would 
be happy, with the expressions of interest that we got, and we 
are certainly doing a very thorough, objective process. In 
fact, we engaged an accounting firm Ernst and Young that is 
used to doing these kind of relocation assessments in order to 
make sure that we did not involve any kind of political 
pressure or biases in any way, evaluating these, and there are 
some very interesting offers out there.
    Certainly, from a management perspective, having been 
governor as well as a businessperson, you go where you can 
attract the best labor force, and what we saw from a letter 
that Mr. Ramaswamy, who is the former director of NIFA, talked 
about the difficulty of living in Washington, D.C., with its 
cost of living. We think also it is costly to the Federal 
Government here. NIFA had a lease that was up and had the need 
to move locations, and that is what began me thinking about the 
possibility of both these agencies being relocated closer to 
the heartland of where most of their customers are. We plan on 
leaving a contingent of leadership in both those agencies, ERS 
and NIFA, here to be responsive to Congress and any other 
agencies here, interagency type of relationships that we need 
to develop from a professional perspective there. But frankly, 
most of the recruits that we have in an early Ph.D. program, it 
is very difficult to uproot young families and try to give them 
a definite quality of life here in the D.C. area in many ways.
    I understand it is a change and people don't like change. 
We think that there are adequate reasons. We would be happy, 
outside these hearings today as we don't have time, I would be 
happy to discuss with anyone who has some major questions about 
that, our reasoning.
    Mrs. Hartzler. Sounds good.
    Your tweet on Friday about the commitment from the Chinese 
to purchase 10 million metric tons of soybeans was great news. 
Can we look forward to purchase commitments on other 
commodities like ethanol and DDGs as part of the negotiations?
    Secretary Perdue. I sure hope so. I will give you a cute 
anecdote that happened in the meeting there. When the Vice 
Premier Liu He gave that commitment, the President said, 
``Sonny, go out and tell your farmers that we got 10 million 
more bushels. That is a big deal, right?'' I said, ``Yes, Mr. 
President.'' He said, ``Go and tell them.'' I kept sitting 
there. I did not leave, and he said, ``Aren't you going to go 
tell them?'' And I said, ``No, I am hoping there will be 
more.'' And the Vice Premier looked at me and said, ``There 
will be more.''
    But we are optimistic. We have to be cautiously optimistic. 
These negotiations are never over until they are over with the 
Chinese, and we have a lot of details, a lot of, frankly, 
hurdles in order to get there. There are some structural 
reforms and non-tariff measures that have to be agreed to in 
order to reach the kind of lofty purchase potential that is out 
there for the Chinese, so we are hopeful. That will be 
determined later. We will continue to make progress, but 
ultimately, President Xi and President Trump will have to 
decide that it is time to restore relationships in a meaningful 
and forcible way that reforms the intellectual property 
transfer issues that we felt were damaging our national economy 
initially.
    Mrs. Hartzler. Absolutely. I appreciate all your work and 
all your leadership. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentlelady, and I am pleased to 
recognize the gentlelady from North Carolina, who, by the way, 
is the Vice Chair of the Agriculture Committee.
    Ms. Adams. Thank you, Mr. Chairman, and thank you to our 
Ranking Member as well for hosting this hearing and Secretary 
Perdue, thank you for your testimony and welcome back.
    I was proud to work with a bipartisan group of my 
colleagues to authorize at least three Centers of Excellence at 
1890 land-grant universities in last year's farm bill, and $5 
million have been appropriated for these centers in the 2019 
appropriations bill. And many of us on the Committee and in 
Congress want to ensure that the 1890s get the funding and the 
support needed from USDA to establish these Centers of 
Excellence and to do the kind of research that is necessary for 
them to do.
    I am curious about your commitment to work with us to 
ensure that the farm bill authorized level of funding of $10 
million is included in the President's 2020 budget.
    Secretary Perdue. I don't know that I can commit what will 
or won't be in the President's budget, but I can commit if it 
is there as you all appropriate it, we are going to, obviously, 
fulfill your vision for what we do with that in fine fashion.
    I want to mention one other thing about that. One of the 
better things you all did regarding 1890s and the farm bill was 
to stop the rescission of the money that you are giving out 
there, them being treated differently than others. That will go 
a long way.
    Ms. Adams. Well, I want to thank you for that. That was an 
amendment that I had, and you supported that. You saw the 
inequity there. Certainly, that is what it was, and I 
appreciate your support there.
    Secretary Perdue. Right.
    Ms. Adams. And again, I would just like to have your 
support going forward. I know you can't tell the President what 
to do, but I certainly hope that you will certainly emphasize 
that.
    I also want to ask about your decision to appoint Naomi 
Earp as the Deputy Assistant Secretary. I understand there are 
some issues around her views on civil rights and so forth that 
have raised some concerns by the NAACP and other communities, 
and you may have responded to that. But if you could just tell 
me a little bit more, I would appreciate it.
    Secretary Perdue. Yes, I was extremely impressed in looking 
at her resume, but more impressed when I met her personally, 
quizzed her on her passion and commitment to fulfilling the 
laws of the land regarding our responsibility at USDA to 
fulfill the civil rights components in all aspects there. I was 
assured that she was prepared to do that, and certainly looking 
at her, she is professionally qualified, having led efforts at 
EEOC and others in that realm. I found her to be eminently 
qualified, and I look forward to her confirmation.
    Ms. Adams. Well, okay. I won't go any further with that, 
but just to say that there are lots of concerns in the 
community about not only things that she said, but the way she 
has conducted herself as it relates to civil rights.
    Our Committee appreciates the work of the Food and 
Nutrition Service. I just wanted to add my support for SNAP, 
and my colleagues who have raised that issue when we talk about 
able-bodied folk and people needing to work, that there are 
many circumstances that create problems for them. We have a 
skills gap. Yes, there are lots of jobs, but in terms of 
whether or not people have those skills to do those jobs, that 
has to be considered as well. And also, in terms of the 
children who will be impacted. If you take from the parents and 
those who are responsible for those children, the children 
suffer at home and at school.
    I wanted to just raise that and say that childcare and many 
other things come into play, and sometimes if your bellies are 
not hungry, you have not suffered that pain. We don't 
understand the pain of other folk.
    But anyway, I am running out of time, but I will submit any 
other questions I may have to you in writing.
    Thank you very much, and Mr. Chairman, I am going to yield 
back.
    The Chairman. I thank the gentlelady. The gentleman from 
California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Mr. Secretary, we appreciate your appearance here today. 
Thank you for your time with us here, and also for your 
diligence in what we have dealt with in northern California 
with the fire season, with the fire in Redding, California, 
which we thought was devastating, and then after that, the camp 
fire in Paradise, California, on top of that. The diligence of 
your office and our other partners in Interior and Homeland 
Security has been pretty amazing and appreciated.
    As we know, 650,000 acres burned just in my 1st district of 
California this year, 93 lives have been lost in the two fires 
combined. That points out that we need to dramatically change 
how we manage forests in California and the western states and 
across the country.
    Just in California, we have 130 million dead trees and 
counting across our 9 million acres in the state of forested 
lands. And we need to do treatment on them. We have to do the 
kind of treatment that will help us to mitigate wildfire risk. 
You don't eliminate wildfire risk because lightning happens and 
people happen too, but you can certainly make a forested 
situation much more manageable when a fire does occur, as we 
had many years ago when the inventory of trees per acre and 
brush, et cetera, was much lower and much different in a 
natural setting. We have been putting fires out for 100 years, 
and now we have an overload of inventory of that material.
    Needless to say, we had some really good provisions in the 
farm bill that passed the House on the forestry title. A lot of 
that was eliminated over on the Senate side. I am glad we got 
the farm bill done. We did get some good pieces in there, but 
some really important leaps for all of us would have been there 
with that other parts in that title. We did a lot of work on 
that and then the work that was said in the omnibus previously 
that had forestry efforts in it really falls short of what we 
need to do. It is very important to the assets that we are 
supposed to be stewards of, and USDA, through the U.S. Forest 
Service, the forest asset, the habitat that it means, and the 
human lives that are affected.
    We have to have strong management here, and at the rate 
that we are going under previous regimes with basically one 
percent of our U.S. Forest Service land being touched per year, 
it will take 100 years to get across and treat them. We don't 
have 100 years for the hundreds of thousands of acres that burn 
in the West every year.
    We have tried to ensure the Forest Service has every tool 
available on funding, on separating disaster funding from your 
main course of funding. But we need to be much more aggressive 
at this. Can you, Mr. Secretary, update me on how we are 
putting in place something that will move at a greater speed 
than one percent a year nationally or even maybe up to a 30 
year period to cover California on the treatment we need on all 
of our acres to be better habitat, more fire-safe, more 
healthy, and to boost an economy?
    Secretary Perdue. Thank you. I will do my best. We are 
making progress in both policy and authorities and in funding. 
As you know, the fire funding fix doesn't begin until this next 
fiscal year. That is why I felt compelled to mention the $720 
million that we had taken out of the kitty of operations to do 
exactly what you are asking to do. In order to suppress fires 
coming up, we need that to refill so that we can begin to do 
that.
    We have to prioritize. As you said, there is so much. What 
we are trying to do--what I have challenged the Forest Service 
to do is to prioritize on those wildland-urban interfaces that 
are the most threatening. Certainly, you saw it firsthand in 
your district in Paradise how we need to focus first on those. 
But also, we are so far behind the curve. We need those other 
categorical exclusions that you mentioned, such as the dead 
trees and being able to remove them on a landscape scale, 
rather than having to go one application after the other, which 
all of them are subject to NEPA and litigation, and that just 
slows the process down.
    Mr. LaMalfa. Yes, sir. We have good work on the Good 
Neighbor Authority allowing local Tribes, local governments, 
and even neighboring private lands. We need a lot stronger help 
from the private-sector on this to do it faster than what we 
are.
    Let me touch real quickly. Good work on getting rice into 
China. How is it going on Japan with the discussions on getting 
rice a little more strongly into that economy?
    Secretary Perdue. We don't know yet. Obviously, Ambassador 
Lighthizer will focus on Japan, along with China, over the 
understanding that TPP implementations are coming and our 
producers will be at an extreme disadvantage there. He 
understands how important Japan is and has committed to me that 
he will move on that as quickly as able with them, and 
hopefully can get an agreement that is TPP or better very soon.
    The Chairman. I thank the gentleman.
    I recognize the gentlelady from Virginia, also the new 
Subcommittee Chair of Conservation and Forestry, Ms. 
Spanberger.
    Ms. Spanberger. Thank you so much, Mr. Chairman. Good 
afternoon, Secretary Perdue. It is so nice to see you. Thank 
you for being here.
    First of all, I would like to start by inviting you to join 
me in central Virginia, visit my district sometime. We have 
bison farmers, vineyards, dairies, small and large soybean 
farms, hydroponic farms, small family certified naturally grown 
farms, and I would like to take you on a tour of quite a few of 
our farms, if and when you have the time.
    But my question today is about rural broadband. I know 
there has been a number of questions about this already, but 
according to the FCC's 2018 Broadband Deployment Report, almost 
30 percent of Virginians living in rural areas don't have 
access to fixed broadband at what is considered a minimally 
acceptable speed. That is 3 megabytes per second upload. This 
creates significant challenges, from the ability of businesses 
and farms to operate in these communities, to the ability of 
our kids to do their homework. And across my district in 
central Virginia, we have some students who sit in McDonald's 
parking lots so that they can get access to Internet, and it is 
drastically impacting their ability to compete with other 
students, to have the same experience as other students in some 
of our more populated suburban areas that have stronger 
broadband Internet.
    The Fiscal Year 2019 appropriations included $550 million 
for the ReConnect Program, a broadband loan and grant program, 
and the USDA's Rural Utilities Service also has other programs 
to support broadband, such as Community Connect Grants and the 
Distance Learning and Telemedicine Grants.
    You spoke briefly about USDA's rural broadband effort, so 
my question is, do you think that the funding level is 
sufficient, and the structure of the programs are appropriate 
to address the challenge of getting broadband to rural 
communities across the country, and in my case, across central 
Virginia?
    Secretary Perdue. Surely. Certainly not across the country. 
It is enough to indicate that we can deploy these in a 
competitive way, working with private-sector partners. There 
are three tranches of that money. There is grant money, $200 
million, land-grant money of $200 million, and $200 million of 
loan, just loan money, of which there has to be equities in 
there. It is only the tip of the iceberg in the beginning. You 
have a beautiful district and I would love to come visit and 
tour and visit with your farmers, but the fact is, you are 
absolutely right. Not only your district, but many of the 
districts of your colleagues around here have situations that 
are exacerbating the rural-urban divide.
    Ms. Spanberger. Yes.
    Secretary Perdue. And if we want people to live in 
beautiful places like you have all of your district, they are 
not going to do it without the kind of services that are just 
as important as electricity was in the 1930s.
    Ms. Spanberger. That is right.
    Secretary Perdue. And that is what I would love for this 
Committee to be a champion to help us moonshot to cover this 
country from coast to coast with broadband.
    Ms. Spanberger. Thank you, sir, and thank you very much for 
your comments on that. My district is a perfect example. We are 
a majority suburban in population, majority rural in land mass, 
and that divide that you mentioned is happening right in 
central Virginia in our Congressional district.
    I have one more question about broadband, and I am curious. 
What do you expect the impact of the ReConnect Program funded 
at the 2019 levels to be on the number of people who can access 
broadband? Sort of what percentage of the need do you think 
that that program might be able to address?
    Secretary Perdue. I am not sure I want to tell you these 
numbers. I don't have a specific number, but this is very 
broad. Not nearly enough. This is, as I said, I don't know what 
quantification the tip of the iceberg is, but this is just a 
test case to demonstrate what we are trying to develop are 
public-private partnerships. The Federal Government, frankly, 
doesn't have enough money to do all this itself either. We use 
the REAs and all the EMCs across the country in the rural 
electrification and telephony. We had other private businesses 
there. What we are going to try to learn is how to optimize and 
leverage Federal incentives where there is not an economic 
reason to do this, get people who are in that business that 
know how to do it, and to do the most of it.
    I can't give you a specific number, but it is only a 
beginning.
    Ms. Spanberger. Well thank you, and thank you for your 
support of these initiatives overall, and for your recognition 
of what a significant issue this is to so many communities.
    Thank you, and Mr. Chairman, I yield back.
    The Chairman. I thank the gentlelady, and I want to remind 
Members that we are recognizing people in seniority order based 
on who was here when the gavel fell.
    Under that list, the next person to be recognized, Mr. 
Rouzer from North Carolina.
    Mr. Rouzer. Thank you, Mr. Chairman, and Mr. Secretary, 
great to see you. We all appreciate the great work that you are 
doing, and I just want to thank you again for coming to my 
district a few weeks ago, and that is not the first time that 
you have been there.
    The unfortunate thing is, part of the draw to my district 
is that it has been so devastated by Hurricane Florence, and 
before that, Hurricane Matthew. We have had two major 
catastrophic floods, one a little broader in scope and 
literally in depth than the other, but nevertheless, both of 
them were very significant. And then those that weren't flooded 
had so much rain that basically they lost the millions of 
dollars that were plowed into the ground, so to speak, with no 
return. And that on top of the fact that the farm economy has 
really been struggling the last 5 to 6 years, anyway, for a 
variety of reasons. Of course, you got the increase, which has 
a big impact on our folks, and we have talked about that 
already.
    I have two things I want to focus on here at the moment, 
though. One is directly related to the flooding, and that is 
the role of NRCS, and I want to commend you for the work that 
you all have been doing there, particularly in eastern North 
Carolina, but it is an area that needs a lot more focus.
    We have so many rivers, creeks, streams, swamps, that are 
just gunked up with junk from years and years of sediment 
traveling east and southeast into the district. Tree logs, you 
name it, beaver dams. It is a mess, and it is going to take a 
long and sustained effort to clean out all these rivers, 
creeks, streams, and tributaries to where the water can 
actually move and keep so much of our farmland and a lot of 
residential property as well from being flooded. And in North 
Carolina, we have the added impact--and this is both good and 
bad, in that you have such a huge influx of population growth 
in the central and western part of the state, and all that 
water has to go somewhere. You probably have observed, like I 
have, that when they build homes these days, they are a 
wingspan apart, literally 6. Well, when you have a big rain 
shower, that water goes straight to the drain, goes straight to 
the river, and it won't be too long where in eastern North 
Carolina when Raleigh has a 2" or 3" or 5" rain, it is going to 
be the equivalent of a Hurricane Matthew or Florence flood in 
eastern North Carolina because this water just has nowhere to 
go.
    With all that said, and that backdrop, I want to make sure 
that we are doing everything possible at USDA and the other 
agencies as well to really focus on that, and I would love to 
have your commitment and attention to is as we move forward.
    Secretary Perdue. Sure. One of the benefits of getting out 
and visiting with you all in your districts is that what I 
learned when we were with your constituents a few weeks ago was 
that I found that some of our NRCS people misinterpreted their 
ability to get into some of these creeks and streams and do 
what needed to be done. We came back and rectified that by 
sending down clarity of what they are able to do. Hopefully, we 
will have some impact over doing some of the things of clearing 
out these results of the devastation from the hurricane.
    Mr. Rouzer. The second thing I would like to raise with 
you, I just would like to get your update on where we are with 
the vaccine bank that was authorized and funded with the farm 
bill, and what you think the timeline for that is.
    Secretary Perdue. We appreciate the attention that Congress 
gave to the transmissible diseases. While we refer to it as a 
vaccine bank, it is actually a broader strategy than that. We 
call it the three legs of the stool. One is really an awareness 
system, working with states, and then a laboratory network, and 
then a real vaccine bank. These transmissible diseases that 
kind of began with foot-and-mouth, African swine fever has kind 
of taken the attention most recently because of the news in 
China, but they are all devastating, and either of those 
diseases and others could be crippling to our ag economy and 
livestock economy in the United States, and we can't be too 
vigilant about that.
    But the money you have given, Under Secretary Greg Ibach 
has a great plan for working with private industry and 
producers in order to develop both a network of early 
laboratory detection, as well as understanding the network of 
vigilance of reporting out here, and then the vaccine bank as 
well. We are still looking and trying to determine what is the 
best expenditure of taxpayer money regarding the technology of 
vaccines in that regard.
    Mr. Rouzer. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from New York, Mr. Delgado.
    Mr. Delgado. Thank you, Mr. Chairman. Secretary Perdue, 
thank you for being here today.
    As noted by the Chairman, I represent New York, upstate New 
York, New York District 19. That does come as a surprise to 
some folks that I represent the third most rural district of 
any Democratic Member in Congress, and the eighth most rural 
district of any Member in Congress, and I am proud to do so. It 
is the home of numerous small family-owned farms, thousands, 
and many of whom are small dairy operations.
    This past week, I visited farmers at their operations 
across the district. Among them was Don Coager, owner of Don's 
Dairy Supply, and Duane Martin, President of the Delaware 
County Farm Bureau, and owner of a small dairy operation. These 
folks and others I have visited with spoke about the challenges 
and opportunities small family farm operations face today. And 
I know the farm bill has done some good work with the Margin 
Protection Plan rebranded, I believe it is now the Dairy Margin 
Coverage Program. I know there is a lot of good stuff in there 
that hopefully gets implemented.
    But I want to focus a little bit on localized 
infrastructure, because we have to think more broadly about how 
we allow these small localized farmers to deal with the global 
market that sometimes is marginalizing them and pushing them 
out. There are dairy operations in ten of the eleven counties I 
represent, and the number of dairy farmers has declined in each 
of these counties over the last 13 years. In some counties, we 
are talking about from 400 down to 100, or from 100 down to 12 
over the last 20+ odd years. It has been devastating.
    My question is what can we do, aside from the insurance 
program, the Dairy Margin Coverage Program, from a localized 
infrastructure piece and resources piece to provide the sort of 
local USDA personnel and technology and services in rural farm 
economies, like the ones that I represent?
    Secretary Perdue. Well, it is a challenge. Obviously, what 
you all have done in the farm bill is the best start, 
particularly for your smaller dairies in upstate New York will 
be benefitted by this, both on the refund of previous insurance 
premiums under the prior program which did not result in any 
benefit that they perceived, as well as the upcoming one will 
help a lot.
    You have technologies coming like robotics, robotic 
milkers, which will help, but these are economy-of-scale issues 
that deal with all throughout the economy, not just in 
agriculture, and the economy-of-scale of a dairy industry from 
a small dairy is going to be extremely difficult, going 
forward, even with the new farm bill. I don't think any of us 
would submit that we are compelled to keep anyone in business 
if it is not profitable or they cannot justify that. But it is 
challenging. I wish there were more that we could do, and we 
are open to any suggestions from that and using all the tools 
of USDA to get that done.
    But dairy on a small scale, a small economy-of-scale, is 
like a lot of agriculture. When I grew up, a man and wife could 
probably have 300 or 400 acres and support a family of two, put 
the kids through college, and do that. Now, even in row crop, 
non-dairy, it is up to 1,200 or 1,500, maybe 2,000 acres in 
that regard. You see not only the number of dairies going out, 
but the number of cows are not reducing that much. We have 
actually gotten more productive per cow in many places in the 
economy-of-scale. These are challenges that are really 
intractable, and we look for any ideas that you may have in 
visiting with your constituents of how we can help.
    Mr. Delgado. I appreciate that.
    I did have another question on a separate matter, but your 
answer makes me think otherwise.
    I would hope that given what these communities have done 
for our country, the rural quality of life that they provide 
for so many wonderful communities everywhere, that we don't 
allow the economies-of-scale, as you put it, to deter us from 
doing the necessary work, to think about how we can do better 
by these communities, and not let the concentration, the 
monopolization of the industry be guided by our democratic 
principles. Because at the end of the day, these communities 
are being left behind, and I do think it is imperative that on 
some level, we don't just dismiss the problem as an effect of a 
growing economy, but that we have a responsibility at some 
level to do the work and to figure out how we can help, where 
appropriate.
    Thank you.
    Secretary Perdue. We are willing to explore and implement 
any ideas you may have.
    Mr. Delgado. Thank you.
    The Chairman. I thank the gentleman, and the gentleman from 
Nebraska, Mr. Bacon, is recognized.
    Mr. Bacon. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today and sharing with us.
    First, I regret some of the comments made on what you are 
trying to do with the SNAP Program. I think they are being 
misconstrued. We know your goal is to set money aside to 
provide technical training, college training for those who are 
able-bodied, don't have small children, don't have a handicap, 
and helping them get a high-paying job. The goal here is to 
break the cycle of poverty. This is a war on poverty, not a war 
on the impoverished. I just want to say, I thank you for your 
leadership on this. I think it is needed.
    Second, I wanted to follow up on the foot-and-mouth disease 
discussion, because that is one the highest priorities that I 
hear from our beef producers and our pork producers, and so, I 
appreciate your comments that you made already.
    My question to you is, what more can Congress do to partner 
with you and the Department of Agriculture to make the future 
of this a success? Because we want to have this vaccine bank 
down the road so we don't have an outbreak. When I talk to our 
cattlemen and our pork producers, a foot-and-mouth disease 
outbreak would shut down trade for 5 years, or maybe more, and 
that would have a devastating impact there, but also on our 
corn producers and a ripple effect across the entire economy.
    What more can we do to support you in this effort from 
Congress?
    Secretary Perdue. Well again, the initial appropriation 
over the vaccine bank will be a beginning as it will help us to 
determine the right technology to use and the right product to 
use. I think there will probably be more appropriations needed 
to fund a vaccine bank. I don't know that we are able to give 
you the right direction to do that, but as soon as we have some 
direction, we would recommend to you, it will probably, like 
most solutions here, require some more money.
    Again, just the awareness that the industry and Congress 
has brought to this issue helps everyone be vigilant about it. 
Awareness is the first step in any kind of solution, and you 
all, by funding it and putting it in the farm bill, have helped 
to make awareness for all producers across the United States.
    Mr. Bacon. Well, thank you. I intend to work closely with 
Mr. Ibach and your team, because we want to make sure that we 
are ready to react and respond here to give you the tools 
needed to make this a success.
    In the end, the beef industry, we are the number one 
exporter in Nebraska for beef of all 50 states, and this is a 
critical program, so I want to thank you there.
    Finally, I just wanted to ask a little bit about USMCA. It 
seems to me that Congress, we are taking some votes right now 
that have no chance in the Senate, no chance to become signed 
by law by the President. But yet, the USMCA agreement is ready 
to debate, ready to vote on. Is there any other priority in 
Congress for the Department of Agriculture that has a higher 
priority right now than getting USMCA passed, from your 
perspective?
    Secretary Perdue. Maybe aside from the disaster bill that 
we talked about previously, again, this certainly is critical. 
As I have told you, I don't think we want to contemplate the 
consequences of non-ratification, and I know that we are 
heartened by the coalition that is already forming out there, 
very strong Farm Bureau, Chamber of Commerce, both business and 
major ag groups. There is a lot of energy and a lot of momentum 
there right now, so I hope we don't tarry too long on that.
    Obviously, the trickiness of the section 232 tariffs play 
into that to some degree, but I am hoping that we can resolve 
that sooner, rather than later.
    Mr. Bacon. And what I heard you say today, and I heard 
previously from other leadership within the Administration that 
we didn't get every change that we wanted in the USMCA compared 
to NAFTA; however, every change that was made was to our 
advantage. Do I have that right?
    Secretary Perdue. Absolutely. That is--I challenge anyone 
to go line-by-line, chapter-by-chapter, and verse-by-verse and 
say where it is worse than it was. I don't think you will find 
it.
    Mr. Bacon. Well, in some of our counties in Nebraska, 
$50,000 of their income is directly related to trade with 
Canada and Mexico. This is a priority. We have to get it done.
    Thank you, Secretary, for your answers today, and Mr. 
Chairman, I yield back.
    Secretary Perdue. Under Secretary Ibach reminds me of that 
on a regular basis.
    Ms. Adams [presiding]. Thank you very much. We will now 
give 5 minutes to Mrs. Craig.
    Mrs. Craig. Thank so much, Mrs. Chairman.
    Thank you, Secretary Perdue, for testifying this morning 
about the state of the rural economy in particular. I am 
thrilled to serve on the Agriculture Committee, and I am from 
the great State of Minnesota, with our Chairman, Mr. Collin 
Peterson, and about half of my district is rural in nature, so 
it is a pleasure to be here today.
    Mr. Secretary, farmers throughout my district are 
struggling with record low farm incomes and low commodity 
prices. My farmers have made it clear that maintaining the farm 
safety net is critical to keeping their operations afloat. 
Thanks to the work of this Committee before I got here, the 
farm bill gives producers access to valuable risk management 
tools. The farm bill also provides producers with an 
opportunity to update their payment yields for the 2020 crop 
year, and moving forward, make a yearly election between ARC 
and PLC.
    What assistance will your agency provide to producers to 
ensure these opportunities are used to the fullest extent, and 
what impact in particular did the shutdown have on your ability 
to implement these changes?
    I am a freshman. I am new here. Apparently, we have had 22 
CRs since 1996, and we have shut the government down ten times, 
so any chance I get to put on record how bad an idea government 
shutdowns are on everyone, I am going to take an opportunity to 
do it.
    Secretary Perdue. I hope you will. You can't imagine how 
painful it is from an agency perspective.
    Certainly, you talked about two provisions regarding 
updating the crop yields. What we are doing right now is 
designing the granularity of the rules and regulations of how 
that will be done. You all give the intent and the will of 
Congress, and we go and put the rules and regulations in place. 
We are working feverishly to get that done as quickly as 
possible. It will not be done, obviously, by the planting 
season this year, but the payment for those programs are done 
in a year in arrears, and so we will have it done by the time 
that the next planting period for the 2019/2020 crop is done in 
that regard, so they can update their yields at that point in 
time.
    Mrs. Craig. Terrific, thank you.
    And how behind did you become because of the shutdown?
    Secretary Perdue. I failed to answer that part of it. It 
was disconcerting, but I will tell you, you may have heard or 
seen from some other agencies or groups over threatening to be 
sick or be out or whatever. We had our FSIS workers, our food 
safety inspection workers, didn't miss a beat, and while they 
were anxious like everyone else over not receiving a paycheck, 
they were stalwarts in the way they did their job in that 
regard. We were able to negotiate with OMB over getting 
critical people back into place.
    You may recall in your district we were able to get our FSA 
workers back for a couple of days prior to the shutdown, and 
then we were going for 3 days a week after that, which is 
extremely helpful to take care of the business. As I mentioned 
earlier, we had NRCS personnel who were funded helping in those 
offices in that way as well.
    I was very proud. These are people that are pretty 
dedicated to their customers. When I talk about being customer-
focused, they love to hear that, because that is what they want 
to do.
    While we were behind on a few things like the 
implementation of the broadband thing that got delayed a little 
bit, and some other contracts that were not essential, for the 
most part, only the bad memory remains. I think, for the most 
part, we have caught up. It will delay some things, the 
applications I said for the broadband and a couple other 
things, for a few days, but we are not letting it hold us back. 
We have kind of put a rule out within internal USDA. We are not 
going to use the shutdown as an excuse for any kind of delay of 
what we have to do.
    Mrs. Craig. Thank you for that, and just one follow-up 
question on trade.
    As many of my colleagues have continued to say, we rely on 
USDA to be a voice for ag within the Administration, especially 
during this self-inflicted, in my view, trade war.
    I worked in business for over 22 years, so I am new to 
government here, but it is often the case that once you lose 
some of these big countries, from a trade perspective, it is 
awfully hard to get them back. Chinese importers of U.S. grains 
may look elsewhere. I know we have some soybean issues.
    Do you believe our farmers will be able to get back these 
markets once we lose them?
    Secretary Perdue. Yes, I had that same fear initially that 
you refer to. I have since become much more optimistic about 
that, primarily because of the China discussions and the kind 
of numbers that we see there. While you refer to it as a self-
inflicted, it certainly was self-initiated. Again, to allow 
China to continue to build their economy on the backs of 
intellectual property theft and cyber transfer and different 
things like that would have been long-term damaging to our 
economy. I applaud President Trump for calling the question on 
that. Even though it induced some short-term pain that some 
remains to this day, the Market Facilitation Program made up 
for a lot of that. I hope you have heard from your rural 
constituents about that, and by and large, that we are going to 
be better off in the end, agriculture-wise and U.S. economy-
wise in order to get that done.
    The good question is, I am much more optimistic about 
regaining those markets. I know there is a fear that you lose a 
market and it takes a long time to get it back. While other 
people do look other places for a diversity of options they 
have, just as we look for a diversity of options in our 
personal shopping, the good news is the U.S. still provides the 
most reliable, the most abundant, the safest, the best quality 
food supply there is in the world.
    Mrs. Craig. Well, Mr. Secretary, for the sake of our 
farmers, I sure hope you are right.
    Ms. Adams. The gentlelady yields back.
    Mr. Dunn, you are recognized for 5 minutes.
    Mr. Dunn. Thank you very much, Madam Chair, and thank you, 
Secretary Perdue, for being here today and taking so much of 
your valuable time. I especially thank you for visiting my 
district after Hurricane Michael struck it. Shortly after it, 
you were there on the ground. I know you know the value of the 
losses due to that storm, and that it rivals everything in 
2017.
    You and I know that the key to standing a rural community 
back up after a hurricane, or a wildfire, is to ensure 
agricultural economy recovers quickly. Unfortunately, Congress 
so far has failed to pass a disaster supplemental program for 
2018. Like many issues in Washington, it is hung up on other 
unrelated political things, not questions of policy.
    My first question to you is, how can we help you to be 
better equipped in the future to respond to natural disasters 
like this? And I know that is a long, complicated question, so 
you may direct your staff to respond to that, work with us, as 
we go along down the pike.
    And let me say, your staff has been an absolute joy to work 
with on this.
    Secretary Perdue. Well, thank you. We appreciate it and we 
are proud of our staff and the response that they give to your 
Members' questions. We know that these are not things that you 
think up. They are constituent service issues, and we want to 
be responsive to them.
    Again, the farm bill does a great job in ordinary type of 
risks that are involved in farming from a safety net 
perspective. No one can contemplate a major disaster as we have 
seen in 2017 and 2018, and therefore, again, from Congress' 
ability to move very quickly from an appropriation restoration 
thing, we will be prepared to move very quickly.
    As I said, this year, having learned what we learned last 
year over the WHIP Program, we are ahead of the game in order 
to be able to implement that and get those resources into the 
pockets of your constituents that need it desperately.
    Mr. Dunn. I look forward to working with your staff on 
developing more quick response methods.
    Eighty-seven percent of the ag losses in Florida due to 
Hurricane Michael were timber, $1.3 billion worth of trees on 
the ground. I have spoken to constituents who have lost their 
entire retirement savings, which were in the form of timber, 
with the destruction of this. What can we do to help these 
folks, and do you believe the block grant like we did with 
citrus last year would be appropriate for timber?
    Secretary Perdue. Well, that is a great question. We 
actually will have to design a program for timber. It has not 
been typically in a disaster program, because it typically 
hadn't suffered like it did with Hurricane Michael. The swath 
of timber loss between the panhandle of Florida, all the way up 
150 to 175 miles inland in Alabama and Georgia was like nothing 
I have ever seen. That is not a typical crop that we think of, 
but it is an agricultural crop. It just has a longer growing 
cycle. And we certainly, as you indicated, that was many of 
these couples' 401(k) that they were using to fund their 
retirement in that area, and we will develop, you mentioned the 
block grant. More than likely, there will be some of that in 
there.
    Mr. Dunn. Let me go on here. I appreciate your help with 
that.
    We also have a crisis in Apalachicola Forest, so many trees 
on the ground. They have been on the ground for 4 months. That 
makes them pretty much past the point of salvage. We had some 
categorical exclusions in the House farm bill language which 
didn't make it the final version that would have allowed you to 
much more rapidly salvage and remove that debris. I want you to 
know that we will work together with you to try to get that 
language across the finish line this session. Again, because we 
could have salvaged a lot more trees than we did salvage.
    And finally, with the devastation of our timber crop, many 
of my sawmills will not have any wood that they need for 
decades after this. I am going to ask you to work with our 
office, where we can, to ease the regulatory burdens and give 
sawmills access to the wood that they need to continue their 
timber operations. And that is just a yes----
    Secretary Perdue. One of the best ways we can do that is 
making available timber sales in our National Forests, and that 
is what we are in the process of----
    Mr. Dunn. Music to my ears, Mr. Secretary.
    Again, let me tell you, staff has been great to work with, 
and I want to echo the words of Mr. Crawford. You are the right 
man in the right place at the right time. Thank you very much 
for all of your efforts.
    I yield back.
    Ms. Adams. Thank you very much. The gentleman yields back.
    Mr. Brindisi, 5 minutes.
    Mr. Brindisi. Thank you, Madam Chair. Thank you, Mr. 
Secretary. Good to see you.
    My district is also in upstate New York, and half of the 
district is considered rural. As you know, rural broadband is a 
big issue for us in rural areas. Eighty percent of Americans 
who don't have access to high-speed Internet live in rural 
communities.
    I do want to ask a question. Because of the shutdown, I saw 
on the USDA's ReConnect website that many of your webinars and 
other programs informing people about this funding opportunity 
were postponed, and, in fact, on the website no upcoming events 
or training programs are currently scheduled. My question is, 
how does USDA ensure that folks are aware of this rural 
broadband funding opportunity ahead of the April 29 deadline? 
Will you be rescheduling any of the canceled events that were 
planned, and do you plan on hosting any in-person events? We 
would love to have you back in upstate New York.
    Secretary Perdue. Sure. The April 29 deadline has been 
delayed by a month. That should be up on the website, assuming 
people have access to broadband. And you really ought to be 
proud of your state. It is one of the more progressive, from a 
state perspective, over promulgating broadband across the 
state. We are looking for state partners like that that have 
the passion for this. For many states and many governors who 
were in town this weekend, broadband is a huge issue for those.
    But regarding the program over the ReConnect, everything 
should be back up. The contractors were not deemed essential, 
and they had to suspend their work. But they are back at it now 
and all these programs should be certainly delayed not any more 
than the 30 days.
    Mr. Brindisi. Okay, and then also you talked about our 
state. We have had some issues in our state in terms of 
oversight of some of the providers.
    You had talked about working with our private-sector 
partners to expand broadband into rural communities, and I know 
that in some states like New York, we have had some issues with 
cable providers who have said that they were going to expand, 
have taken tax dollars, have said they were going to expand 
into certain under-served communities in rural areas. I am 
trying to figure out, what is USDA's role in oversight of tax 
dollars are going to private-sector partners, and they are not 
using that tax dollar wisely or not expanding into rural 
communities. What oversight does USDA provide ensuring that 
those taxpayer dollars are spent wisely?
    Secretary Perdue. An exact concern I had going into this, 
that is why we have taken probably a long time to develop the 
rules and the accountability provisions that way. Ours will be 
more of a reimbursement type of issue in that regard than money 
up front, and if you look at the accountability rules that are 
there on the website, there now, you will find fairly good 
accountability that never dismisses or excuses or eliminates 
some degree of fraud that may be out there. We have so much 
demand out that, we think we will be able to pick the best 
partners.
    Mr. Brindisi. Okay, and I just encourage--if you are 
looking at this, make sure if they are making commitments to 
expand into rural communities, that they actually follow 
through on their commitments to expand to X number of 
households that they promised that they were going to do.
    I also just want to----
    Secretary Perdue. I don't know that we have any claw-back 
provisions, but I am in favor of claw-back provisions as well.
    Mr. Brindisi. Me too.
    Putting on my other hat, I also sit on the Veterans' 
Affairs Committee, and I know there was a recent report from 
USDA about older veterans who tend to reside in rural 
communities and rural counties and near military bases. It 
notes that seniors, as a whole, participate in SNAP at rates 
much lower than the general population. Only about 40 percent 
of eligible seniors participate in SNAP.
    My question is, what is USDA doing proactively to ensure 
that older veterans, and all veterans who struggle with food 
insecurity, participate in SNAP?
    Secretary Perdue. Well again, what we are doing for our 
veterans and older veterans, we find that we are trying to 
encourage a program of mentorship. You have aging farmers that 
also want to mentor young people who want to get into farming. 
They may not have any heirs that want to carry on the farm, and 
many times, they can grow their own buyer if they mentor them 
over a period of time. That is one of the things we are 
encouraging.
    Other than the regular outreach between the Administration, 
as you know, the states administer this nutrition program, and 
many of them have various outreach efforts there. We don't, to 
my knowledge, have any specific outreach over the nutrition 
program targeted to veterans or seniors.
    Mr. Brindisi. Okay. You all don't work with the Department 
of Defense or VA on any of those programs?
    Secretary Perdue. We have worked with Defense over that in 
collocation with them, primarily in the jobs.
    Mr. Brindisi. Okay. Thank you, Mr. Secretary.
    I yield back my time, Madam Chair.
    Ms. Adams. Thank you. The gentleman yields back.
    Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson. Madam Chair, thank you very much.
    Mr. Secretary, thanks for being here. As you know, I have a 
real passion for expanding opportunities for working class 
folks, and in the last farm bill, there were ten state pilots 
set up regarding SNAP employment and training. I don't think a 
final report on those completed pilots is due until next year, 
so I am not looking for a lot of depth or detail from you, but 
do you have any initial observations about some of the state 
successes we saw in those pilots? And if you don't have any 
initial reactions, maybe just share with us some of your 
thoughts about some of the progress and successes that we can 
be making here in the years to come?
    Secretary Perdue. Well, I don't, unfortunately, have any 
interim type of report on that. We, like Congress, typically 
deal in deadlines of evaluation in that regard, and frankly, 
have so much else to do we don't have much of a chance to check 
on interim type of progress over these types of things. 
Regrettably, I don't have much information to share with you 
today.
    Mr. Johnson. Not a problem, Mr. Secretary.
    We have talked a fair amount about trade, and I have been 
encouraged by a fair amount of progress as we have talked about 
getting USMCA ratified, as it seems like we are making headway 
with China. We have talked a fair amount today about Japan. I 
mean, does USDA and other agencies, to your knowledge, have the 
tools that you all need to continue to expand market access, 
particularly for American producers?
    Secretary Perdue. We believe we do, and we are using it 
very well. As I answered a question earlier about our Under 
Secretary for Trade, the 2014 Farm Bill called for an Under 
Secretary for Trade. It had not been filled until we got there. 
I chose Ted McKinney from Indiana, a former director of 
agriculture there. He is quite a salesman, and he is well on 
his way to his million-mile status around the world, primarily 
focusing on new markets and going to places that have a lot of 
potential like India, Malaysia, Indonesia, Philippines, Taiwan, 
and other places around the world.
    The other thing that we have done, we can't do it, again, 
all by ourselves. It takes a private-sector, and we want to 
help them. The Market Access Program that you all fund on an 
ongoing basis, the mitigation program, we dedicated $200 
million of ag trade promotion dollars that we allocated out to 
over 57 collaborators in order to develop markets in different 
places, or go back and repair markets that felt like may have 
been damaged by some of that.
    We are working. They have been well-received, and we are 
working with not only regional, but commodity groups in order 
to reach other markets.
    Mr. Johnson. I have heard a number of Members ask about 
rural broadband, and prior to joining Congress, that was my 
career, focusing on helping communities design, build, and 
maintain great rural networks. And in the appropriations 
package that was passed, I guess, a few weeks ago now, there 
was $600 million of additional funding for rural broadband. Are 
there any observations from your perspective about what USDA 
may do with those dollars differently than what has been done 
in the recent past with Community Connect or other programs?
    Secretary Perdue. We will continue, unless we have better 
ideas or new ideas regarding this additional money. My goal 
initially was to do so well in the initial appropriation of the 
2018 omnibus of the $600 million to demonstrate that we would 
be great optimal stewards of that money in order to encourage 
you all to do more. We will continue to prosecute that 
additional money as well in that regard, and hopefully 
encourage the Federal Government as a whole to really take on 
broadband e-connectivity across the country, both urban and 
rural, as the real moonshot transformational opportunity I 
believe it is.
    Mr. Johnson. Well, and clearly, again, there has been a 
fair amount of interest on both sides of the aisle and from 
veteran Members as well as newbies. If your Department is able 
to identify any particular challenges for you getting done the 
kind of progress that you describe, certainly, let us know and 
if we can help, we want to.
    Secretary Perdue. We will definitely have more of those and 
the challenges and the impediments as we move forward in the 
application and the judging process of where we deploy those 
resources.
    Mr. Johnson. Yes, excellent. Thanks, Mr. Secretary, and 
Madam Chair, I yield back.
    Ms. Adams. I thank the gentleman.
    Secretary Perdue. And based on your previous experience, we 
could use you as a consultant in that area.
    Mr. Johnson. Well, you don't want me out digging the 
trench, I will tell you that. Some things I don't do as well.
    Ms. Adams. Thank you. The gentleman yields back.
    Mr. Harder, you are recognized for 5 minutes.
    Mr. Harder. Well thank you, Madam Chair, for yielding, and 
thank you, Mr. Secretary, for taking the time to be with us 
this morning, and for being an ally to our farmers and to our 
national and rural economy.
    I have been in office for just a couple weeks, but I am 
happy to say our office has already been able to work together, 
and thank you for extending the deadline on the Market 
Facilitation Program during the shutdown. Farmers in my area 
really needed that extension, and you helped us get this done, 
and I am very grateful for it.
    As you know, emergency is a word that is flying around a 
lot nowadays in Washington, but there really is an emergency, 
but that emergency is in rural America. An emergency in an area 
like the Central Valley, my home, where close to 50 percent of 
our residents are on Medicaid, where \1/3\ of our jobs are 
connected to agriculture, and a lot of those jobs are 
increasingly at risk, thanks to, as you said in your testimony, 
the fact that farm income has dropped by 50 percent since 2013 
due to commodity prices that are tanking, skyrocketing farm 
debt, crops like fruits and tree nuts, major exports from my 
district, having huge losses from trade, about $3 billion lost 
from trade.
    And when I look at this, that the last time we had a 
decline of net farm income to this degree was during the Great 
Depression. And during the Great Depression, we had an enormous 
amount of public attention, huge efforts to fix this, real 
mobilization and public action. And then I look at what we are 
seeing today, in your testimony, you said that the Agriculture 
Department is actually going to cut the President's Fiscal Year 
2020 request, estimating about a five percent cut. And I see 
that as sort of the opposite of what we actually need to be 
doing in a time like this, that really has this moment of 
crisis.
    My question for you is given your testimony and the scale 
of the issues that we are seeing in rural America, do you 
believe that we could be doing more to support our farmers 
today?
    Secretary Perdue. Congressman, we are happy to do anything 
you appropriate to do that, and we will do it as efficiently 
and as effectively as possible.
    I guess I would slightly disagree. We saw some areas in the 
early 1980s, since the Depression that were difficult in that 
area. The other difference is--and that down 50 percent, we 
were coming off a career high commodity and production areas in 
probably the 2008 to 2013 area. We began at a much better 
place, and those comparative numbers, you can do anything with 
statistics. Those comparative numbers were sort of career highs 
that we saw in agriculture.
    There is no doubt there are challenges. Can we do more? I 
hope so. I hope we will do more, and again, working together 
with what you all did in the farm bill and what you all will do 
in appropriations and we are going to optimize our efforts as 
much as possible. If you see holes or gaps that we are missing, 
we would welcome your comments.
    Mr. Harder. One of the things that is so important in our 
community, and it has been talked a lot by a lot of the Members 
is what is going on with trade and tariffs. Specialty crops are 
the backbone of our economy, and I have been talking to some of 
my friends and hearing about what is going on and the impact of 
trade, especially given the short shelf life that a lot of our 
crops really have, and how time is of the essence in making 
business decisions. When do you expect producers in a district 
like mine will feel meaningful market access due to the new 
promotion dollars through programs like MFP, MAP, and FMD?
    Secretary Perdue. I would say March 1.
    Mr. Harder. Perfect. I will take you at your word.
    Secretary Perdue. Obviously, markets are really created 
slowly. These new markets, frankly, it does depend on the 
success of the China negotiations primarily. The West Coast is 
a huge export to southeast Asia, and primarily that large 
market, but what we can do in Vietnam and the Philippines and 
Thailand and those other countries out there are also 
important, and that is this Market Facilitation Program.
    You probably know some of your producers benefitted from 
our procurement program where we took those crops off the 
market to support the prices and gave that money, distributed 
it in feeding everyone, to food banks and others across the 
country.
    Mr. Harder. One last question. Farmers in my community 
often feel ignored, and I would love you to see the impacts of 
what is happening in our district firsthand. Can you commit to 
visiting my district and seeing what is actually going on with 
this trade war over the coming months and years?
    Secretary Perdue. Do you have a record of how many times I 
have been already?
    Mr. Harder. I do, but not in the last 2 months.
    Secretary Perdue. I promise you I will be back. It is the 
cornucopia of the United States.
    Mr. Harder. I look forward to having you. Thank you for 
coming.
    I yield back my time.
    Ms. Adams. Thank you. The gentleman yields back.
    Mr. Baird, you are recognized for 5 minutes.
    Mr. Baird. Thank you, Madam Chair, and Secretary Perdue, we 
really appreciate this opportunity to be with you.
    I bring you greetings from myself and other Hoosier 
farmers. We really appreciate the work that you did and the 
other Members of this Committee in order to get a farm bill 
finished at the end of last year. That was important to adding 
some stability to the farm community, so we had some way to 
predict what might be happening. You did a great job there, and 
we appreciate all that work.
    We are looking forward to the opportunity to work with you 
to implement this farm bill and look for ways that we might 
make improvements in the future. Indiana, as you know, because 
you have been there, there are almost 100,000 Hoosier jobs 
related to agriculture. About 84 percent of our land area is 
either farmed or is in forests. We produce a significant amount 
of corn, soybeans, wheat, cattle, hogs, and poultry are 
extremely important. And then I don't want to forget the 
hardwood lumber industry as well.
    We have talked about many of these issues and you have 
answered these questions, so I am giving you a chance to take a 
breath here while I make these comments. But anyway, we have 
talked about rural broadband. We have talked about the impact 
of the tariffs for a lot of our soybeans are exported, as well 
as our hogs and cattle. We have talked about that.
    The one area that we might not have mentioned, and this 
doesn't necessary come under your purview, but the Renewable 
Fuel Standard when we take corn, run it through an ethanol 
plant, I have several of those in my district, then we end up 
with the DDGs, and those are also a product that we can market 
overseas, and it retains about 80 percent of the feed value of 
that corn. I just wondered if you could give us an overview of 
your perspective on the ethanol industry, and the impact that 
has on the agriculture community?
    Secretary Perdue. Sure. This was a big topic last year, 
obviously, for E15, and I appreciate, again, the EPA Acting 
Administrator Wheeler and their progress over E15 year-round. 
Unfortunately, those rules probably will not be out for the 
driving season, but they are committing to, the term of art is 
discretionary enforcement about those folks that want to 
continue to sell E15 in the summer, and when they get the rules 
established, as you well know, building that market and the 
process of creating ethanol, you get a byproduct of DDGs, which 
is a great feed ingredient.
    The good news is, Congressman, is that both of those items, 
both ethanol and DDGs are on the list that we are discussing 
with China, and they need the ethanol and again, we would be 
looking for them to take DDGs as well. We had been selling a 
good number, a good amount of DDGs into China, and they stopped 
when they started on the corn trades, and hopefully we can get 
that restored as well, which would be great for your corn 
farmers in Indiana and all across the West.
    Mr. Baird. I yield back.
    Ms. Adams. Thank you. The gentleman yields back.
    Mr. Van Drew, you are recognized for 5 minutes, sir.
    Mr. Van Drew. Thank you.
    Welcome. It is wonderful to see you here.
    Just on the slightly humorous side, I wanted to be on the 
Agriculture Committee, and some people were surprised because I 
am from New Jersey. And they don't realize that in New Jersey, 
it is a small state, but we have a lot of agriculture. We have 
cranberries, blueberries, tomatoes, peaches, lettuce, and I can 
name a whole bunch more. And just the interesting part of that, 
so I had them research when the last time was when somebody 
from New Jersey actually sat on the Agriculture Committee for 
the House of Representatives. Take a guess.
    Secretary Perdue. I am not sure there has been one.
    Mr. Van Drew. There has been one, but it is before our 
time, 1949. And before that, it was 1888. I am going to try to 
do a good job here, because there haven't been too many of us. 
I will see what I can do.
    A couple things I was thinking about, first of all, just to 
mention, it really is important in New Jersey. Actually, it is 
the third biggest industry in the State of New Jersey. The 
whole southern half of it and parts of the northwest are 
involved in agriculture, and it really does make a difference. 
That is why it is the Garden State.
    Any sense of feeling how, in general, nationally we are 
doing, locally we are doing, whatever, with high quality 
specialty crops? In other words, the organic market. Some of 
these things that is what you see a lot of in New Jersey as 
well. I just was wondering if you had thoughts on that.
    Secretary Perdue. Certainly. We are making a lot of 
progress, obviously. Those were crops that had been somewhat 
ignored in years past, but I think probably beginning around 
the 2008 Farm Bill began to acknowledge that and pay attention. 
I think we are making progress. This farm bill continues to 
make progress in that regard, encouraging both alternative 
methods of growing, both in the inside and outside, farm to 
market-type of efforts. From a marketing perspective, our 
nutrition programs encouraging fresh vegetables going into both 
our food banks as well as our school nutrition programs.
    We are making progress in that. The organic industry is 
probably north of a $50 billion industry now. Almost a few 
years ago, it was strange to hear about that. You see from the 
consumers making their choices in the grocery stores, their 
preferences in that regard, and the USDA is supporting that as 
we go forward.
    New Jersey, we were there and there is some beautiful 
farmland there. We were on a vegetable spinach harvesting farm 
there, and watched the processing as well as the harvesting, 
and it was first class.
    Mr. Van Drew. Good. Actually, I went to Rutgers University, 
the part I went to, the College of Agriculture and 
Environmental Science, and now it is the College of 
Environmental and Biological Sciences. But the land-grants, and 
I know that you know about them, and just ag research as well, 
could you just give a small overview of how that is going?
    Secretary Perdue. That is probably a good news story with 
the collaboration of USDA and our Agricultural Research 
Service, the collaboration between the scientists there and the 
scientists in our land-grant universities, Rutgers and Cornell 
and others included across the country. I truly believe that is 
the reason we are dependent upon exports today, because we can 
produce more than we can consume.
    For the last 70 years, we have had the basic research, the 
applied research, and the delivery system of that information 
through the extension services all comes through land-grants, 
but we work hand-in-glove. We work through NIFA to appropriate 
capacity building there for extension, as well as 4-H programs 
in that regard. It has been a great opportunity, and we 
consider the land-grant universities and their people great 
partners.
    Mr. Van Drew. They are, and it is so important, and it 
really truly does help the farmers.
    The farmers aren't always ones to say, ``Oh, I need help,'' 
or whatever, but at times they do, like we all do, and I know 
they reach out to them, we appreciate that.
    My last question has to do with, actually, tomatoes, which 
we grow a lot of, and even grow much more of than Florida. I 
have met with tomato growers, sort of up and down the East 
Coast over time, and they are still concerned that a lot of 
tomatoes are coming in from other countries, particularly 
Mexico, and they are taking a hit. And the reason I know about 
it is because some of the Florida companies also have companies 
or subsidiaries in New Jersey. Any thoughts on that?
    Secretary Perdue. Yes. You have some of your companies that 
began in southern Florida and come all the way up the East 
Coast because their buyers, like the major retailers, want a 
good supply all year long. As you know, we go in the grocery 
store and in December, where it wouldn't be normal growing 
season in the United States, we expect nice, fresh tomatoes 
there. That is what our consumers have come to expect.
    While the seasonal and perishable fruit provision was not 
finally included in the USMCA, Ambassador Lighthizer over 
straight agreements, and as you may know, the Secretary of 
Commerce, the Department of Commerce has just suspended this 
tomato agreement there that we had with Mexico in order to 
explore, probably in a legal fashion, or allow the industry to 
explore in a legal fashion whether there are unfair subsidies 
being produced in Florida that would create an onslaught of 
product in the U.S. that considers dumping in our markets.
    Tomato growers particularly are concerned about that from 
Florida all the way through the East Coast.
    Mr. Van Drew. You are well aware of it and you are working 
on it and working through it?
    Secretary Perdue. We are very aware of it. This really 
falls under the purview of the Department of Commerce and USTR.
    Mr. Van Drew. Okay.
    Secretary Perdue. But we are advocates.
    Mr. Van Drew. I will speak to them as well, okay.
    Thank you very much.
    Secretary Perdue. Thanks.
    Ms. Adams. Thank you. The gentleman yields back.
    Mr. Hagedorn, you have 5 minutes, sir.
    Mr. Hagedorn. Madam Chair, thank you, and Mr. Secretary, I 
appreciate your testimony and all that you are doing and 
working together to sustain agriculture and our rural way of 
life. It is very important, and you are doing a terrific job. 
We really appreciate it.
    One of the most important things that we can do is keep 
farmers in business, especially when times are tough. And when 
generational farmers sell out, as you know, they usually sell 
out to bigger operators, and bigger operators are not bad 
folks, but it means fewer people working the land, holding the 
land, living in our small communities, going to our schools. It 
puts enormous pressure on rural America.
    And so, the things that we are trying to do here--and we 
appreciate your efforts in implementing this 5 year farm bill 
to make sure we can keep the farmers in business relates to the 
E15 Program. Can we get your assurance that you will be working 
closely with your EPA colleagues to maybe deal with that waiver 
issue which has been misused a little bit, and undercut the 
ethanol industry?
    Secretary Perdue. We certainly advocated very strongly 
about that, and while no commitments, the interagency process, 
we have made our views very well-known, and I feel like I have 
a gentleman's understanding that that will be policed in a much 
more aggressive fashion than it had been prior to that.
    Mr. Hagedorn. Thank you.
    In the area of trade, the progress made with Mexico and 
Canada, I certainly support that. Thank you for that. As far as 
the EU and South Korea, that looks to be very promising. And 
then with China, everybody gets focused on tariffs and all of 
that and how we have impediments to trade, but there are some 
non-tariff issues that China has used to use technicalities to 
keep our products out. It could be a GMO issue with soybeans or 
some sort of growth hormone or that type of thing with our 
pork. Can you address any of that and the ongoing negotiations 
in those areas?
    Secretary Perdue. Yes. Those have been at the foundation of 
our requests and discussions with China, while they want to 
talk about exciting purchase numbers, we know that in order to 
get there, they are going to have to address these fundamental 
non-tariff reforms, such as a couple that you mentioned. The 
MRLs or the levels there that occur naturally over ractopamine 
or hormones or other types of things as well as the other types 
of provisions over biotechnical traits in our grains and 
others.
    Those are key issues that we have been discussing with them 
over what it will take to reach the levels that they committed. 
It doesn't do any good to put fancy numbers on a piece of paper 
if you don't have the commitment that these are the things we 
will do in order to ensure that we can achieve those numbers.
    Mr. Hagedorn. Thank you.
    The farmers in southern Minnesota will almost say uniformly 
that you can do a lot of things to help us in these program 
areas, but if you have bad government, it is still going to run 
people out of business. And one of the worst areas is this 
overreach and regulations. The onerous Federal regulations in 
almost every sector of our economy is driving up costs, 
limiting business, making us less affluent, making consumers 
pay more. And it really affects farmers and agribusinesses, 
transportation sector, energy sector, healthcare and medical 
care. You go right down the list.
    I know you have worked very hard on things like Waters of 
the United States, the Clean Power Plan, to do the right thing 
in these areas. Do you also support the reforms down the line 
that would have the House and the Senate affirm major 
regulations to make sure that the peoples' body here is making 
sure the Executive Branch is doing the right thing?
    Secretary Perdue. I certainly hope so. In fact, we would 
encourage you and your constituents to let us know of the 
impediments. When it gets to food safety, there is a zero-
tolerance kind of thing, but other than things like that, what 
are things that can make us more productive and less onerous 
from a Federal perspective?
    We have people laugh when you say, ``I am from the Federal 
Government. I am here to help you.'' They mostly want you to 
help them by leaving. But the fact is, if there are specific 
regulations, now, every group I talked to, we serve a 
constituent that knows how to complain in a very professional 
way, but they need to be specific about these regulations or 
impediments so we can address them specifically. We feel like 
we are identifying many and are in the process twice a year of 
putting those on the agenda to get those done.
    Mr. Hagedorn. We will make sure we follow up on that.
    Last, I used to work for a Congressman named Stangeland who 
sat on this Committee in the 1980s, and Arlan Stangeland and 
Charlie Stenholm of Texas had a bipartisan bill, Work for 
Welfare. And it was the bill that we carried for many years 
before Gingrich and Clinton and the rest of them got it down. 
And I can tell you what you are doing in that area, trying to 
change these regulations so it can't be undercut, promoting 
self-sufficiency, getting away from dependency of government, 
able-bodied folks getting back in the workforce, it is God's 
work, and thank you for what you are doing, Mr. Secretary. I 
support you 100 percent.
    Ms. Adams. The gentleman yields back.
    Ms. Schrier, you are recognized for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair.
    I may come back to the issue of work requirements for food 
assistance at the end, if I have a few minutes. But I am happy 
to see that a lot of my colleagues are talking about trade and 
tariffs, and we spoke briefly this morning about this, but I 
wanted to paint a real picture of what is going on in 
Washington State right now.
    We are the nation's top producer of apples, pears, and 
cherries, and many of those are grown right in my district in 
Chelan County. And our growers produce top-quality foods there 
that are in high demand around the globe. In fact, our best 
cherries go to China.
    Our North American neighbors are really important trading 
partners for the fruit growers that I represent, and Mexico is 
the top export market for apples and pears, while Canada is the 
number two export market for cherries and pears and the number 
three for apples. And unfortunately, Mexico has now imposed a 
20 percent tariff on apples in response to the tariffs on 
aluminum and on steel, and this has had a significant impact on 
our farmers, and it is really jeopardizing our farmers to the 
point where if we lose this market, and others around the 
world, they really may never come back and recover that market 
share. I wanted to encourage speed in eliminating these section 
232 tariffs.
    Our growers are watching the USMCA as it progresses, and 
so, I was wondering, given the urgency that we are feeling in 
our district, if you could give a timeframe for when we might 
see final text for this agreement, and the accompanying U.S. 
International Trade Commission impact assessments?
    Secretary Perdue. There are certain timelines governed by 
your rules of Congress over when these kind of trade agreements 
have to be done. I am understanding Ambassador Lighthizer is 
following those specifically in that regard. I wish we could 
ratify the USMCA today. It will have an opportunity probably in 
April to do that, and I hope that we can also, as you 
indicated, resolve the issue of retaliatory tariffs between all 
three countries in and around that time, or sooner, if 
possible, in order to get back to a trade where the people in 
Mexico and Canada can enjoy the great products from your 
district, and we can, once again, restore the free trade that 
this agreement indicates.
    Ms. Schrier. Thank you.
    And I should note, just for the record, that this involves 
Mexico and Canada, but also, of course, significant tariffs now 
at 50 percent from China, also retaliatory, so trade deals are 
what we are looking for in our state.
    Since I have just a moment left, I thought I would just 
comment about work requirements, because I have a little bit 
different take. One out of six families in my state rely on 
SNAP. In addition, a lot of the people are able-bodied, but 
live in rural environments or other places where they simply 
cannot find employment, and there is no effort in these 
restrictions to provide employment training or a path to 
employment.
    My fear is that what will happen with these requirements is 
that ultimately what it will result in is more hunger, not more 
jobs, and ultimately penalize the people in our communities who 
can really least afford that. I will just make a plug as a 
pediatrician and a community member and who is representing 
rural areas that are particularly affected, to not have those 
requirements.
    Secretary Perdue. I appreciate your concern. There are 
provisions there. If there are localized regions that are 
contrasted or different from the national unemployment by a 
certain level, then they would receive waivers. There are 
limits of waivers, but the fact that states have abused the 
waiver process and having statewide waivers over maybe one 
county or more that fall in this category. As a former 
governor, our jobs were to draw down as much Federal money as 
possible, and I am kind of on the other side now as a steward 
of the Federal taxpayer.
    Ms. Schrier. And I understand. I would just note that we 
are talking about hunger, and it is not an abused program. I 
would also mention that it is not just in certain regions, but 
there are certain demographics, minorities who are 
disproportionately hit. We know that it is harder for 
minorities to get work, that there is discrimination in the 
workplace as well, and so I think that should be taken into 
account that people with exact, equal resumes but from 
different backgrounds may have different job opportunities.
    Secretary Perdue. We would love to have further discussion 
with you about that.
    Ms. Schrier. Thank you.
    Ms. Adams. Thank you. The lady yields back.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. Davis. Thank you, Madam Chair, and thank you, Mr. 
Secretary. It is great to see you again.
    I love the discussion on our SNAP Program, but the sheer 
facts are right now, we have 21 million more people on SNAP 
benefits today than when the last time unemployment was this 
low. And this Committee tried to actually fill the gaps in 
workforce investment programs through the last farm bill. We 
weren't successful, but I look forward to working with all of 
my colleagues throughout this Congress to make sure that we do 
something to address that, the fact that we have millions of 
more families still on SNAP benefits, while still not getting 
access to the training to get the jobs that are available 
throughout this country, and in all of our districts.
    But thank you very much for being here. Thanks for coming 
to my district last year and talking with my farmers.
    I really want to ask you about hemp. We look forward to 
having the opportunity to have possibly a third rotational crop 
in the Midwest, and many of our local producers are interested 
in hemp. We see it as a valuable opportunity for not just the 
Midwest, but for our economy, and I want to know, how is the 
Department working to expeditiously implement the rules around 
the production, transportation, and the sale of hemp products, 
and when can we expect to see a rule issued?
    Secretary Perdue. Obviously, we are proceeding very 
judiciously, obviously, because of the uniqueness of the hemp 
crop, and its relationship to other crops that we are not 
encouraging. But nonetheless, it is complex. We are working, 
certainly, to develop these rules. States are able to continue 
under the 2014 rules that were already there until we can get 
that. We don't believe it will be until the 2020 planting 
season until we can have the definitive rules regarding hemp, 
going forward. There is a lot of interest nationwide in here. 
We would love to think that the potential for hemp agriculture 
is as great as the anticipation is, but that remains to be 
seen. We are going to proceed slowly to make sure we don't have 
another situation where our productive farmers overcompensate 
and blow out a market before it can get started.
    Mr. Davis. Oh, you expect that to happen, Mr. Secretary?
    Secretary Perdue. Pardon?
    Mr. Davis. You expect that to happen?
    Secretary Perdue. I think our farmers are very productive.
    Mr. Davis. You know my district, and I know you are 
absolutely correct. Our farmers are very productive, and thank 
you for that.
    Any other ways that you think we, in this Committee, can 
work together to help you through this process?
    Secretary Perdue. No. Again, I think passing off ideas or 
impediments from your constituents is always the best way. We 
rely on feedback, and they typically will reach out to you 
before we hear from them, but sometimes, we hear from them as 
well. But if you have ideas or questions from your constituents 
about that, pass them along, and it all helps us to be better.
    Mr. Davis. Well hey, I appreciate that.
    One last question. A bill was recently introduced that 
would direct the EPA to cancel the registration of 
chlorpyrifos. I understand that your Department does not 
approve these pesticide registrations, but you certainly 
understand the importance of this tool to the ag industry.
    I have heard from many producers regarding this issue, and 
I just wanted to give you an opportunity with the time I have 
to discuss the importance.
    Secretary Perdue. It would be devastating in so many crops 
if the crop protection chemical chlorpyrifos was not renewed. 
It would be very damaging. We believe the science justifies its 
use, and the labeling that has been there, so we would 
recommend and encourage EPA to defend that. We are also 
recommending that the Department of Justice defend any threats 
against that as well.
    Mr. Davis. Well, thank you, and one last question.
    The farm bill requires USDA to issue a final rule on 
strengthening organic enforcement by December 2019. Can you 
provide an update on how USDA plans to meet this deadline, and 
is there anything about the timeframe that you are concerned 
about?
    Secretary Perdue. I don't know that it is. We really have 
paid attention to that. That is an accountability dateline of 
strengthening our auditing and enforcement process. We are 
aware of sort of the counterfeit knockoff of imports that are 
not truly organic and used, and we are on it. I think the 
things that we will do in compliance with the farm bill can be 
met and will be met.
    Mr. Davis. Thank you, Mr. Secretary. I yield back.
    Secretary Perdue. Thank you.
    The Chairman [presiding.] I thank the gentleman.
    I now recognize the gentlelady from Maine, Ms. Pingree.
    Ms. Pingree. Thank you very much, Mr. Chairman. Thank you 
for being here with us today, Mr. Perdue. It is a pleasure to 
see you again, and I want to add, as many of my colleagues did, 
thank you so much for coming to visit the State of Maine. You 
did a wonderful job talking to people about the opioid crisis 
and broadband and Value-Added Producer Grants and organic 
vegetables, and really covered the gamut in our state. I know 
people appreciated it deeply, and I certainly did, so thank 
you.
    I also want to thank you for the roundtable you have 
created on food waste, bipartisan work you have been doing, and 
that is just really helpful, recognizing the importance of 
dealing with food waste in our country. About 30 percent of the 
food, as we know, is wasted, and that is a huge resource that 
farmers produce, and water loss and everything else that we 
want to make sure goes to hungry people and into the right 
places.
    I have a couple of questions, there is never enough time. I 
just want to comment briefly. I know climate change has come up 
a little bit in this hearing, and I just want to make sure that 
as a Committee, we don't toss this off as kind of a joke. I 
know there has been some kind of joking around about we are 
going to have to stop eating hamburgers or you mentioned that 
maybe cows are going to have to take Pepto-Bismol. It made me 
think of the fact I have a few beef cows on my farm, and it is 
hard enough to get those guys into the trailer when they have 
to go to freezer camp. But if I had to give them a dose of 
Pepto-Bismol every morning, or my farmers did, that just would 
not work out.
    But I have been recently to UC-Davis where they are doing 
some really interesting work on seaweed additives in the diet, 
which I guess reduce the amount of methanol. We think that is 
great, because we produce seaweed in Maine, so it could be a 
good partnership for all of us. And of course, there are a lot 
of really positive things we can be doing around recognizing 
the role that farmers can play in climate change. Sequestering 
carbon in the soil, many of our conservation practices really 
encourage that. Pasture farming is a great way to do that. We 
need to look at this in a positive perspective and think about 
how farmers can be a great part of the solution, and we can 
support them in that in ways that are good for their economic 
output and good for our environment as well. At some point, we 
need to have a serious conversation about that, just as we are 
having one on food waste.
    Secretary Perdue. Well, I hope my one attempt at humor 
didn't indicate to you that I don't consider it very serious, 
and I do believe that our farmers are very much mindful of that 
effort, and taking steps such as cover crops and many other 
things to do that means lesser inputs and more outputs.
    Ms. Pingree. I believe you do, and I understood the humor, 
and I totally appreciate it.
    But I do need to talk to you briefly about something that 
has come up a little bit. I am one of the people who doesn't 
support the proposed relocation and reorganization of the two 
USDA agricultural research agencies, NIFA and ERS. My concern 
comes from around the science of this, and I know that one of 
my colleagues mentioned it would be great to have it in her 
home State of Missouri, and I am sure there a lot of people who 
would like to have it moved to their home state. Missouri, of 
course, is no closer to Maine than Washington, D.C., so we 
don't see that as an advantageous move. And while I don't 
disagree with the idea that reorganization is good and not 
everything has to be in Washington, I just think there could be 
negative effects. I think that the reorganization of ERS 
jeopardizes some of the scientific integrity by injecting 
politics into the work, and there have been some concerns, such 
as the 2019 budget proposed to cut ERS by 48 percent. A long-
term and highly qualified administrator of ERS on the same day 
was moved as you announced that proposal. You appointed 
somebody as acting administrator of ERS who is not an 
economist.
    There has been a little bit of mistrust and concern about 
this, and I just would like to hear your thoughts on this, and 
I hope you will continue in the dialogue with many Members of 
Congress who do not support this potential move and 
reorganization.
    Secretary Perdue. Well, I certainly hope we can have a 
dialogue, and I know it is beyond the scope of this hearing 
today, but I will give you my initial reasons, and I would 
invite you to come and let's have a lengthy discussion about 
this so I can further give you my reasons for this.
    You mentioned, for one, scientific integrity on ERS and the 
realignment under the Office of the Chief Economist. Here is 
the way I view it is that the Office of the Chief Economist, 
you may know or may not know, is a career position. It is a 
career person. The alignment of the Chief Economist, as the 
scientific economist in agriculture, we feel like is a better 
alignment of the Economic Research Service in alignment. You 
will have the administrator of ERS, a career person, reporting 
to a career person, which we think is more division than 
reporting to a political Under Secretary, in REE.
    I know there have been rumors about scientific integrity. I 
have really been confused about it, which means that we need to 
have a lot of discussions. I want you to know that I look 
forward to hearing and hopefully persuading you all of our 
reasons and the benefit that we see in doing that. I am very 
serious about that, so hopefully you will take me up on that, 
and let's have a further discussion.
    Ms. Pingree. I am out of time, but I absolutely will take 
you up on that, and I will take you up on talking more in depth 
about the role of USDA and helping us work on the climate 
change challenges.
    So, thank you very much for being here today.
    The Chairman. I thank the gentlelady.
    The gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Chairman, thank you so much.
    Mr. Secretary, good to see you. Thanks for your leadership, 
and please extend my appreciation to your staff as well that 
are on the job and doing a great job, not just for rural 
America, as we know, but without a robust rural America, as I 
have said before, every American will wake up in the cold dark 
and hungry. Every American benefits from what we do and what 
you do.
    I wanted to start out with just touching base on the number 
one commodity of our number one industry in Pennsylvania, and 
our number one industry is agriculture, and our number one 
commodity is dairy. You know the struggles here. We have had 
lengthy conversations on that. The fiscal demise of our dairy 
farms really have tracked heavily, starting in about 2010 when 
we lost an entire generation of milk drinkers. It is really at 
that point, it wasn't this Committee, it was Education and the 
Workforce, now Education and Labor that kind of starved our 
kids for nutrition when it came to milk. They demonized 
milkfat. The science was bad then. We know that now. The 
science is very clear today. I was just talking to a friend of 
mine who is the President of the Pennsylvania Medical Society, 
and she was sharing with me the studies of what it is today.
    I want to thank you also for implementing the one percent 
milkfat and flavor option back to our schools. I think that 
just better serves the needs of our kids, from a nutrition 
perspective, and quite frankly, as a result of that, we are 
seeing the demand for milk marginally increase, and the futures 
look marginally good, there is more that we need to do.
    And I know not to ask your opinion on specific pieces of 
legislation, but I did want to check with you on the issue, I 
have introduced, along with the support of these two gentlemen 
to my right here, as original cosponsors of the Whole Milk for 
Healthy Kids, and I know you have jurisdiction over school 
meals in terms of nutrition. Any thoughts on that initiative? I 
am not asking your opinion on the specific bill, but on 
restoring an option, among other options, for whole milk in our 
schools?
    Secretary Perdue. Well, thank you, sir. You probably are 
aware that I answered from our personal conversations that we 
would be supportive of that. We just announced the Dietary 
Guidelines panel, which is a very balanced panel. That is where 
many of these things come from. You talk about demonizing or 
disparaging milk or whole milk, and now it is back. You 
remember we went through that with eggs over cholesterol, and 
now they are okay.
    We need to have the latest scientific research guide us in 
these areas. For the most part I don't see; honestly, I don't 
believe that childhood obesity is caused by drinking too much 
milk now. It is caused by a lot of other things that include 
sugars, but not whole milk. I would welcome some guidance in 
that from Congress, and we will certainly be delighted to 
implement those kinds of rules.
    You are probably aware of the allegations and the concern 
when we did that that we were trying to roll back different 
things. If you look at what we did, we didn't roll back a lot. 
We said let's see what is working and what is not to proceed 
very closely. Nutrition is very important, and feeding 30+ 
million school kids every day is very important, and we want to 
do the best we can.
    Mr. Thompson. I thank you for your work in that area.
    I don't know if this has been touched on. I apologize, I 
have had to come in and out of the hearing. But the new farm 
bill does require USDA to calculate the price for high quality 
alfalfa hay as purchased by dairy farmers in the top five milk 
states. And to help the program accurately reflect the dairy 
farmer costs, USDA should begin incorporating this price point 
into the DMC formula once it becomes available. Has USDA 
directed NASS to begin collecting that data yet?
    Secretary Perdue. Not yet. That will be part of our 
implementation of the farm bill rules that we are working on, 
and I say, from my direction, not yet. That is because I am not 
aware that we have, but much good work goes on at the 
Department that I am unaware of, and they may have already 
begun, but I am not aware of it.
    Mr. Thompson. One of the most important things we do, the 
gentlelady mentioned relates to climate change. I think this 
Committee takes a leading role in that, because we have 
jurisdiction, really, over forests. And a good healthy forest 
is the world's best carbon sink. We have been doing a lot of 
great work with, at least, the past two farm bills to make sure 
we have healthy forests.
    I was always looking to make sure that our U.S. Forest 
Service, as it comes to our National Forests, has the tools to 
be able to do that, to manage those forests in a healthy way, 
to make sure we have multiple generations of forests. That 
means we are doing some timbering. We are harvesting, certainly 
with a sustainable growth rate.
    I wanted to check, do you agree that the agency needs more 
tools for more proactive management of our National Forests?
    Secretary Perdue. Absolutely. And I do just want to comment 
right away, for Ms. Pingree's sake. Agriculture doesn't get the 
credit that it does for carbon capture many times, both in our 
forests and also our annual crops over carbon capture in that 
way. Agriculture and the growth of plants are very, very 
important from a carbon capture perspective that usually I 
don't see included in many calculations of carbon footprint.
    Mr. Thompson. I know officially we are on record now, 
healthy forests are carbon neutral. That is not quite accurate. 
It is carbon negative, what is taken out of the air and 
manufacturing topsoil through those trees.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from California, Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman, and welcome, 
Secretary Perdue.
    I look forward to you visiting my district, as our Chairman 
recently did a few months back. Hopefully, we can arrange 
something like that in the future.
    California and the rest of the western United States face 
unique farming and ranching obstacles that differ from those of 
the midwestern and southern states. Specifically, my district 
on the Central Coast is home to diverse agriculture ranging 
from strawberries to wine grapes to avocados, and other 
specialty crops, all of which require intensive labor. Farmers 
in my district have reported millions of dollars in losses of 
crops due to labor shortages, and it is clear that the shortage 
of and inadequate labor force is one of the greatest challenges 
facing U.S. agriculture today.
    Our broken immigration system is at the heart of this 
issue, and I believe we must finally take action to legalize 
our existing ag workforce, while implementing a viable 
guestworker program to provide a future flow of labor.
    In your testimony, you emphasized the need for farmers to 
have access to long-term solutions regarding a stable 
workforce. What are you doing as Secretary to address the 
challenges our farmers are facing in securing a reliable 
workforce due to our broken immigration system?
    Secretary Perdue. Sure. We don't have priority in those 
areas, but one of the things we are doing is being an advocate 
for everyone who will listen regarding those in those areas 
that do have authority in that.
    We are working with the Department of Labor, the Department 
of Homeland Security, and the Department of State certainly for 
our Guestworker Program to make the H-2A Program more viable. 
We are also encouraging you all in Congress and our 
Administration to look at a comprehensive immigration bill.
    Last time we tried to do that was when President Bush was 
here, and we got close, but it didn't happen. Again, we have 
looked at the various components regarding border security or 
asylum or chain migration, all those kinds of things. I think 
there are enough equities for everyone in there. Certainly, our 
interest is in the ag labor issue, and we have encouraged the 
White House, as well as others, to look at our immigration 
policy comprehensively and make sure that we have enough 
workers in this country, not just in agriculture, but in other 
places. When you have unfilled jobs that need workers, 
certainly sometimes low skill, sometimes merit-based high skill 
workers.
    We think it is in the best interest of the United States to 
have a comprehensive legal immigration system, going forward.
    Mr. Carbajal. Thank you.
    I think that was in 2013 when the United States Senate came 
up with a compromise that the House wasn't able to move 
forward. I am not sure if that was under Bush or Obama. It is 
escaping me.
    Secretary Perdue. The last one I recall was the Bush 
proposal, but you may be right.
    Mr. Carbajal. Thank you, Mr. Secretary.
    It is also clear that the need for mechanization continues 
to grow. In your testimony, you mentioned the farm bill's 
significant investment in USDA research. Can you please tell me 
how the USDA plans to ensure the prioritization of research 
into mechanization for labor intensive agriculture commodities 
through the implementation of the 2018 Farm Bill?
    Secretary Perdue. Well again, that is part of the research 
overall that we do. As you asked me to ensure that USDA does 
that, some would be concerned that the appointed Secretary of 
Agriculture was directing the integrity of scientific pursuit. 
We fund people out here in various land-grant universities, as 
well as Agricultural Research Service, to determine the best 
product methods, going forward.
    Mr. Carbajal. Thank you very much.
    I will yield my time back.
    The Chairman. I thank the gentleman.
    The gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, I appreciate it.
    Secretary Perdue, great to see you again. I appreciate all 
the hard work you have done in implementing the farm bill and 
the things you have done in the past, and your leadership. And 
what you have done on the SNAP Program is monumental, and it is 
the right thing to do. As you quoted President Roosevelt, and 
we saw what President Clinton did and other Presidents, that is 
the right thing to do, and we will support you any way we can.
    With that, with the technologies that we have today, and I 
have brought to the USDA's attention, and you were privy to 
these meetings, we brought people in from the Duval County 
Sheriff's Office where Jacksonville, Florida is on the fraud 
that was being implemented in the EBT Program by the vendors. 
Have you guys moved forward on that to make sure that has gone 
away? We had somebody at a meeting. They said there was a 
minimum of $1 billion in fraud in the EBT vending the way it is 
done, and possibly up to $4 to $7 billion.
    Secretary Perdue. It is a constant pursuit, Congressman, 
and certainly we are moving out. One of those areas is trying 
to get the FOIA interest. If you know that when we go against a 
retailer who we have reason to believe that is defrauding the 
taxpayer and the EBT Program and the food stamp program, they 
get stayed through those consequences if they file a FOIA 
request. And it is those kind of legal deterrents, there are 
certainly cottage industry attorneys who take advantage of 
those kinds of rules, and it is those kinds of things that we 
are trying to minimize.
    We believe that data collection system that we are going 
for, the multi-state data will help us to determine if people 
are double-dipping in other places, but the retailer fraud 
continues to just be very frustrating.
    Mr. Yoho. Well, it is something, if we bring that person 
back up here again, it needs to be a full Committee hearing to 
where both sides see this. It is not a Republican or a 
Democratic issue. This is something that is breaking the 
integrity of the SNAP Program as it was designed, and the 
people that are getting hurt are the ones it was really 
designed for. We will let you know on that.
    I want to touch base on something Rodney Davis brought up 
about the chlorpyrifos. Along with that same bill, I heard 
there was another one that came up on glyphosates to ban them 
for use. How detrimental would that be for agriculture?
    Secretary Perdue. It would be very consequential for ag 
production. I hope that the culture of the United States does 
not pursue the European model of the technology free zone, I 
call it, in the EU. This has been a help. If you look at the 
preponderance--we like to call ourselves sound science-based. 
If we look at the sound science on this issue, it is 
overwhelming----
    Mr. Yoho. Overwhelming.
    Secretary Perdue.--regarding the safety of glyphosate and 
certainly hopefully we will not take the tact of Europe of 
banning.
    I am very concerned, Congressman, about the fear of our 
food and the fear mongering out here that talk about the lack 
of safety we have in our food supply system.
    Mr. Yoho. Well, it is just like the argument over the GMOs. 
We have 100 Nobel Laureate scientists that have said there is 
no human risk of that, and it is science-based versus what is 
on the Internet.
    Going down that, with the technology as it pertains to the 
CRISPR-9 gene technology, the FDA is going to be the one making 
the rules on this. We want to make sure that people are moving 
forward. As you are well aware, with dairy cows, they can do 
CRISPR-9 technology and give the long-haired Holstein short 
hair so they are more heat tolerant. They can remove the 
testicle genes in pigs, and so they can farm them out without 
testicles because the EU doesn't want domestic animals 
castrated.
    What do we need to do in this body to help that rulemaking 
process? And I know that is the FDA. Do you have any 
recommendations on that so we can move forward with the 
research we are doing at our land-grants?
    Secretary Perdue. You left out the dehorning that is 
already there.
    Mr. Yoho. Right.
    Secretary Perdue. I would hope that this Committee would 
take that and really move with it, as you indicated, 
statutorily.
    Mr. Yoho. Be proactive.
    Secretary Perdue. It has jurisdictional issue, but in 
working with your colleagues and other committees, for the 
record, CRISPR-9 technology is non-transgenic.
    Mr. Yoho. Right.
    Secretary Perdue. That is not taking genes from some other 
organism, plant or animal, and in placing it in an animal for 
this fear of Frankenstein-type animals.
    Mr. Yoho. Right.
    Secretary Perdue. This is a gene that has been proven in 
many species that can be effective, and I would hope if we 
don't do this, we are going to see United States lose its lead 
as far as a technology leader in agriculture. And then, God 
help us.
    Mr. Yoho. You are so right. Thank you, and I yield back.
    The Chairman. I thank the gentleman.
    The gentlelady from Iowa, Mrs. Axne.
    Mrs. Axne. Thank you, Mr. Chairman, and thank you, 
Secretary Perdue, for being here. It is great to see you again 
today. I want to thank you for all you are doing for our 
agriculture community. As you know, Iowa is a key player, not 
just in food but also in fuel and feed for our cattle and pork 
and fish, everything. We are big players here, so I appreciate 
that. And thank you for helping to get the FSA offices open 
during the shutdown. That was instrumental in helping our 
farmers, so I appreciate that.
    As you are probably aware, Iowa State University, which is 
one of our nation's top agricultural research institutions, 
recently released a report showing that Iowa's entire economy 
has been negatively affected by the trade tariffs. And overall, 
as you mentioned, U.S. net farm income has fallen by almost 50 
percent, down to $65.7 billion this year, down from just 5 
years ago.
    How close do you think the President and China are to 
reaching a trade deal? I know you mentioned earlier that 
negotiations are, I believe, done when they are done, but I 
have to go back to my constituents with a better answer than 
that.
    Secretary Perdue. Sure.
    Mrs. Axne. What can I tell them?
    Secretary Perdue. Well, you can tell them that you believe 
there are substantive, meaningful trade negotiations taking 
place by both sides. I think I sense that. Now you know that I 
am not at the table. Our Under Secretary of Trade, Ted 
McKinney, has been in the agricultural sectors, Ambassador 
Lighthizer and Secretary Mnuchin have been leading these 
principle to principle. But based on my observations in the 
Oval Office, there is a sincere desire, really on both sides, 
to resolve the trade disputes.
    As has been from the beginning, the ball is in the Chinese 
court. We will not have an agreement without fundamental 
understanding that the intellectual property illegal transfer 
must stop, and the enforceability provisions about that. That 
is for the future of the United States' economy.
    I believe we are making progress on those fundamental 
structure reforms, but I don't want to raise expectations 
either for you to go back and say, ``Well, Secretary Perdue 
said we are going to have it by this time.'' I would love to be 
able to do that. If it were in my ability, then I would give 
you the date and the hour, but they don't give me that 
authority.
    Mrs. Axne. Would it be safe to say that within this 
quarter, within a few months?
    Secretary Perdue. I think we will know something. As you 
know, the latest delay of these additional tariffs, the 
President announced just this past week over a delay in that. I 
believe he and the President of China, President Xi, will 
probably be meeting face-to-face again before the end of March, 
and if we are going to have a deal, we will have a deal pretty 
much there at that point in time. But that means when you make 
a deal at the principle level, there are a lot of details to 
work out. That is what they are trying to do ahead of time now 
is really going line by line over these very sectors, over the 
non-tariff trade barriers that must be corrected in order for 
them to purchase our ag products.
    Mrs. Axne. Speaking of those details, as a matter of fact, 
my next question would be what have you recommended to the 
President as the minimum amount of soybean sales that we can 
expect to see in a deal? Specifically, I am wondering what is 
that floor that you are looking at? Is it 50 million metric 
tons? What can we plan on?
    Secretary Perdue. In the spirit of negotiation, I am not 
sure it is appropriate to answer that question in public here 
today. We have a list, not only of soybeans, but also your feed 
grains, a couple of products you are interested in, ethanol and 
DDGs as well, and corn and sorghum and other types of things, 
beef and poultry. A variety of things. We are not going to 
enumerate different levels.
    Again, negotiations are negotiations. What is the capacity? 
We put proposals on the table. China has come back with that, 
but it is not appropriate to do specific digit negotiations in 
public.
    Mrs. Axne. All right. Well, I have 30 seconds left, so I 
just want to get a plug in there for E15 as well. I appreciate 
what you are doing. I want to echo my peers here across the 
aisle as well to say that, of course, Iowa really relies on our 
ethanol industry. As you know, 2.1 million acres of harvested 
corn goes into that, and we know that those waivers went to 
extremely profitable refiners, while our hardworking Iowa 
farmers didn't get that opportunity. What can we expect in the 
future from you to help with that?
    Secretary Perdue. Well again, you understand those waivers 
are controlled by the Environmental Protection Agency. We have 
advocated long and hard over the rulemaking about that. We have 
objected in interagency relationships of clearance over putting 
amounts in there for waivers in the prospective portion. I 
believe Administrator Wheeler when he says that you will see a 
different type of enforcement, going forward, and I trust him 
in that regard. I think he has been very supportive. He also 
has made an attempt, had the shutdown not occurred, we would 
have been able to see the E15 rules before driving season. Now 
it won't happen, but we are encouraging them to announce 
discretionary enforcement of that soon.
    Mrs. Axne. Well, thank you for your continued efforts, and 
please help us continue to put that money back into our 
hardworking farmers across this country, and not just to 
support very profitable companies.
    Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman, and Mr. Secretary, you 
have been here an awful long time, so I am just going to make 
some very, very quick remarks.
    I do think for the benefit of those here, 2 years ago you 
were sitting there and we were talking about farm income and 
commodity prices, and how farm income has dropped roughly 55 
percent, which has been a tremendous impact on our industry 
throughout the nation, and of course, the only solution that we 
could offer up and talk about at that time is we had to 
renegotiate these trade deals. Because we were getting taken 
advantage of, both through NAFTA, there were some dumping 
issues, and also in Asia.
    So here we are, and obviously from a trade standpoint, you 
have addressed all of that. Thank you for your hard work. I 
know you have been a big part of these negotiations, and you 
are a farmer and you are a friend of the farmer, and we thank 
you for what you are doing in that regard. But obviously, the 
sooner we can get that done, the better for our farmers, 
because we are, as you know, in planting season. And what I am 
hearing is, ``Hey current cotton prices, I don't know if I want 
to plant cotton.'' They are trying to make decisions.
    The other thing is the disaster funding. I know from your 
side, you have been down there, you looked at it. We were 
picking 1,400 pounds an acre before the storm and after the 
storm, and we were lucky. We are getting 400 pounds now, but it 
still is a tremendous impact on our farmers. And we were going 
to have a heck of a crop before that storm hit. It is just a 
really, really devastating blow, but we have to do something 
there. And of course, we had the blueberry freeze that you are 
familiar with also.
    But with that, you have addressed all of these things. 
Broadband is another one. Our rural economies would really 
benefit, and so we need to really--and this body, I know, has a 
lot of that responsibility. But certainly, you have a big 
voice, and those are the things I hear over and over again when 
I go back into the district.
    Anything that you haven't shared with us that you would 
like to share, as far as where we are going and how we get 
there?
    Secretary Perdue. I appreciate your mentioning many of 
those things, Rick, and I will tell you, if Congress saw fit to 
see the power of appropriation to the USDA, we would cure that 
disaster tomorrow. And I don't think that is going to happen, 
but nonetheless, we are willing and able to implement as 
quickly as possible.
    They are serious issues. I am agriculture. My friends are 
agriculture, and they are pretty professional complainers 
sometimes. This came true on many of them, and it is a 
dangerous situation. Hopefully, we can get it rectified.
    Mr. Allen. That is principally why we passed the 
legislation we did right before Christmas was to get the 
disaster relief in here before we left for Christmas, and then, 
of course, it didn't go anywhere, and then we had this terrible 
government shutdown, so it has been a bit of a mess.
    But listen, thank you for being here this long, and thank 
you for your service. You are a great Georgian, one of my 
mentors and heroes, and I just really appreciate everything you 
do for us.
    Secretary Perdue. Thank you. That is an awesome 
responsibility.
    The Chairman. I thank the gentleman.
    The gentleman from California, Mr. Cox.
    Mr. Cox. Yes, Mr. Secretary, thanks so much for staying so 
late, and sharing your time with us.
    Your testimony might not be as titillating as some of the 
other hearings going on today, but it is much more substantive.
    As you know, I come from California's 21st Congressional 
District, which is the top agricultural district in the top 
agricultural state, and just last year, California became the 
world's fifth largest economy. And you know, that is attributed 
to lots of things, financial services, entertainment, ecology, 
but left out of that story is our state's ag industry and our 
rural regions. And as you know, our rural regions are some of 
the most beautiful and bountiful places in the world. They 
produce our commodities for all of our Americans, food, water, 
open spaces. And our farmers and ranchers are the cornerstones 
of these economies, and when they succeed, our communities 
succeed.
    One crucial piece of this success is the USDA rural 
development programs. And as you well know, you have been 
there, and you can attest that our district throughout the 
Central Valley, they are very rural, but the problem I keep on 
hearing when I talk to these communities is that they can't 
access these programs because of the myriad of definitions of 
what is rural as defined by the USDA. I would like to hear what 
the Administration is doing to make sure that these programs, 
these very valuable programs, are available to our really rural 
communities so that they can access this Federal assistance.
    Secretary Perdue. You have hit on a very serious issue. 
Unfortunately, it is not determined by USDA. It is statutorily 
defined in these rural definitions, and I would encourage this 
Committee to look at a common definition of rural that you 
could direct in many of our programs regarding access. We are 
limited to defining rural as under 20,000 in many places, under 
ten in some other places. We would love to have a common 
definition because the places that might have been 10,000 10 
years ago may be 20,000 now, and those who might have been 
20,000 are now 40,000 and 50,000 and still need help many times 
in their growth, water, water treatment plants and others in a 
more definitive way.
    We would love to have a comprehensive definition of rural. 
We were hoping to get that in the farm bill, and that was not 
one of the things we could agree upon.
    Mr. Cox. Well, I guess that is why we are elected to 
Congress and why we sit on this Committee.
    And certainly, we talked about it a little earlier and 
touched on it. I just want to hit on it again, but with regard 
to disaster relief; but really, we haven't spoken about the 
causes of the disasters in the first place, and just once 
again, how does the issue of climate change affect, influence, 
and guide the forecasts, the policies, and the programs of the 
Agriculture Department?
    Secretary Perdue. Well again, we are trying to do better 
meteorological forecasts on a longer-term basis, our Drought 
Monitor and different things like that. Aside from causes, we 
are trying to mitigate the effects with better research of 
crops and seeds. There are also practices regarding cover crops 
and things like that that have better quality water runoff and 
less carbon footprint for less trips across the field, those 
kinds of things, and limiting that, no tilling, all those 
practices. I think our producers are doing a much better job. 
They are much more aware than they ever have been. But we can 
always do better.
    Mr. Cox. Well, thanks so much, and to reiterate Mr. 
Harder's, Mr. Carbajal's, Mr. Panetta's, Mr. Costa's 
invitation, and myself, we sure would like to see you back in 
California sometime soon.
    Secretary Perdue. Well, I won't come to your district. I 
have already been there.
    Mr. Cox. Thanks again, Secretary, and I yield back the rest 
of my time.
    The Chairman. I thank the gentleman.
    The gentleman from Kansas, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman, and good afternoon, 
Mr. Secretary.
    Secretary Perdue. You have been patient.
    Mr. Marshall. Yes, I appreciate your being here.
    My folks back home are concerned about how the FDA is 
handling gene editing. I actually just walked out of an 
Science, Space, and Technology Committee and the folks from, I 
assume, Oregon State or Washington State concerned about the 
oyster industry and gene editing.
    Just to be frank, our livestock and poultry folks think 
that gene editing supervision ought to come under the USDA 
jurisdiction. I just want to know your thoughts on what we can 
do to work in that direction.
    Secretary Perdue. Well again, we believe certainly from an 
agricultural perspective we could implement those issues in a 
very safe way. I think we have demonstrated that through our 
Food Safety Inspection Service. Obviously, FDA has some 
equities that we may not have in the beginning of the science 
of that, but I would hope that we could come to some resolution 
between your Committee and the jurisdiction of the Committee 
that has jurisdiction over FDA so that we do not lose out in 
the technological advances of CRISPR-9, non-transgenic gene 
editing, going forward.
    We have a trade problem today because this country has led 
in research and development for over 70 years in better 
productivity. If we lose that lead internationally, we are at 
the beginning going down. I am hoping that we can resolve this. 
It shouldn't rely upon jurisdictional issues. It ought to be 
based on science and moving forward, because if we take as long 
to approve these kinds of things as we have taken to approve 
pharmaceuticals, it will be, again, this technology will be 
located outside the boundaries of the United States.
    Mr. Marshall. Thank you, Mr. Secretary.
    I want to talk a second about the SALE Act of 2017 (H.R. 
4058, Securing All Livestock Equitably Act of 2017), the dealer 
statutory trust. You may recall that my life, I started off 
working on the family farm. My first real job was working at a 
sale barn. And we, through the last farm bill, we provided for 
you guys to study the SALE Act a little bit, what its impact 
would be. I just wanted to know if you have any type of update 
on what the timeline looks for it?
    Secretary Perdue. You have caught me totally unawares and 
unbriefed, Congressman. Congratulations.
    Mr. Marshall. I apologize.
    Secretary Perdue. We will answer your question by written 
comment later.
    Mr. Marshall. Okay, I apologize for that.
    Moving on, from my dairy producers, obviously in the new 
farm bill we have some new programs going on, and I am still 
trying to wrap my arms around all of them. There are both 
options in the FSA and RMA. What kind of a timeline is there, 
going forward, with that, and any words of advice I can give to 
my producers back home?
    Secretary Perdue. I would probably say you ought to 
encourage your wheat producers to go in the dairy business with 
the new farm bill.
    Mr. Marshall. Okay.
    Secretary Perdue. The timelines that we talked about 
earlier is that you remember, it has provisions for net refunds 
for those that have been in the prior program or Margin 
Protection Program. Those refunds we expect to begin around 
April the 30th, and that way the transfer of paper recording 
for the first 2 years of that program has impeded the progress 
of that. We could have done it sooner. The calculator of where 
it should determine ought to be out around April 15 of where 
they should participate. We believe the retroactive insurance 
participation MPP March the 18th allows farmers with insurance 
retroactive there, and the sign-up, we think, for the new dairy 
program will be around June 17, and we think the payments 
initially may begin as early as July 8.
    Mr. Marshall. Great.
    Speaking of wheat farmers, they are asking about the sign-
up for ARC and PLC, and of course, they want to make sure that 
China is still interested in buying wheat. We have a WTO 
project or case out there, year number 3. China is 
supplementing their wheat and corn farmers to the tune of $100 
million per year. Let's talk a little bit about the ARC and PLC 
sign-up, and then the wheat situation in China.
    Secretary Perdue. Yes, the ARC and PLC sign-up we are 
hoping to be around September the 1st. There was an earlier 
statutory requirement, but that was the assumption of passing 
in the previous fiscal year as well. We were delayed about 
that. I think that is about as soon as we can do it. We will 
complete the rule probably around the 1st of May, but then by 
the time we get it OMB cleared, whether it is significant or 
insignificant it is probably going to be September 1 before we 
get sign-up.
    The interesting thing, though, it will affect the 2019/2020 
crop, not the 2018/2019 crop, not the crop they are planting 
right now, but for the next crop year.
    Mr. Marshall. Got it, thank you.
    I yield back.
    The Chairman. I thank the gentleman.
    The gentlelady from Illinois, Mrs. Bustos.
    Mrs. Bustos. Thank you, Mr. Chairman, and hello, Mr. 
Secretary.
    Secretary Perdue. Hey, ma'am.
    Mrs. Bustos. You have good stamina. I went and had lunch 
and came back, and had a couple meetings and came back.
    I talked with you before about the ag lab in Peoria, very, 
very important to my region. We share Peoria with Congressman 
LaHood, as I told you before, we have a Democratic Member and a 
Republican that represents that town, and we work very hard 
together to make sure that the ag lab is doing well.
    The big concern that I have is with the Administration's 
thought of closing, threatened twice now to close the Peoria ag 
lab. It is the largest agricultural research lab within the 
U.S. Department of Agriculture. We have about 100 Ph.D.s that 
walk through those doors every work day, and 250 people total. 
They have done things, and you are aware of this, but they came 
up with the mass distribution method for penicillin. They are 
just on this great breakthrough that they think they have found 
a mosquito repellant that is more effective than DEET. We have 
all these great things that are coming out of those doors, and 
I know your stated commitment to ag research, and I applaud you 
for that.
    I just want to know, what can we see, going forward? Can 
you be on the same page with us in making sure that those doors 
stay open? In fact, can we grow the presence of the Ph.D.s that 
walk through those doors and do even more great work in 
agricultural research?
    Secretary Perdue. Actually, we have a proposal to move them 
to the National Capital Region so they can be here with NIFA 
and ERS. Joke.
    Mrs. Bustos. Joke?
    Secretary Perdue. Joke.
    Mrs. Bustos. Psych.
    Secretary Perdue. If I am not mistaken, probably the 
careers at OMB have been after these labs out here in the 
country for the past--more than the past 2 years, and I kind of 
did a hissy fit last year about the need for research in 
agriculture over the funding. Hopefully--ARS, it is a big deal, 
and these people make huge progress.
    I believe it is fundamentally the reason that we are so 
productive and have to depend on exports and trade now to be 
profitable, because our farmers are so productive based on the 
basic research, the applied research, and the delivery system 
of an extension service, and we will continue to advocate for 
that. I believe you will see a better research budget proposal 
coming forward. Hopefully you will, and we are going to do the 
best to implement that.
    Mrs. Bustos. That would be great.
    Secretary Perdue. I appreciate you being proud of those 
folks, and they do a great job.
    Mrs. Bustos. Yes, very much so.
    Have you had a chance to visit that yet?
    Secretary Perdue. Not yet.
    Mrs. Bustos. We would love to have you. Darren and I, we 
can both host you there, but we would love to have you. I know 
you are probably getting five million invitations to go to 
people's districts, but I would love for you to see it. It is 
this wonderful art deco era building, and just the amazing work 
that comes out of that. We would love to have you, if you think 
you could fit that into your schedule at some point.
    Secretary Perdue. I appreciate the invitation. We try to 
get to our labs and our other USDA facilities that 90 percent 
of them are out of the region here, and we try to get around 
and encourage those folks and let them know that we still know 
they are part of our family.
    Mrs. Bustos. Okay. Well, we would host you in grand fashion 
if you could make it.
    Another question I have, I have been to Cuba a couple 
times. Rodney Davis and I actually did a bipartisan ag tour of 
Cuba to look for what markets we had potential to trade in for 
our producers and our growers. This was under the Obama 
Administration. President Trump doesn't seem to be as open to 
having Cuba as a trading partner. I know we have the Market 
Access Program and we have some funding to look for expanding 
our markets, but any thoughts you could share with us about 
your feelings of growing our relationship with Cuba as an ag 
partner?
    Secretary Perdue. I will. I have a personal response based 
on when I was governor, and we tried to do the same thing. I 
think probably eliminating or the restriction over the Market 
Access Program down there. The real issue with Cuba is just 
cash, and they don't have the resources to do that. We are 
still shipping poultry and rice and other things down there, 
but they could do more if they really had the money. They have 
been supported by sponsors around the world in a way, and there 
is obviously conversation with Venezuela having supported their 
fuel and energy issues, and that is kind of certainly cloudy 
right now.
    But we would love if Cuba were able to. I have been in the 
business and I would love to sell some customers, but if they 
couldn't pay you, you didn't need their business. And that is 
kind of the problem right now with Cuba, but we are sitting 
right on the doorstep ready whenever they are able to get 
financially able to buy our products.
    Mrs. Bustos. Thank you, Mr. Secretary, and my time has 
expired. I yield back. Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Kentucky, Mr. Comer.
    Mr. Comer. Thank you very much, Mr. Chairman, and Mr. 
Secretary, it is always an honor to have you before our 
Committee. I am a big fan of yours. I speak to Farm Bureau 
groups and ag groups all the time, and I brag on you, and you 
are extremely popular within the ag community, and I appreciate 
the good work you are doing.
    I know it has been a long day for you today. I just ran 
over here from the Oversight Committee hearing, and I can 
assure you, you are having a better day than the sole witness 
testifying before that Committee is having. Again, it is great 
to have you here.
    I wanted to talk to you about tobacco. Being from Kentucky, 
I probably have the biggest, if not one of the biggest, tobacco 
districts in America, and Mr. Secretary, the FDA is mounting a 
Federal assault on tobacco growers. In Kentucky and throughout 
the South, in just 2 years, we have seen more tobacco 
regulations out of the FDA than the entire 8 years under the 
Obama Administration.
    My biggest concern is about dark tobacco growers. As you 
may know, the vast majority of dark tobacco is grown within a 
100 mile radius of Hopkinsville, Kentucky, right in the center 
of my district. The previous Administration literally dropped a 
midnight rule related to smokeless tobacco that would wipe out 
the entire American moist smokeless tobacco category, and 
subsequently wipe out the dark tobacco growers in Kentucky. 
Tobacco growers are truly struggling with the FDA. With its 
proposals, it is adding to the economic challenges that they 
already face.
    Can you assure this Committee that you will continue to 
educate Commissioner Gottlieb and the FDA on rules they have 
proposed which directly impact tobacco producers in Kentucky 
and throughout the United States?
    Secretary Perdue. Yes.
    Mr. Comer. And I appreciate that. We have had this 
conversation before. I know that you support farmers, 
hardworking farmers, it is just the nitrosamine rule is 
unattainable, and there is just too much uncertainty right now 
within the tobacco industry. There are only two types of 
farming in Kentucky now that a young, beginning farmer can do 
that will cash flow, and that is tobacco and poultry.
    Secretary Perdue. How about hemp?
    Mr. Comer. Well, that is my next question. I appreciate you 
bringing that up. We are really excited in Kentucky. We were 
the first state to start legally growing industrial hemp. We 
have probably 35 processors in the state. I know Senator 
McConnell has spoken to you as well on his support and 
excitement about the hemp industry, and Rodney Davis mentioned 
it in his remarks.
    I know that it is a bureaucratic nightmare to come up with 
rules and regulations with the new emerging industry. We had 
lots of learning experiences in the Kentucky Department of 
Agriculture when we began a very, very small program.
    I just want to offer my assistance from my experience 
regulating a new industry, the hemp industry in Kentucky, when 
you come to trying to implement the new law. I believe that 
what you said is exactly correct with respect to we as farmers 
do a very good job producing anything. Give us time, and we can 
overproduce it in a very short period of time.
    There are a lot of potential pitfalls out there that could 
probably be avoided from a regulatory standpoint. I would love 
to continue that discussion with you. I know we have people in 
the Kentucky Department of Agriculture that would offer their 
assistance, as well as Senator McConnell, on that.
    The last thing I wanted to mention, and I will yield back, 
we post all of our Committee questions on our Facebook, and my 
farmers call every day. I know you have answered this question 
a few times already today, but can you kind of give us a quick 
update of where we are with trade with China, especially with 
the soybean market?
    Secretary Perdue. Sure. Again, we are cautiously 
optimistic. I believe substantive progress was made over the 
last 2 weeks and the last two visits, both us there and them 
here. And but again, I don't want to prematurely raise 
expectations. There is a lot of work to be done. We have made 
some progress on structural reform, including intellectual 
property, but there is more to be made. And there are hurdles 
here in agriculture over structural non-tariff barriers to 
reach the kind of numbers that we would want to see and they 
would like to commit to. We have to change some things, and 
hopefully we can see those happen.
    While we want to continue to assume the best, we have to 
continue to work hard to make sure it happens.
    Mr. Comer. Well thank you, and I will conclude by saying 
this. Kentucky farmers support President Trump and they support 
you, and I appreciate the good work you are doing for Kentucky 
agriculture.
    Secretary Perdue. Well, we do want to rely on you, and 
obviously Secretary Quarles over the hemp issues as we navigate 
not only a new emerging, but a unique crop.
    Mr. Comer. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from Connecticut, Mrs. Hayes.
    Mrs. Hayes. Thank you, Mr. Secretary. Thank you for being 
here today. I apologize for my tardiness. I had another 
Committee assignment. But this is my first Committee, for 
agriculture, representing Connecticut's 5th district, and 
bringing forth the voices of our small family farmers and our 
inner city students who rely on programs like school nutrition 
and SNAP.
    I want you to know that one in eight people in Connecticut 
are food-insecure, about 17 percent, or 100 in 17,000 children. 
And as a teacher, I know exactly how important SNAP and 
programs like school meals are for my students to succeed in 
the classroom.
    I have to add this, because I hear a lot of talk about the 
economy and trade and production and budgets, but as a history 
teacher, I know that one of our basic functions of government 
as outlined in the Constitution is to promote the general 
welfare as well. I recognize as a Member of this Committee that 
those children are also our responsibility. Kids don't learn 
when they are hungry.
    Also, when we are talking about these programs, children 
can't go to job training programs. When we are talking about 
able-bodied adults and SNAP Program and things like that, I 
just hope that we don't forget that most of the people who 
receive these benefits are children. And I appreciate the work 
that the Department has gotten done. Actually, I thank you. I 
thank you for what you did to maintain the operation of 
nutrition programs, including SNAP, school meals, and WIC 
during the partial government shutdown. We have heard from 
school food service directors and commodity distributors that 
the shutdown had an impact on their ability to procure and 
distribute food to schools.
    Can you outline what impacts were experienced and the 
implications in the short- and long-term the shutdown had on 
nutrition programs, and what is the Department doing 
specifically to address those impacts?
    Secretary Perdue. Sure. I am sure there must have been, but 
I appreciate your compliments regarding that. We think probably 
most of those things were taken care of. We kind of did 
backflips to make sure that the February SNAP benefits were 
done. States participated and cooperated magnificently with us 
to get that done by submitting their files by January the 20th, 
and that enabled them to continue to do that.
    That was a heroic effort with our Food and Nutrition 
Service people, and we are very proud of that. I think we have 
recovered in most all aspects. We see WIC numbers going down, 
but that is simply a function of the economy as well in that 
way.
    I would remind you, and I appreciate your passion for 
children, and as an educator, you understand that I was with 
the School Nutrition Services, and it talked about feeding 
bodies, fueling minds, how important nutrition is for education 
and learning. But the ABAWD, A-B-A-W-D, stands for without 
dependents, so that is very critical function to understand. We 
are talking about able-bodied adults without dependents.
    Mrs. Hayes. Okay, thank you.
    You also outlined a plan to relocate and what I feel is 
disruptively restructure the Economic Research Services under 
the Office of the Chief Economist. As you know, ERS is 
responsible for assessing food insecurity or hunger rates in 
the United States. This is critical information for policy 
makers who oversee nutrition assistance programs.
    ERS also conducts research to assess how nutrition programs 
like the ones I just described are working to reduce hunger and 
improve the health of Americans. Relocating and restructuring 
the agency will have significant impacts on this important 
work. Did you or the Department consider any of these impacts 
when developing this new proposal, and what specific steps has 
the Department taken to mitigate these impacts?
    Secretary Perdue. We did try to take all those 
considerations into place.
    First of all, the work and the research that you discuss 
will continue to go on in that way. There will be a cadre of 
leadership in NIFA and ERS to remain here in a leadership 
perspective to visit with Congress, to answer questions, to 
appear over all those kinds of research functions, so we do not 
anticipate losing any of that capacity from ERS, nor NIFA, in 
that move. We did consider that, and we believe aligning the 
ERS, Economic Research Service, under the Office of the Chief 
Economist, he is like the chief scientist in REE, the political 
Under Secretaries call the chief scientist. Well, the chief 
economic scientist is the career person in the Office of the 
Chief Economist there. You will have a career person reporting 
to a career person there, which we think is less likely to have 
political influence over the outcomes or trying to cook the 
books, if you speak, regarding the outcomes of research in that 
arena, rather than reporting to a political Under Secretary 
that may have an agenda.
    Mrs. Hayes. Thank you. Sorry we went over the time.
    The Chairman. No problem.
    Mrs. Hayes. Please don't forget those children in any of 
these conversations.
    The Chairman. I thank the gentlelady for her questions.
    And last, but certainly not least, my good friend from 
California, Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman, and I appreciate my 
position on the dais as I get to be closer to the Secretary and 
other witnesses throughout this, thank you very much for this 
opportunity.
    Mr. Secretary, good afternoon by now. Always good to see 
you. I appreciate listening to you, although I have to say, I 
was quite surprised that you actually got stumped today, 
because I have never seen that in a question and answer session 
with you.
    Secretary Perdue. I think Congressman Marshall studied a 
long time to do that.
    Mr. Panetta. Well, he is a doctor, and if we knew what type 
of doctor he was, that would make it more reasonable why he 
stumps us. But we will talk about that later.
    Look, I just obviously want to say thank you for all your 
work, especially your coordination with Ambassador Lighthizer 
in dealing with the current issue in regards to China, as well 
as the upcoming USMCA potential deal, hopefully deal. I was 
just in a hearing this morning with Ambassador Lighthizer, and 
we had a good discussion on that. And obviously, with some of 
your answers, we are definitely hopeful that something occurs 
and that there is agreement that is reached.
    My first question is if there is not an agreement reached 
any time soon, do you see additional mitigation funds?
    Secretary Perdue. I do not, sadly. Again, I think that 
depends on the outcome. It would be devastating to markets if 
we don't see a success here, and we don't know how badly that 
would be, and we would have to make those recommendations at 
that point in time. The motivation and the reason behind the 
mitigation payments in 2018 is that the trade disruptions began 
after the planting and farmers could not plan for that, so I 
hope that farmers will look at the market signals today, make 
their determinations over marketing the same way they would do 
in any other year.
    Mr. Panetta. Understood.
    Now, obviously you know as well that although farmers 
appreciate those types of mitigation funds, they are not about 
aid, they are about trade. They are not about short-term 
bailouts, they are about long-term business.
    Secretary Perdue. Right.
    Mr. Panetta. And with that, some of the markets that they 
have, have been lost. Are you coordinating with Ambassador 
Lighthizer in order to ensure that some of those markets that 
were lost are gained back?
    Secretary Perdue. We are really taking the lead, I would 
say, in that through Under Secretary Ted McKinney and our 
Foreign Agricultural Service people around the world, and 
really, we are kind of the salespeople when it comes to the 
deal and the contract. USTR serves as the lawyer there to write 
the contract and bless the deal. That is their statutory 
responsibility. But we are out selling everywhere, and we can 
recover those markets. That is why we talked about the Market 
Access Program, that $200 million of the Market Facilitation 
Program that goes to market access and building markets in 
places where we haven't had markets, and shoring up current 
customers.
    Mr. Panetta. Great. Thank you.
    And quickly, I have a letter here dated January 25 that was 
sent to the USDA in regards to early issuance of February 2019 
SNAP benefits, your questions and answers that you guys send 
out. I was wondering if I could get this to your staff to make 
sure that it gets on your radar, if that is okay?
    Secretary Perdue. We could. I think we have it. Was there 
not a timeline of reply on that? I think that is what my staff 
told me, because we usually like to reply by now, but I thought 
there was 90 days or something, if that is the same letter I am 
thinking of.
    Mr. Panetta. Okay. I didn't see a timeline on this, but I 
will talk your staff after. Thank you.
    Secretary Perdue. Sure. Please give it to me.
    Mr. Panetta. I will. Thank you very much.
    Talk to me about, if you could, how is Kristi Boswell and 
the progress of the work that she has been doing in regards to 
immigration?
    Secretary Perdue. She is a star, and the progress we are 
making from a regulatory perspective with DOL and DHS and State 
is largely due to her efforts in that in helping to guide their 
regulatory language. We have also committed to lend her to the 
White House folks to help work on the ag labor portion of a 
comprehensive immigration proposal, and so she is a very much a 
necessary part of our operation, because you have heard me say 
before, trade, labor, regulation over and over any part of the 
country you want to go to.
    Mr. Panetta. Great, thank you.
    And quickly, I know the farm bill has given you a new 
program to respond to a host of animal, agriculture, pest and 
disease outbreaks. The example with the virulent Newcastle 
disease outbreak, and USDA's response is a good example of 
this. How is that process coming along, the flexibility, do you 
have any plans to continuing to apply it?
    Secretary Perdue. The proposal dealing with the vaccine 
bank and the other portions of that from a lab network, it will 
go a long way. Certainly, when we get to the point of 
determining the right technology of vaccines or maybe more 
funds needed, but in working with the Department of Agriculture 
in California over this virulent Newcastle disease, we have to 
get ahead of that. We have been somewhat unhappy regarding the 
progress over the backyard birds and the issue to control their 
movement, and it is a serious issue. If it moved out of 
California and got across the country in our poultry industry, 
which is significant, it would be devastating. We need to work 
diligently on that together, and I have met with Secretary Ross 
recently, and hopefully we can have some new abilities to 
accomplish those things.
    Mr. Panetta. Thank you. Mr. Secretary, an absolute 
pleasure. I look forward to seeing you out in central 
California. Thank you.
    Secretary Perdue. Thank you.
    Mr. Panetta. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    We are going to wrap this up, Mr. Secretary. Are you happy 
with that?
    Secretary Perdue. Do I have to?
    The Chairman. You are having fun, huh?
    I am going to recognize the Ranking Member for a closing 
statement.
    Mr. Conaway. Thank you, Mr. Secretary.
    I want to get on the record that I am in full-throated 
support of your efforts to reform the waiver abuses that are 
going on with the ABAWD population. Many of my colleagues, 
either intentionally or unintentionally, conflate children and 
disabled and elderly with ABAWD populations, and nothing could 
be further from the truth. These are able-bodied adults without 
dependents, and we need to continue to focus on that.
    The House version that passed the House did address this 
waiver abuse, and then in conference with our colleagues across 
the building, the Senators, we are both in agreement that the 
waiver issue is being abused across this nation and needed to 
be reformed. They were concerned that the House fix would 
offend certain sensibilities of certain Senators that they had, 
and they couldn't get it passed, but maybe the best path 
forward was to do it by regulation and that you, in fact, have 
all of the authorities you need to do the able-bodied adult 
without dependents rule change that you are proposing. I am 
hopeful that this moral hazard can be continued to be 
addressed.
    By example, today California has a 4.2 percent unemployment 
rate. Fifty-five out of 58 counties are under a work waiver. 
Every one of my colleagues from California mentioned the lack 
of labor to be had in these agriculture industries. If there 
are jobs available--may not be the job that they necessarily 
want, but a job is a job, and so having these folks have the 
initiative to get off the welfare programs and go to work is 
particularly important.
    I am also aware that there be certain groups out there that 
will take advantage of your ample comment period to suggest, 
perhaps, some changes in tightening of the way that the 
counties are counted, the way that the numbers come together, 
all those kids of good things, and I hope that you guys will 
pay attention to that.
    But, I fully support what you are doing and look forward to 
getting this rule implemented, and getting this moral hazard 
addressed across this country.
    Thank you, sir. I look forward to working with you, going 
forward.
    I yield back.
    The Chairman. I thank the gentleman, and I want to thank 
the Secretary for his persistence with being able to sit there 
this long, and it is not easy at our age, Mr. Secretary, to do 
that. We appreciate it.
    Just the last thing.
    Secretary Perdue. I am not sure what to say.
    The Chairman. Well, yes. I am not either.
    Anyway, one last thing: When the shutdown was going on, I 
was getting calls from my producers and my employees out there 
about what the heck was going on? The NRCS office would open 
and the FSA office wasn't, I went and visited offices. When you 
had that first round when you opened up for 3 days or whatever 
it was, and talked to the employees and went back when you 
opened up full-time, which by the way, was controversial, 
because they had gone out and gotten unemployment, and they 
finally had some money so they could pay their rent, and then 
they got called back and they are not getting paid. That didn't 
go over all that well.
    But anyway, I found out that the NRCS employees, because 
whatever they are doing, they were able to be paid somehow or 
another, and your lawyers or whoever at the FSA people couldn't 
be.
    On that, I have drafted a bill which says, and I just got 
it now and it is not completely right, but what it says is that 
if somebody is administering a CCC mandatory program, like in 
FSA, that they would not be laid off, that they would be paid 
out of the CCC, for whatever length of time that shutdown 
happens, and then when it is over with, you pay them back, pay 
the CCC back, because they get paid anyway. I would assume 
something like that might be helpful to your agency. What I am 
going to do is give you this copy of what we have been working 
on. I would like you to take a look at it, your lawyers, and 
work with us. But there is no sense in if they are doing these 
mandatory programs, there is no sense, in my opinion, for us, 
if we have another shutdown, hopefully we won't have another 
one, but if we do, there is just no sense not to have them 
working, and they are going to get paid anyway, this is a way 
to deal with it.
    Secretary Perdue. I couldn't agree more. Again, we would be 
happy to look at that, see if there are any legal issues or HR 
issues or pay processing issues, but the best solution is no 
shutdown.
    The Chairman. Yes. If you guys would take a look at it, and 
have your most problematic lawyers look at it.
    Secretary Perdue. We have some of them.
    The Chairman. They will pass muster on it and hopefully we 
will never have that problem again.
    Again, thank you very much for your patience and hanging in 
there. All of the Members appreciated the opportunity to visit 
with you, and all your willingness to answer their questions, 
and we look forward to working with you and working through the 
issues we have getting this farm bill implemented. Thank you 
very much.
    Secretary Perdue. Thank you, Mr. Chairman.
    The Chairman. This hearing is adjourned.
    [Whereupon, at 1:50 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from Hon. Sonny Perdue, Secretary, U.S. Department of 
        Agriculture
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. USDA's biotechnology regulatory program has been the 
subject of multiple legal challenges within the last decade, including 
cases in the Ninth Circuit and the Supreme Court. The existing biotech 
regulations at USDA, or Part 340, have withstood those challenges 
because of the specific way in which they were formulated. Will you 
commit to Congress that your Department will not propose or finalize 
any new Part 340 regulations that ignore the important lessons of prior 
litigation, or that introduce substantial new legal risk to the 
program? Before submitting Part 340 revisions to OMB for review, will 
you work with all interested intervenors in those previous, successful 
cases to ensure that USDA is fully considering the legal defensibility 
of its biotech regulations?
    Answer. I will commit that any updates to the regulations are 
defensible and within our statutory mandates. While we cannot guarantee 
that no legal challenges will exist, we will have a robust rulemaking 
process and use the feedback and comments we solicit to improve the 
rule. USDA should also note that, while our biotechnology regulations 
were previously challenged, the most successful challenges were not 
related to USDA's safety or review process, but on the sufficiency of 
the supporting environmental documentation required under the National 
Environmental Policy Act. USDA has taken numerous steps to improve our 
environmental review process, and we are confident that that would 
remain legally defensible.
    Throughout the regulatory revision process, USDA has considered and 
will continue to consider the important lessons of prior litigation. 
Our work in issuing two previous proposals to update and revise the 
USDA plant biotechnology regulations has provided invaluable 
experience. As we propose and finalize revisions to USDA's plant 
biotechnology regulations we will ensure that we have the best and most 
up to date regulations possible, and work to minimize litigation risks.

    Question 2. Mr. Secretary, we now know that the EPA granted 48 
retroactive small refinery exemptions in 2016 and 2017, and this 
effectively took 2.25 billion gallons of renewable fuels out of the 
marketplace. These exemptions are continuing to cause economic harm to 
farmers, and it worries me that there are many current petitions for 
refiner exemptions awaiting a decision by EPA. Have you had discussions 
with the folks at EPA and the White House about how these exemptions 
are undermining the RFS and weakening the rural economy?
    Answer. Yes, USDA had discussions with EPA and the White House 
regarding the impact of small refinery waivers. USDA has looked at the 
impact of the bankruptcy settlement that released Philadelphia Energy 
Solutions from part of its RFS obligation. The retroactive waivers, and 
pending waiver requests if approved, effectively reduce the RVO. A 
reduced RVO translates to lower demand for corn ethanol and biodiesel.

    Question 3. During the 35 day long government shutdown, the 
Committee received some information from the Department about how and 
why some Farm Service Agency employees were called into service for 
various periods during the lapse in appropriations. Can you further 
describe the decision-making process as to how Farm Service Agency 
employees were brought back to work during the shutdown?
    Answer. FSA county offices were open for two periods during the 
most recent lapse in appropriations: the last week of December and 
January 24th and 25th just before the shutdown ended, using carry-over 
funding. Additionally, nearly 40% of FSA offices were open January 18-
19 and January 22-23 focused on administrative services related to 
existing farm loans and provision of tax documentation to ensure the 
agency provided 1099 tax documents to borrowers by the Internal Revenue 
Service's deadline. USDA used the full range of its authorities and 
available funding to serve America's farmers and ranchers during the 
shutdown.

    Question 4. African Swine Fever, Avian Influenza, Foot-and-Mouth 
Disease, and other animal diseases are major threats to animal 
agriculture. The 2018 Farm Bill authorized the Animal Disease 
Preparedness and Response Program and National Animal Vaccine and 
Veterinary Countermeasures Bank and also reauthorized the National 
Animal Health Laboratory Network. Congress also provided $300 million 
in mandatory funding over 10 years. These three programs are intended 
to help prevent and respond to animal diseases and were supported by 
nearly 400 Members of the House in the last Congress. When will all 
three of these programs be implemented and what priorities does USDA 
have for each program in 2019?
    Answer. USDA is committed to getting these important programs up 
and running as quickly as possible. On March 21, USDA held a listening 
session on these provisions to hear from industry and other 
stakeholders. We are in the process of reviewing and considering all 
comments from that session. Additionally, the National Animal Disease 
Preparedness and Response Program requires us to develop a consultation 
process with states, universities and industry partners to develop 
program priorities. USDA is organizing that process, after which we 
will begin soliciting project suggestions to assist with the 
advancement of animal health.

    Question 5. While I didn't vote for the original NAFTA deal, it has 
been generally positive for agriculture and withdrawing from it now 
would be a mistake. The new agreement would make the Canadians end 
their Class VII dairy pricing strategy that has undercut exports of 
U.S. dairy ingredients for the last few years. Will you commit to 
working within the Administration to make sure these new commitments 
can be enforced?
    Answer. Yes, USDA will continue to support the ratification process 
of the new agreement and is committed to working within the 
Administration to ensure Canada upholds its obligations to 
transparently terminate its Class [VI] and [VII] dairy pricing system. 
In fact, the U.S.-Mexico-Canada Agreement includes a number of 
transparency and consultation commitments on milk class pricing, in 
addition to a mandatory review of dairy provisions 5 years after its 
entry into force, which are all fully subject to dispute settlement. We 
intend to use all of these tools to ensure that the new commitments are 
implemented and enforced.
Questions Submitted by Hon. Alma S. Adams, a Representative in Congress 
        from North Carolina
    Question 1. The President signed into law the 5 year farm bill, 
P.L. 115-334, on December 20, 2018. This bill was negotiated in good 
faith between Republicans, Democrats, the House and the Senate. Months 
and years went into refining language and coming to an agreement that 
received overwhelming votes in both chambers (87-13 in the Senate and 
369-47 in the House), yet the USDA has decided to unilaterally change 
plain Congressional intent, not even 3 months after that carefully 
negotiated law was signed by the President, as it relates to 
requirements for Able-Bodied Adults Without Dependents.
    My district has thousands of households that rely on SNAP benefits. 
Mecklenburg County alone has approximately 55,472 households that rely 
on SNAP benefits each month. Please elaborate on the agency's thinking 
on this rule, because through the USDA's February 1st SNAP Requirements 
for Able-Bodied Adults Without Dependents proposed rulemaking, you seem 
to be ignoring the will of Congress.
    Answer. USDA recognizes and appreciate the hard work that went into 
the farm bill, and has taken care to ensure that the rulemakings we 
have proposed since its passage, including the one you reference, are 
consistent with the Department's authority under the new law.
    As stated in the proposed rule, the Department is committed to 
enforcing the work requirements established by the law and is concerned 
about the current level of waiver use despite a strong economy. The 
current regulations afford states broad flexibility to develop 
approvable waiver requests. The Department's operational experience has 
shown that some states have used this flexibility to waive areas in 
such a way that was likely not foreseen by the Department when it 
developed the current regulations. Given the widespread use of ABAWD 
waivers during a period of historically low unemployment, the 
Department believes that the current regulatory standards should be 
reevaluated.
    Additionally, the President's Executive Order on Reducing Poverty 
in America by Promoting Opportunity and Economic Mobility (April 10, 
2018) directed Federal agencies to review regulations to determine 
whether they are consistent with the principles of increasing self-
sufficiency, well-being, and economic mobility, and to strengthen 
existing work requirements for work-capable individuals where possible 
in order to improve employment outcomes and economic independence. 
Consistent with the Executive Order and the Administration's focus on 
fostering self-sufficiency, as well as the Department's extensive 
operational experience with ABAWD waivers, we have determined that the 
standards for these waivers must be strengthened so that the ABAWD work 
requirement is applied to ABAWDs more broadly. The Department is 
confident that these changes would encourage more ABAWDs to engage in 
work or work activities if they wish to continue to receive SNAP 
benefits.
    The Department looks forward to reviewing comments and will 
consider all comments received in drafting the final rule.

    Question 2. When will USDA have a point of contact for the Office 
of Urban Agriculture and when will the office be up and running? A lot 
of folks are excited to start talking with USDA about implementation 
but do not know who to talk to.
    Additionally, when will we get more information about how USDA 
plans to do outreach to build the advisory committee?
    Answer. The 2018 Farm Bill did not provide funding for the Office 
of Urban Agriculture. Should funding be appropriated for this activity, 
USDA will implement this provision and establish this Office.

    Question 3. Over the last 2 years, how many Community Facilities 
Direct Loan and Grant (CFDLG) and Community Facilities Guaranteed Loan 
(CFGL) loans and grants used for jail construction or renovation (1) 
involved a plan to expand their existing jail capacity (number of total 
jail beds), and (2) resulted in expanded jail capacity?
    Answer. Over the last 2 years, the Community Facilities Program has 
invested $5 billion in essential rural community facilities across the 
country. Of this, $67,218,200 (1.34%) was obligated for jail projects 
not yet completed, and $19,985,000 (0.40%) was for jail projects that 
have been completed with funds over the last 2 years, for a total of 
$87,203,200 (1.74%). During this time, two facilities expanded the 
number of total beds available, and three facilities were for new 
detention centers to alleviate overcrowding/outdated facilities and to 
safely house those serving short-term sentences.

    Question 4. What level of priority is given to proposals for CFDLG 
and CFGL loans and grants that would fund jail construction, compared 
to priority level given to applications for other types of community 
facility projects? For example, would a substance use treatment 
facility receive a similar prioritization?
    Answer. The Community Facilities Program follows the regulation 
outlined in  1942.17(c)(2)(ii) for implementing application selection 
priorities which include population, health, income, and other factors. 
Other factors that are prioritized include the provision of and/or the 
improvement of public safety. These are taken into consideration when 
the purpose of the project is to construct, enlarge, extend or 
otherwise improve public safety and/or healthcare facilities. The farm 
bill includes a provision to prioritize combating substance use 
disorder in rural America for the CFDLG. RD is currently working to 
implement this provision with an expected completion date in July 2020. 
A substance use treatment facility would be evaluated for the 
population and income levels it serves, along with applicable other 
factors, as compared to the other applications received.
    Also, prioritization is implemented only when the program has more 
applications than available funds, which was not the case in FY 2018.

    Question 5. What analysis or assessment is done when awarding CFDLG 
and CFGL loans and grants to determine the availability of community-
based treatment or other resources that might reduce the need for jail 
beds and serve the broader community before funding jail construction 
or expansion projects?
    Answer. The Community Facilities (CF) program offers direct loans, 
loan guarantees and grants to develop or improve essential public 
services and facilities in communities. Public bodies, nonprofit 
organizations and federally recognized American Indian Tribes can use 
the funds to construct, expand or improve facilities that provide 
health care, education, public safety, and public services. Projects RD 
has funded include fire and rescue stations, village and town halls, 
health care clinics, hospitals, adult and child care centers, assisted 
living facilities, rehabilitation centers, public buildings, schools, 
libraries, and many other community-based initiatives.
    Additionally, the Program is a tool that can be used to support the 
Administration's goal to combat the opioid epidemic by building 
facilities and purchasing equipment for prevention, treatment and 
recovery in rural communities. CF supports and partners with 
stakeholders on prevention efforts by funding construction, expansion 
and/or improvement of rural education and mental health facilities, and 
the purchase and installation of equipment. For example, a nonprofit 
community service agency used CF direct loan funds to purchase a 
building where they provide behavioral health, social services, and 
counseling to at-risk youth. The nonprofit partners with its state 
agency to operate youth anti-substance use programs.
    Rural Development assesses applications on financial viability and 
whether the facility is one that provides an essential service to the 
local community.

    Question 6. Which CFDLG/CFGL loan and grant proposals were 
disapproved in Federal Fiscal Year 2018?
    Answer. Applications for CF are reviewed by the state Rural 
Development offices rather than by the National Office. At this time, 
we do not keep a consolidated list at the national level of all 
Community Facility Direct Loan and Grants or Community Facility 
Guaranteed Loans that were denied.

    Question 7. Can you share more information on when you think the 
Section 232 tariffs will be lifted on Canada and Mexico?
    Answer. Ambassador Lighthizer is leading the discussions with 
Canada and Mexico regarding the potential for removing the Section 232 
tariff on imports of steel and aluminum from those countries. I have 
relayed to the President and Ambassador Lighthizer the concerns in the 
U.S. agricultural community about those tariffs, and the corresponding 
retaliatory tariffs that our agricultural exports are now facing. It 
has not yet been determined how this issue will be resolved, but we are 
hopeful that an agreement can be reached so those tariffs can be 
eliminated.

    Question 8. When do you think the U.S. will be able to set a free 
trade agreement (FTA) with Japan?
    Answer. Achieving a high-standard trade agreement with Japan is a 
top priority for American agriculture and this Administration. 
Following the guidelines of the Trade Promotion Authority (TPA), USTR 
has published its negotiating objectives and the U.S. International 
Trade Commission has issued a report on the probable economic impacts 
of the agreement. These were the final two procedural requirements 
under TPA, which means that formal trade negotiations can begin at any 
time.
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. Mr. Secretary, as you know, in California many of our 
farmers grow Extra Long Staple (ELS) cotton, also known as Pima cotton. 
Growers of ELS do not participate in the traditional farm safety net 
programs except for crop insurance. Instead, they rely on the ELS 
competitiveness program and recourse loans. Fortunately, in the 2018 
Farm Bill, Congress was able to slightly raise the ELS loan rate. 
However, I would like to bring to your attention one area of needed 
adjustment to the competitiveness program. Whether the competitiveness 
program is triggered is tied to the market price of other competing 
varieties of comparable quality cottons in the same export markets as 
U.S. ELS cotton. It is my understanding that in recent years one 
variety used in the calculation was removed because the quality was not 
high enough to be considered, but now there is a variety of comparable 
quality competing directly with U.S. ELS cotton. Unfortunately, those 
quotes are not currently used in the calculation to determine if a 
payment is warranted. The negative impact this is having on U.S. ELS 
cotton is being felt directly by producers due to a 20 per pound price 
decline in less than a year.
    The intent of this program is to protect the industry by keeping 
U.S. ELS cotton competitive in global markets when world prices are 
below U.S. prices for competitive growth. I urge you and your team to 
work with the U.S. cotton industry stakeholders to address this 
situation by making the necessary adjustments to the ELS 
competitiveness program before our producers suffer even greater 
losses.
    Answer. Thank you for bringing this to my attention. Stakeholders 
have brought this issue to the attention of USDA staff in recent weeks 
and we are reviewing the issue.

    Question 2. Mr. Secretary, I, like several of my Committee 
colleagues, represent a specialty crop-heavy state that has been facing 
a growing labor crisis for years--a crisis that is only projected to 
worsen. It has been said many times over, but farmers simply cannot 
find the willing workers they need to harvest the nation's food. With 
more and more positions going unfilled, fruit and vegetable farmers are 
placing their money and hopes in mechanization and automation to not 
only stem the shortage, but also aid the actual job tasks to make them 
more appealing to potential workers.
    That is why I am pleased that the 2018 Farm Bill made strides in 
supporting mechanization research. I would stress that USDA must do all 
it can to ensure that all the provisions and programs are implemented 
in an effective and timely matter.
    Could you provide a sense of where your agency is on this? I want 
you to particularly focus upon the development of the Agriculture 
Advanced Research and Development Authority (AGARDA) pilot program 
which allows for mechanization funding, and then the equally important 
report that will identify a plan to find additional funding for further 
mechanization research projects. As you know, we expect you to execute 
that plan and ensure more funding flows to mechanization research 
sooner than later.
    Answer. The 2018 Farm Bill did not provide funding for AGARDA. USDA 
looks forward to evaluating options and implementing this provision 
should funding be appropriated for this activity.

    Question 3. One of the biggest concerns I hear from my trade-
reliant farmers is how they will be able to regain market shares in 
China. Commodities, like tree nuts, citrus, and other fruits, face 
stiff competition from other countries, and gaining access in the first 
place took years.
    Mr. Secretary, you recently commented that you expect the United 
States to quickly recover lost markets for farm products once we reach 
a deal with China. Do you feel that rings true for our fruit, vegetable 
and tree nut exports? Could you offer insight into how USDA will 
support our farmers' push back into China, once this whole trade war is 
resolved?
    Answer. I believe that we can only achieve meaningful increases in 
agricultural exports to China if we address a broad range of structural 
barriers that have impeded U.S. exports. If President Trump is 
successful in negotiating an agreement with China that addresses these 
structural barriers for agriculture, I am confident that U.S. 
agricultural exports--including exports of fruits, vegetables, and tree 
nuts--will exceed the levels of our exports before China imposed 
retaliatory tariffs.
    As President Trump has said recently, trade negotiations are going 
well, but the deal has to be right. Upon reaching an agreement in which 
China addresses structural barriers for agriculture, USDA is prepared 
to work vigorously with our agricultural exporters, including on the 
ground in China, to assist them in renewing longstanding trading 
relationships and in developing new ones. USDA will also be working 
closely with USTR to ensure that all of China's commitments are 
carefully monitored and vigorously enforced.
    Additionally, the Agricultural Trade Promotion (ATP) Program has 
injected an additional $200 million into agricultural export promotion. 
Many of the awards recipients have plans for using funds for the 
Chinese market as well as expanding opportunities throughout the world. 
Organizations representing fruit, vegetable, and tree nuts exporters 
received awards based on the quality of their proposals.

    Question 4. In the ongoing trade feud between the U.S. and China, 
our farmers and ranchers have been harshly targeted, forced to bear the 
brunt of increased tariffs and lost market shares that may take years 
to regain. In response to their compounding losses, the President has 
continued to assure them the feud will end with a much better deal for 
the United States, especially (and specifically) for agriculture. That 
said, the Administration has been particularly vocal about its demands 
on behalf of steel, aluminum, and IP protections.
    It should be reiterated that a `better deal' for agriculture does 
not just mean a return to the status quo, or a return to pre-
retaliatory tariff levels. I also appreciate your recent comments that 
the U.S. won't be bought off simply by commodity purchases. The growers 
in my state want to see real net gains, real market access, real SPS 
reforms. What other ag-specific demands are you and the rest of the 
negotiating team pushing for, particularly for specialty crops?
    Answer. Last month, I was in the Oval Office with the President 
when he received a briefing from the U.S. and Chinese trade 
negotiators. After hearing from the lead negotiators, President Trump 
made it clear that any deal with China must address the concerns of our 
farmers and ranchers.
    I agree with you that a good deal with China on agricultural trade 
must address the structural barriers that our exporters have faced for 
many years. USTR is leading the negotiations with China. Phytosanitary 
barriers and are among the many barriers that we are striving to 
eliminate during the negotiations. USDA will be working closely with 
USTR to ensure that all of China's commitment are carefully monitored 
and vigorously enforced.

    Question 5. What is the status of negotiations between the U.S. and 
Japan? Can you provide a sense of where this is on the Administration's 
priority list, as well as a tentative timeline of when we may see an 
agreement?
    Answer. On December 21, 2018, the U.S. Trade Representative (USTR) 
submitted to Congress and released to the public a summary of the Trump 
Administration's specific negotiating objectives for its U.S.-Japan 
Free Trade Agreement negotiations. One of the Administration's top 
negotiating objectives is to secure comprehensive market access for 
U.S. agriculture goods in Japan by reducing or eliminating tariffs. The 
Administration has begun negotiations, and certainly understands that 
Japan's recently negotiated agreements with other countries 
disadvantages U.S. farmers and ranchers.

    Question 6. This past December, it was reported that President 
Trump publicly expressed his intentions to withdraw from NAFTA, as a 
means to pressure Congress to pass USMCA. This is a misguided approach 
in my view. I would strongly dissuade the Administration from pursuing 
such a tactic and would appreciate your response as to the likelihood 
of NAFTA withdrawal.
    Answer. Canada and Mexico are our first and second largest markets 
for U.S. food and agricultural products, making up 28 percent of total 
food and agricultural exports in 2018. USMCA contains important 
improvements for U.S. agricultural exporters. I strongly support the 
agreement and, if voted on by the merits of the agreement, would expect 
Congress will approve USMCA.
Questions Submitted by Hon. Marcia L. Fudge, a Representative in 
        Congress from Ohio
    Question 1. Mr. Secretary, with your new ABAWDs rule, can you 
please tell me what percentage of ABAWDs are veterans, are homeless, 
have mental or physical limitations, lack access to public 
transportation, or need language interpretation? That would help me 
determine how many people you are really talking about.
    Answer. Currently, USDA has FY17 data on race and ethnicity, age, 
and citizenship status of ABAWDs, which is tabulated from the FY17 
Quality Control (QC) Report.

------------------------------------------------------------------------
             Race/Ethnicity                    Count          Percent
------------------------------------------------------------------------
White, not Hispanic                            1,324,786           41.1%
Black or African American, not Hispanic          899,641           27.9%
Hispanic, any race                               401,090           12.5%
Asian, not Hispanic                               47,946            1.5%
American Indian or Alaska Native, not             55,197            1.7%
 Hispanic
Native Hawaiian or other Pacific                  11,418            0.4%
 Islander, not Hispanic
Multiple races, not Hispanic                      59,583            1.8%
Race unknown                                     421,721           13.1%
                                         -------------------------------
  Total                                        3,221,380          100.0%
------------------------------------------------------------------------


------------------------------------------------------------------------
       Age Ranges                  Count                  Percent
------------------------------------------------------------------------
              18-19                  294,490                    9.1%
              20-24                  566,890                   17.6%
              25-29                  533,640                   16.6%
              30-34                  429,431                   13.3%
              35-39                  359,706                   11.2%
              40-44                  433,441                   13.5%
              45-49                  603,781                   18.7%
                         -----------------------------------------------
  Total.................           3,221,380                  100.0%
------------------------------------------------------------------------


------------------------------------------------------------------------
           Citizenship Status                  Count          Percent
------------------------------------------------------------------------
U.S.-Born Citizen                              3,038,619           94.3%
Naturalized Citizen                               66,183            2.1%
Refugees                                          46,297            1.4%
Eligible Noncitizens                              70,282            2.2%
                                         -------------------------------
  Total                                        3,221,380          100.0%
------------------------------------------------------------------------

    USDA does not collect information from SNAP participants concerning 
veteran status, access to transportation, language barriers, or 
homelessness.
    As noted in the proposed rule, the Food and Nutrition Act of 2008 
specifically exempts individuals from the ABAWD time limit and 
corresponding work requirement for several reasons, including, but not 
limited to, age, physical or mental unfitness for work, having a 
dependent child, or being pregnant. Additionally, the Food and 
Nutrition Service (FNS) issued guidance in November of 2015 that 
outlines the discretion state SNAP Agencies have in determining an 
individual's fitness for work. The second page of the memo states, 
``Many individuals with physical or mental challenges are unfit for 
work and must be exempted from the time limit. To be clear, an 
individual does not need to be receiving disability benefits to be 
exempted from the time limit under this criterion. States can exempt an 
individual as unfit for work if they are obviously mentally or 
physically unfit for employment or, if the unfitness is not obvious, 
based solely on a statement from a medical professional''. This 
statement reflects the exception to the ABAWD time limit for 
individuals physically or mentally unfit for employment in the SNAP 
regulations at 7 CFR 273.24(c)(2). A copy of this memo is attached.
Attachment
  United States Department of Agriculture, Food and Nutrition Service, 
    3101 Park, Center Drive, Alexandria, VA, 22302-1500

November 19, 2015

  Subject: Supplemental Nutrition Assistance Program--ABAWD Time Limit 
            Policy and Program Access
  To: Regional Directors, Supplemental Nutrition Assistance Program, 
            All Regions

    This memorandum provides guidance to states in taking the balanced 
approach necessary to properly implement the Supplemental Nutrition 
Assistance Program (SNAP) time limit for able-bodied adults without 
dependents (ABAWD). On March 4, 2015, the Food and Nutrition Service 
(FNS) released a memorandum that anticipated fewer states would qualify 
for ABAWD time limit waivers and provided guidance in identifying, 
notifying, and tracking ABAWDs when those waivers expire. To comply 
with Federal law, states must do more than track ABAWDs. States must 
also carefully screen for exemption from the time limit and connect 
ABAWDs to the information and resources necessary to maintain 
eligibility consistent with Federal requirements.
    This memo goes beyond tracking to address screening and other 
challenges that face states in serving eligible ABAWDs and properly 
administering the time limit. As predicted, the economy has improved 
and fewer states and localities now qualify for the ABAWD time limit 
waivers that were in place during the economic downturn. At the same 
time, jobs are still scarce in many parts of the country and many 
ABAWDs continue to face barriers to employment.
    Implementation of ABAWD time limit policy not only impacts client 
eligibility and access, but also has consequences for state 
administrative measures. Administering the time limit inaccurately, 
either by failing to apply it to those who meet the time limit or 
inadvertently applying it to those who are exempt, can impact Quality 
Control (QC) error rates. Failing to apply the time limit to ABAWDs who 
have used their 3 countable months can cause a payment error. Likewise, 
misapplying the time limit to ABAWDs who are in fact fulfilling the 
work requirement, or applying the time limit to exempt individuals can 
cause payment and/or case and procedural errors (CAPER).
    In order to ensure accurate application of the time limit while 
also protecting program access for all eligible individuals, FNS 
reminds states of the following requirements, flexibilities, and best 
practices:

    Screening for Exemptions and Fitness for Work

    States must screen for exemptions as part of their process to 
identify ABAWDs. Accurate screening is fundamental to the state's 
implementation of the time limit consistent with Federal law. Federal 
law and regulations exempt certain individuals from the time limit 
based upon their circumstances,\1\ including individuals who may be 
unable to work due to physical or mental challenges.
---------------------------------------------------------------------------
    \1\ 7 CFR 273.24(c) details the criteria for exemption from the 
time limit.
---------------------------------------------------------------------------
    State agencies are responsible for assessing an individual's 
fitness for work methodically and comprehensively. The certification 
and recertification interview is critical in identifying fitness for 
work. Many individuals with physical or mental challenges are unfit for 
work, and must be exempted from the time limit. To be clear, an 
individual does not need to be receiving disability benefits to be 
exempted from the time limit under this criterion. States can exempt an 
individual as unfit for work if they are obviously mentally or 
physically unfit for employment or, if the unfitness is not obvious, 
based solely on a statement from a medical professional. If the 
unfitness is not obvious and verification from a medical professional 
is unavailable, states should make every attempt to verify the 
unfitness using an acceptable collateral contact (e.g., medical 
personnel or social worker). When an individual's unfitness for work is 
obvious to the eligibility worker, the state should exempt the 
individual without requiring a statement or verification from medical 
personnel. For example, a chronically homeless individual who is living 
on the street may be considered unfit for employment as determined by 
the state. Federal rules at 273.24(c)(ii) allow states this flexibility 
to prevent placing unnecessary burden on individuals who are clearly 
unfit for employment.

    Maintaining Eligibility through Work Programs and Workfare

    FNS strongly encourages state agencies to offer qualifying 
education, training, or work experience placements to ABAWDs through 
their SNAP Employment and Training (E&T) Programs or other work 
programs. Following 273.24(a)(1), ABAWDs must work or participate in a 
work program for 80 hours per month, or participate in workfare. State 
agencies have a great deal of flexibility to design E&T programs that 
provide ABAWDs with valuable skills and experience while also meeting 
the ABAWD work requirement. E&T and other work programs can provide 
qualifying activities that count toward the 80 hour requirement and may 
be combined with work hours to meet the 80 hour requirement.
    Workfare provides another means by which ABAWDs can maintain 
eligibility. Unlike participation in a work program, workfare does not 
require 80 hours of participation each month for fulfilling the ABAWD 
work requirement. Instead, workfare allows ABAWDs to ``work-off'' their 
SNAP benefit amount by requiring an hourly participation equal to the 
household allotment divided by the minimum wage, which is generally [] 
lower than 80 hours. States may consider offering workfare \2\ to 
ABAWDs as part of their SNAP E&T Program and/or a comparable state or 
local workfare program.
---------------------------------------------------------------------------
    \2\ 7 CFR 273.7(m) details the rules and flexibilities on workfare.
---------------------------------------------------------------------------
    Hours devoted to job search or job search training, when offered as 
part of other E&T components, are acceptable for the purpose of 
fulfilling the work requirement as long as those activities comprise 
less than half of the total required time spent in the components. 
Hours devoted to job search or job search training, when operated by a 
program under the Workforce Innovation and Opportunity Act or Section 
236 of the Trade Act of 1974, are also acceptable and could represent 
more than half of the required time spent in the component. In 
addition, state agencies may establish a job search period of up to 30 
days following initial SNAP certification prior to making a workfare 
assignment. This job search activity is part of the workfare 
assignment. Therefore, participants are considered to be participating 
in and complying with workfare requirements during this job search 
period and are meeting the ABAWD work requirement. This job search 
period of workfare may only be conducted at certification, not at 
recertification.

    Maintaining Eligibility through Unpaid or Volunteer Work

    In addition to paid or in-kind work, unpaid or volunteer work also 
counts for the purposes fulfilling the ABAWD work requirement. It is 
often difficult for people with few job skills or no significant job 
history to obtain paid employment. In some cases, volunteer work may be 
the only way for these individuals to obtain needed job skills. ABAWDs 
may volunteer with religious or community organizations. For these 
reasons, Federal rules provide that individuals can fulfill the ABAWD 
work requirement through unpaid or volunteer work, provided that it is 
verified under standards set by the state agency.\3\ Moreover, states 
have the flexibility to consider unpaid or volunteer work performed at 
a public or private nonprofit institution as workfare or comparable 
workfare. As explained above, workfare presents a lower hourly burden 
and may be a better fit for certain ABAWDs, especially those facing 
high barriers to obtaining paid employment.
---------------------------------------------------------------------------
    \3\ 7 CFR 273.24(a)(iii) provides that unpaid work, verified under 
standards established by the state agency, meets the definition of work 
for the purpose of fulfilling the work requirement.

---------------------------------------------------------------------------
    Good Cause for Failure to Meet the ABAWD Work Requirement

    The regulations at 273.24(b)(2) also allow states to determine good 
cause for failure to fulfill the ABAWD work requirement. When an ABAWD 
has good cause for failure to fulfill the required number of hours in a 
given month, it does not count toward the time limit. Good cause 
applies to situations in which an individual would have normally met 
the ABAWD work requirement by working or participating in a work 
program, but does not due to circumstances beyond the individual's 
control. In cases where an individual is fulfilling the ABAWD work 
requirement through participation in SNAP E&T or workfare, but fails to 
meet the 80 hour or workfare requirement in a given month, states would 
determine good cause under 273.7(i) rather than under 273.24(b)(2).

    Regaining Eligibility

    ABAWDs who have used their 3 countable months can regain 
eligibility at any time. ABAWDs regain eligibility by fulfilling the 
ABAWD work requirement for 30 consecutive days, by meeting a criterion 
for exemption, or when their 36 month clock is reset. ABAWDs that 
regain eligibility by working during a break in SNAP participation need 
not be working at the point of reapplication. Moreover, ABAWDs that 
regain eligibility by working are entitled to an additional set of 3 
consecutive countable months. These 3 months go into effect immediately 
when the ABAWD first notifies the state that they are no longer 
fulfilling the ABAWD work requirement. In addition, they must be used 
consecutively and can only be granted once in a 36 month period.
    We encourage states to contact FNS with any questions and for 
additional technical assistance on ABAWD policy and program access. As 
with any administrative change that may affect a significant number of 
households, we also encourage states to communicate with their partner 
agencies and food banks to ensure they are aware of how the time limit 
may affect those in need of food assistance. More details on the above 
described best-practices and flexibilities can be found in the Guide to 
Serving ABAWDs Subject to Time-Limited Participation, available on the 
FNS PartnerWeb and at http://www.fns.usda.gov/node/9310.*
---------------------------------------------------------------------------
    * Editor's note: the hyperlink is no longer valid. As of the 
publication of this hearing the correct hyperlink is https://fns-
prod.azureedge.net/sites/default/files/Guide_to_Serving_
ABAWDs_Subject_to_Time_Limit.pdf.
---------------------------------------------------------------------------
    If you have any questions concerning this memorandum, please 
contact Casey McConnell at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e1d1f0d1b0750131d1d1110101b12123e18100d500b0d1a1f5019110850">[email&#160;protected]</a>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Lizbeth Silbermann,
Director,
Program Development Division.

    Question 2. Mr. Secretary, water quality is a pressing concern for 
rural and urban areas like mine across the country. I was pleased the 
farm bill included several provisions that provide farmers and ranchers 
the tools they need to address and improve water quality. Within the 
Conservation Reserve Program (CRP), the farm bill establishes a new 
statutory initiative to address water quality--the Clean Lakes, 
Estuaries, and Rivers Initiative (CLEAR). The conference report also 
states that Congress expects ``USDA to take greater steps to report on 
the water quality benefits'' as a result of CLEAR.
    Can you please provide an update on how USDA is moving forward on 
these provisions? When do you anticipate making continuous CRP sign-up 
available for the CLEAR Initiative? What ``greater steps'' will the 
department take to monitor and report on program outcomes?
    Answer. FSA is evaluating changes made to the Conservation Reserve 
Program by the Agriculture Improvement Act of 2018, analyzing the CLEAR 
Initiative provisions, and will work to implement those changes as 
quickly as possible.

    Question 3. Mr. Secretary, with implementation of the farm bill 
underway and some pretty large changes in the conservation title, I 
continue to hear concerns that hiring at NRCS offices is not keeping 
pace with what is needed. The President's 2019 Budget Request indicated 
that NRCS will have almost 2,000 fewer permanent positions in FY 2019 
than in FY 2017. These staffing restraints are compounded by a 61 
percent increase in attrition at NRCS between the first quarters of FY 
2017 and FY 2018.
    It is critical that NRCS has the necessary staff to not only 
implement the new law but also continue serving their customers and 
delivering programs. Can you tell me what efforts are planned or 
underway to ensure that NRCS offices are fully staffed at levels that 
will continue to deliver the enhanced customer service we all desire?
    Answer. I would like to clarify the staffing information you cite. 
In FY 2018, the Farm Production and Conservation (FPAC) mission area 
consolidated mission support services across FSA, NRCS, and RMA into 
the FPAC Business Center (BC). The FPAC BC is a ``one-stop, full-
service shop'' for mission support services. Its objective is to ensure 
employees and partners have the tools and resources needed to provide 
best-in-class service to our customers.
    The establishment of FPAC BC did not increase the number of 
positions in FPAC; instead, FPAC BC positions and associated funding 
were transitioned from FSA, NRCS, and RMA to ensure ``zero sum.'' 
NRCS's transfer of 882 mission-support positions and associated funding 
is therefore reflected in the FY 2019 President's Budget Request. Its 
approved staffing levels have not otherwise changed since FY 2018.
    IN FY 2018, NRCS was approved to hire up to 10,800 positions, 
reflecting 400 new, customer-facing positions in field offices. NRCS is 
in the process of filling over 350 positions within the next 45-80 
days. NRCS will also be aggressively filling vacancies throughout 2019. 
FPAC BC's Human Resources (HR) division has a multi-pronged plan to 
address this workload that includes, but is not limited to:

  <bullet> Obtaining temporary surge support within HR to aggressively 
        address the remaining hiring actions and reduce the number of 
        vacancies;

  <bullet> Establishing open continuous announcements for common 
        positions, such as Soil Conservationist, Soil Conservationist 
        Technician, and Engineers. By maintaining current certificates 
        of eligible candidates, NRCS hiring managers can more quickly 
        identify, select, and on-board qualified staff for these 
        critical positions;

  <bullet> Implementing business process improvements to streamline 
        Federal and county hiring procedures, improving overall 
        efficiency and effectiveness; and

  <bullet> Digitizing manual hiring processes, which greatly improves 
        FPAC's efficiency and effectiveness. Streamlined processes are 
        built into the system, clear roles and responsibilities, and 
        system integration to minimize duplicative data entry.
Questions Submitted by Hon. James P. McGovern, a Representative in 
        Congress from Massachusetts
Proposed Rule: SNAP Requirements for Able-Bodied Adults Without 
        Dependents
    Question 1. On December 20, 2018, USDA announced a proposed rule to 
amend the regulatory standards by which the Department evaluates state 
SNAP agency requests to waive the time limit and to end the unlimited 
carryover of ABAWD percentage exemptions. USDA stated that this 
proposed rule intended to ``move more able-bodied recipients of 
Supplemental Nutrition Assistance Program (SNAP) benefits to self-
sufficiency through the dignity of work.'' Please provide all data that 
USDA and the Trump Administration used to support this proposed rule 
change.
    Answer. The full Regulatory Impact Analysis was published as an 
appendix to the proposed rule, which includes important data used to 
support this proposed rule. This includes the impact analysis of the 
proposed rule and alternative proposals. You can access this analysis 
here: https://www.regulations.gov/document?D=FNS-2018-0004-6000. The 
Department looks forward to reviewing comments and will consider all 
comments received in drafting the final rule.

    Question 2. Please provide data on the specific demographics within 
the ABAWD classification, including but not limited to:

  a.  Participant race and ethnicity

  b.  Participant veteran status

  c.  Participant age

  d.  Participant criminal record status

  e.  Participant ward status

  f.  Participant citizenship status

    Answer. As noted in the proposed rule, the Food and Nutrition Act 
of 2008 specifically exempts individuals from the ABAWD time limit and 
corresponding work requirement for several reasons, including, but not 
limited to, age, physical or mental unfitness for work, having a 
dependent child, or being pregnant. USDA does not collect information 
on veteran status, criminal record status, or ward status for any SNAP 
participants.
    Additionally, the Food and Nutrition Service (FNS) issued guidance 
in November of 2015 that outlines the discretion state SNAP Agencies 
have in determining an individual's fitness for work. The second page 
of the memo states, ``Many individuals with physical or mental 
challenges are unfit for work and must be exempted from the time limit. 
To be clear, an individual does not need to be receiving disability 
benefits to be exempted from the time limit under this criterion. 
States can exempt an individual as unfit for work if they are obviously 
mentally or physically unfit for employment or, if the unfitness is not 
obvious, based solely on a statement from a medical professional''. 
This statement reflects the exception to the ABAWD time limit for 
individuals physically or mentally unfit for employment in the SNAP 
regulations at 7 CFR 273.24(c)(2). A copy of this memo is attached.*
---------------------------------------------------------------------------
    * Editor's note: the memo referred to is located on p. 80.
---------------------------------------------------------------------------
    Below is FY 2017 data on race and ethnicity, age, and citizenship 
status of ABAWDs.

------------------------------------------------------------------------
             Race/Ethnicity                    Count          Percent
------------------------------------------------------------------------
White, not Hispanic                            1,324,786           41.1%
Black or African American, not Hispanic          899,641           27.9%
Hispanic, any race                               401,090           12.5%
Asian, not Hispanic                               47,946            1.5%
American Indian or Alaska Native, not             55,197            1.7%
 Hispanic
Native Hawaiian or other Pacific                  11,418            0.4%
 Islander, not Hispanic
Multiple races, not Hispanic                      59,583            1.8%
Race unknown                                     421,721           13.1%
                                         -------------------------------
  Total                                        3,221,380          100.0%
------------------------------------------------------------------------


------------------------------------------------------------------------
       Age Ranges                  Count                  Percent
------------------------------------------------------------------------
              18-19                  294,490                    9.1%
              20-24                  566,890                   17.6%
              25-29                  533,640                   16.6%
              30-34                  429,431                   13.3%
              35-39                  359,706                   11.2%
              40-44                  433,441                   13.5%
              45-49                  603,781                   18.7%
                         -----------------------------------------------
  Total.................           3,221,380                  100.0%
------------------------------------------------------------------------


------------------------------------------------------------------------
           Citizenship Status                  Count          Percent
------------------------------------------------------------------------
U.S.-Born Citizen                              3,038,619           94.3%
Naturalized Citizen                               66,183            2.1%
Refugees                                          46,297            1.4%
Eligible Noncitizens                              70,282            2.2%
                                         -------------------------------
  Total                                        3,221,380          100.0%
------------------------------------------------------------------------

School Meals
    Question 3. Recent rollbacks on school nutrition regulations in 
rural and urban areas (Flexibilities for Milk, Whole Grains, and Sodium 
Requirements) are in potential violation of Federal statute requiring 
school nutrition standards to be consistent with the Dietary Guidelines 
for Americans. These changes have placed low-income students (in both 
rural and urban areas) at risk and could cause negative health impacts. 
Please describe and provide any health data that USDA used to justify 
maintaining higher amounts of salt, providing less access to whole 
grains, and providing more refined grains in school lunches.
    Answer. As a key part of USDA's regulatory reform agenda, the final 
rule seeks to ensure that school meals regulations work for all 
operators, while reflecting the recommendations of the Dietary 
Guidelines for Americans, as required by law. All participating 
children will continue to have access to fruit, an array of vegetables, 
whole grains, and fat-free and low-fat milk. School meals must also 
continue to provide appropriate calorie ranges and limit saturated fat. 
The modifications in the final rule are targeted to three specific 
areas and address USDA's commitment to alleviate regulatory burdens and 
ensure that program regulations are practical for all local providers. 
This rule will help program operators provide wholesome and appealing 
meals that reflect the Dietary Guidelines and meet the needs and 
preferences of their communities. It is important to note that schools 
are not required to change their menus and can choose whether or not to 
use the flexibilities this rule provides.

    Question 4. Many schools and food service companies in the school 
lunch industry are working towards or are already providing healthy 
meals and products with less sodium. Please provide data detailing:
    The number of schools that are meeting sodium-reduction targets, as 
defined in the final rule entitled ``Nutrition Standards in the 
National School Lunch and School Breakfast Programs'' published by the 
Department of Agriculture in the Federal Register on January 26, 2012 
(77 Fed. Reg. 4088).
    Answer. As of June 2018, 98.89 percent of all school food 
authorities were certified as meeting Sodium Target 1 and 99.63 percent 
of all NSLP lunches were certified as having met the meal pattern in FY 
2018.

    Question 4a. The proportion of schools that meet the second sodium-
reduction targets either fully or partially.

    Answer. School food authorities are currently required to meet 
Target 1; there is no requirement for states to track and USDA does not 
have data on the proportion of schools meeting standards beyond Target 
1.

    Question 5. Please provide documentation of any technical 
assistance, training materials, and resources USDA will provide to 
schools to assist in meeting sodium-reduction targets.
    Answer. USDA provides ongoing technical assistance on meeting the 
meal pattern requirements in a variety of ways. We currently have 
available a Team Nutrition's Menu Planner for School Meals resource as 
well as archived webinars on sodium reduction. USDA is also updating 
the meal pattern charts in the Food Buying Guide suite of resources for 
Child Nutrition Programs. USDA is also in the process of hosting a 
planning session on the development of additional technical assistance, 
training materials, and resources needed to assist program operators in 
meeting the sodium reduction targets.
Questions Submitted by Hon. Filemon Vela, a Representative in Congress 
        from Texas
    Question 1. With a new crop coming off in June, and with unusually 
full storage facilities, what can we do between now and then to open 
elevator space for new crops of grain and make sure farmers are not 
hurt further?
    Answer. The Department developed the Market Facilitation Program 
(MFP) in recognition of the marketing disruptions that would occur due 
to retaliatory tariffs on U.S. crops and livestock products. MFP 
payments were intended to help farmers find alternative marketing 
channels and help offset the impact of tight storage. As of March 13, 
$8.1 billion has been paid out under this program. At the same time, 
the Department is working to open new and expand existing markets for 
U.S. agriculture, including through the use of the Agricultural Trade 
Promotion (ATP) program, which is providing $200 million in cost-share 
funding to U.S. agricultural groups for overseas market development 
activities. Negotiations with China are focused on reopening that 
market and addressing access concerns, and the Administration is 
gearing up for trade negotiations with Japan, the European Union, and 
the United Kingdom. USDA has seen some increase in the pace of export 
sales commitments for some of the affected commodities, especially 
soybeans, which will also help ease storage constraints.

    Question 2. During a recent meeting with Texas cotton growers, I 
heard from them that the Market Facilitation Program (MFP) has been 
helpful for those who've had a crop. But not every farmer has had a 
crop. Given that MFP payments were only paid toward 2018 production, 
and factoring in the many areas that had to delay harvest due to lack 
of bin space, allowing rainfall to damage the harvest, how can the 
Committee work with USDA to use MFP to its full potential and stop the 
harm that is being done to our farmers due to the ongoing trade war?
    Answer. The Market Facilitation Program for crop commodities is 
limited to 2018 mechanically-harvested crops, including cotton. The 
last day producers can certify their harvested 2018 production is May 
1, 2019. Cotton producers have the option to certify their estimated 
quantity of harvested lint in module form, regardless of whether it is 
to be ginned. USDA received reports of limited cotton ginning capacity 
in parts of Kansas and Oklahoma; however, there are no reports of 
warehouse or storage capacity issues. We are also aware that some 
modules will not be ginned due to rot and mold issues. Crop damage from 
weather related events may be eligible for crop insurance or the 
Noninsured Crop Disaster Assistance Program (NAP).

    Question 3. If the trade war persists and our producers cannot 
clear bin and silo space and the cost basis widens for farmers due to 
lack of markets, will you consider another round of assistance?
    Answer. Yes, we are considering another round of potential 
assistance if the trade disruptions persist.

    Question 4. Many of my constituents suffered through the aftermath 
of Hurricane Harvey, while others had debilitating drought or general 
flooding in 2017 and 2018. Congress passed disaster assistance, but it 
only applies to those affected by hurricanes and wildfires. With 
similar assistance being considered for 2018 hurricanes and wildfire 
areas, could you describe the differences between hurricane related 
losses and flood or drought related losses and whether USDA is 
considering ways to better coordinate our farm programs so that 
producers from all regions who suffer extreme weather events are 
eligible to receive disaster assistance?
    Answer. FSA currently administers multiple disaster assistance 
programs, including the Emergency Conservation Program, Emergency 
Forest Restoration Program, Livestock Forage Program, Livestock 
Indemnity Program, Emergency Assistance for Livestock, Honeybees, and 
Farm-raised Fish Program, and Tree Assistance Program, which provide 
farm, ranch, and forest land rehabilitation and livestock and forage 
replacement assistance for hurricane, wildfire, flood, drought, and 
other natural-disaster-affected farmers, ranchers, and foresters. The 
Noninsured Crop Disaster Assistance Program also provides disaster 
assistance for losses due to natural disasters.
    In 2018, Congress deemed it appropriate to provide supplemental 
disaster assistance to producers who incurred substantial losses in 
2017 due to devastating hurricanes and wildfires and proceeded to enact 
the 2017 Wildfires and Hurricanes Indemnity Program (2017 WHIP). We 
understand Congress is now considering extending similar assistance to 
producers impacted by disaster events over the course of 2018 and 2019. 
USDA stands ready to quickly implement disaster assistance Congress 
decides to enact.

    Question 5. With citrus greening currently affecting an estimated 
40-70% of citrus trees in Florida and an increasing number of citrus 
groves across the country, including in my district, how will research 
provided by the Specialty Crop Research Initiative (SCRI) provide 
farmers increased security to prevent the further spread and infection 
of their citrus?
    Answer. NIFA began supporting Huanglongbing (HLB), or citrus 
greening, research and extension efforts in February 2016, with $20.1 
million in grants through the Specialty Crop Research Initiative's 
(SCRI) Citrus Disease Research and Extension Program (CDRE). CDRE 
funding has helped pave the way for new approaches to control the 
insect that vectors HLB. Several potential products (biological 
molecules) that have been shown to clear the HLB bacterium from 
infected citrus are in the hands of commercial partners, who are 
working on the registration of these products. The 2018 Farm Bill 
created a separate Emergency Citrus Disease Research and Development 
Trust Fund to continue the work funded by SCRI's CDRE.

    Question 6. The Noninsured Crop Disaster Assistance Program (NAP) 
provides important risk management tools to farmers in under-served 
counties, and is very helpful to growers of specialty crops or crops 
with limited production. However, farmers must be assured that the 
program will be consistent. A situation in Rio Arriba County in New 
Mexico has come to my attention in which farmers who signed up for 
alfalfa/grass mixed forage coverage through NAP saw their level of 
assistance for the 2018 crop cut by 33 percent from the coverage level 
posted at the beginning of the year. Furthermore, their expected county 
yield was further reduced by another 52 percent for 2019. Can the 
Department provide further clarity as to what procedures were used to 
justify two significant changes to the expected county yield in 
successive years? Why was the method of calculating the county expected 
yield for 2018 not used again in 2019?
    Answer. The Noninsured Crop Disaster Assistance Program (NAP) 
provides coverage for crops for which crop insurance policies are 
unavailable and uses the actual production history the producer has 
achieved for the crop to calculate an approved yield. The approved 
yield is an average of the producer's actual production history, which 
consists of a minimum of 4 and a maximum of 10 crop years. A county-
expected yield is based on an Olympic average of the county average 
yields from the previous 5 crop years and can be used as a substitute 
yield when calculating an approved yield for coverage under NAP when 
using actual yields is not possible or feasible. There are only two 
situations when the use of the county-expected yield is applicable: (1) 
when less than 4 years of actual production history is available to 
establish an approved yield; or (2) when an eligible disaster event 
occurs and the producer's actual yield for the year is below 65 percent 
of the county-expected yield. Ideally, NAP coverage should be based on 
what a producer has historically been able to produce; however, in the 
case of NAP participants in Rio Arriba County in New Mexico, there were 
multiple years where the county-expected yield was used to calculate 
the producer's approved yield because the production for the year was 
less than 65 percent of the county average yield. In 2017, an error was 
noted in the data used to establish the county-expected yield for 
alfalfa/grass mixed forage that resulted in the county average yield as 
well as producer's approved yields being significantly higher than the 
yield that could be achieved. Because the error was discovered after 
farmers had obtained coverage for crop year 2017, the corrections were 
not made until crop year 2018, with further refinement in 2019. The 
data used to establish the county-expected, as well as the producer's 
approved, yield is now consistent with the establishment of alfalfa/
grass mixed forage in other areas.
Questions Submitted by Hon. Stacey E. Plaskett, a Delegate in Congress 
        from Virgin Islands
Agriculture Census
    Question 1. The Agriculture Census is very important to inform 
Congress on the state of America's rural communities.
    Where is USDA in the process of the next Agriculture Census?
    Answer. The Census of Agriculture (COA) is conducted every 5 years 
to obtain agricultural statistics for each county, state, and the 
nation. The COA is the leading source of statistics about the nation's 
agricultural production and the only source of consistent, comparable 
data at the county level. The COA is conducted in close cooperation 
with the nation's agricultural user groups and farmer organizations.
    NASS will complete its summary and disclosure processes and release 
the results of the 2017 Census of Agriculture in April. During FY 2019, 
NASS will begin preparing for the 2022 COA. These activities include 
evaluation of the previous COA, mail list development, and content 
development.

    Question 1a. Will the next Agriculture Census include data for the 
U.S. Virgin Islands?
    Answer. Yes. The COA includes the outlying areas of the 
Commonwealth of Puerto Rico, Commonwealth of the Northern Mariana 
Islands, the United States Virgin Islands, American Samoa, and Guam. 
During FY 2019, NASS will collect COA data for all of the outlying 
areas. NASS plans to release COA data for the outlying areas in FY 
2020.

    Question 1b. What type of resources are being devoted to the 
Agriculture Census?
    Answer. Yes. The COA includes the outlying areas of the 
Commonwealth of Puerto Rico, Commonwealth of the Northern Mariana 
Islands, the United States Virgin Islands, American Samoa, and Guam. 
During FY 2019, NASS will collect COA data for all of the outlying 
areas. NASS plans to release COA data for the outlying areas in FY 
2020.

                 United States Department of Agriculture
                National Agricultural Statistics Service
                          Census of Agriculture
                     5 Year Budget Outlook 2018-2022
                         (Dollars in Thousands)
------------------------------------------------------------------------
      Fiscal Year            Amount                 Activities
------------------------------------------------------------------------
2018 Actual                     $63,350  Data Collection, Processing &
                                          Analysis, CAIRs
2019 CR a                        63,350  Products, Follow-on Surveys,
                                          CAIRs, Plan for next Census
2020 Presidents Budget           45,300  Follow-on Surveys, CAIRs,
                                          Maintain, List Frame
2021 Estimated                   47,000  Follow-on Surveys, CAIRs,
                                          Maintain & Develop List Frame
2022 Estimated                   47,000  Preparation & Planning, CAIRs,
                                          List Frame
                        ----------------
  Census Cycle Total          $266,000
------------------------------------------------------------------------
a Data from the 2017 Census will be released in April 2019.
Definitions:
CAIRs: Current Agricultural Industrial Reports.
List Frame: Activities necessary to develop a robust and proficient list
  frame.
Maintain: Activities associated with maintaining and enhancing the list
  of producers that will receive the Census of Agriculture and Census
  Follow-on questionnaires.
Products: Producing tangible and electronic products for external data
  users, including the public.


    Question 1c. Are there any new approaches to expand information 
collection to under-served areas like the U.S. island territories?
    Answer. USDA consulted with key stakeholders from each respective 
island territory on content and data collection. All data collection in 
the outlying areas will be completed by personal interviews. The COA 
results will be disseminated online through the USDA website.
Wildfires and Hurricanes Indemnity Program
    Question 2. The Bipartisan Budget Act of 2018 provided supplemental 
appropriations for disaster relief, including $2.36 billion to cover 
agricultural losses in 2017 disaster areas.
    In July of last year, the Department of Agriculture announced the 
availability of the bulk of the funding for agricultural losses through 
a special ad hoc program called the Wildfires and Hurricanes Indemnity 
Program (WHIP).
    I have heard from constituents that they have not received 
assistance under WHIP, despite having submitted the required 
documentation.
    What is your assessment of how WHIP has worked in the U.S. Virgin 
Islands?
    How much assistance under WHIP has the U.S. Virgin Islands 
received?
    Answer. The Wildfires and Hurricanes Indemnity Program has been 
effective in the U.S. Virgin Islands. There are more than 70 
applications on file, 32 of which have been paid. There were two crops 
being grown in the U.S. Virgin Islands that FSA did not have prior 
knowledge of and, as of March 2019, the data was provided to the local 
offices for them to process remaining applications. Thus far, $431,886 
has been paid.
Questions Submitted by Hon. Abigail Davis Spanberger, a Representative 
        in Congress from Virginia
    Question 1. The USDA's conservation programs provide critical 
support to farmers while at the same time helping to protect our 
environment, such as by enhancing soil health and water quality.
    The 2018 Farm Bill made some important policy changes to the 
working lands programs--in particular, to the Conservation Stewardship 
Program (CSP) and the Environmental Quality Incentives Program (EQIP)--
to facilitate farmer access, to improve flexibility, and to increase 
coordination between the two programs.
    Given the changes, it will be important to make sure that field 
agents fully understand the new processes, so that they can help 
producers access these funds efficiently.
    What is the timeline for implementing the changes the farm bill 
made to the working lands programs?
    Answer. NRCS has been providing its state and field offices 
guidance regarding the 2018 Farm Bill changes that can be implemented 
in FY 2019 consistent with the transition authority provided by Section 
2504. Key programs such as the Environmental Quality Incentives Program 
and the Conservation Stewardship Program operate under a continuous 
enrollment so applications can be filed at any time. NRCS is developing 
its new regulations and policies to ensure that the farm bill's 
improvements and flexibilities to the programs are fully available to 
producers in FY 2020.

    Question 1a. What is your strategy to make sure field agents are 
prepared to support farmers who apply under the new structure?
    Answer. NRCS will initiate a robust nationwide training effort to 
ensure that all field offices are able to effectively implement the new 
opportunities made available through the 2018 Farm Bill. In addition, 
NRCS is creating a quality assurance process to ensure customers 
receive high-quality service regardless of location.

    Question 2. When you and I spoke by phone on February 6, you 
assured me that the Dairy Margin Coverage program was on track to open 
for enrollment on March 2, as specified in the farm bill. However, the 
Department has now announced that the program will not open for 
enrollment until June. This creates a hardship for our dairy farmers, 
who have been struggling and are urgently in need of the new program.
    Can you please elaborate on the reasons for the delay?
    What actions are being taken to ensure that the implementation 
timeline is not further delayed, and checks begin going out in July as 
currently expected?
    Answer. USDA fully understands the current challenges facing the 
dairy industry and will work expeditiously to implement the Diary 
Margin Coverage (DMC) program. Because of the significant changes to 
the dairy title as part of the 2018 Farm Bill, USDA must proceed with a 
rule development process whereby the program can be planned according 
to statute. The timely implementation of the DMC program is a priority 
of this Administration and we are working diligently to implement the 
DMC program as soon as possible. We believe the reported timelines are 
on course for a June sign up, with payments to begin shortly thereafter 
for those producers who selected levels of coverage that triggered DMC 
assistance.

    Question 3. The outdoor recreation economy generates $21.9 billion 
in consumer spending in my home state and supports jobs at more than a 
dozen outdoor companies in my district. In total, outdoor recreation 
accounts for over 2% of national GDP.
    Work through the Forest Service's National Partnership Office like 
the webinar series on building Partnership Opportunities to Support the 
Recreation Economy is critical to the continued success of this 
industry and its support of rural communities.
    As you implement the 2018 Farm Bill, how will you leverage this 
office to build partnerships that support rural economies and healthy 
national forests, and ensure that the shared stewardship work includes 
recreation economy stakeholders?
    Answer. The USDA Forest Service's National Partnership Office is 
poised to build strategic, national-level partnerships that support 
rural economies and healthy National Forests. These national 
partnerships complement thousands of Forest Service regional 
partnerships across the country to improve trails, engage the public, 
strengthen recreation-based local economies, and more. The farm bill 
contained several authorities that will help the Forest Service more 
efficiently implement our mission and the National Forest System 
leadership, including the Partnership Office, will be involved in 
helping to implement these authorities across the agency.

    Question 4. In August 2018, USDA released a 3 year action plan to 
improve water quality, boost soil health, and enhance wildlife habitat 
throughout the Chesapeake Bay Watershed.
    How will the conservation and forestry provisions of the 2018 Farm 
Bill support that action plan?
    Answer. The action plan communicates meaningful conservation 
outcomes that USDA seeks to achieve in collaboration with farmers, 
private landowners, and other partners in the Chesapeake Bay watershed. 
The action plan is not tied to any particular program and, therefore, 
enables USDA to achieve the conservation outcomes with programmatic 
mechanisms that are provided in the 2018 Farm Bill. We anticipate that 
streamlining mechanisms and partnership enhancements provided by the 
2018 Farm Bill will support strong voluntary conservation participation 
in the Chesapeake Bay.
    Water quality, soil health, and wildlife habitat are natural 
resource priorities for USDA across the Chesapeake Bay watershed. The 
2018 Farm Bill continues the historical priority placed on improving 
water quality through programs such as the Environmental Quality 
Incentives Program and the Conservation Stewardship Program. Mandatory 
funding provided for Agricultural Conservation Easement Program (ACEP) 
is strong, and under the Wetlands Reserve Easement option of ACEP, 
wetland restoration projects may include an increased focus on water 
quality improvements to go along with the traditional habitat benefits.
    The action plan also focuses on public engagement and partnerships. 
Amendments to the Regional Conservation Partnership Program offer 
increased opportunities for USDA to work with state and local agencies 
and non-governmental organizations on cooperative conservation programs 
to implement land conservation.

    Question 4a. Do you anticipate any changes to the action plan or 
corresponding acreage and engagement targets?
    Answer. The natural resource and public engagement goals included 
in the action plan remain highly relevant to public and private efforts 
to restore the Bay watershed while supporting agricultural and forest 
productivity and sustainability. USDA will soon publish a report on the 
progress made in 2018, showing that targets have been met thus far and 
anticipating they will continue apace in 2019 and 2020. If significant 
data becomes available indicating that priorities or targets should be 
revised, NRCS can update the plan before the end date of the current 
plan in 2020.
Questions Submitted by Hon. TJ Cox, a Representative in Congress from 
        California
    Question 1. Mr. Secretary, as you are aware, I represent a state 
whose specialty crop sector has been facing a labor shortage for years. 
My grower constituents simply cannot find a stable supply of workers 
willing to produce and harvest their crops. Because our agricultural 
labor market is fundamentally different from other labor markets in 
terms of seasonality, many California specialty crop growers view 
mechanization and automation as the only workable response to our 
chronic labor shortage.
    That is why I strongly supported the insertion of the Agriculture 
Advanced Research and Development Authority (AGARDA) pilot program into 
Title VII of 2018 Farm Bill. This innovative public-private pilot has 
as a priority the awarding of grants for projects that address critical 
research and development needs for the application of technology within 
the specialty crop sector.
    Here are my two questions: When will AGARDA be ready to receive 
proposals on specialty crop mechanization and automation
    When will you identify additional private-sector funding for 
further mechanization and automation research projects?
    Answer. I appreciate your interest in this new program. The 2018 
Farm Bill did not provide funding for AGARDA. USDA will implement this 
provision should funding be appropriated for this activity.
Mitigation Funds
    Question 2. In the midst of the disruptive and costly trade wars 
with China and others, USDA's trade mitigation programs have provided 
some small reprieve to affected farmers. That being said, latest 
reports state that roughly $7.7 billion of the originally promised $12 
billion has been spent. At the same time, it's been reported that USDA 
received nearly $600 million in applications for the Agricultural Trade 
Program (ATP), which only had $200 million to award. This clearly 
demonstrates the popularity of the export program amongst industries 
that are fighting to maintain their place in China's markets or find 
alternative ones.
    I am concerned that some portion of the $7.7 billion allocated will 
go unclaimed. In the direct payment program there may be producers that 
can't claim money due to AGI concerns--so money will be left unclaimed. 
Additionally, the food purchasing program may have some funds left over 
as well. If there are unspent funds left over from the purchase program 
or from the direct payment program it seems to me those funds should be 
reprogrammed to the export promotion activities of those respective 
crops.
    Have there been any internal discussions to reprogram the remaining 
funds or unclaimed/left over funds, either to the ATP or other 
assistance programs? Is this something the Department is considering? 
Please elaborate.
    Answer. Reprogramming is not under consideration at this time.
Question Submitted by Hon. Angie Craig, a Representative in Congress 
        from Minnesota
    Question. Mr. Secretary, I am committed to bringing attention to 
LGBTQ+ civil rights issues in agriculture and in youth organizations. 
As you may know, with the leadership of my colleague Mr. Panetta, we 
sent a letter to you asking for detailed information about the Agency's 
actions in rescinding guidance developed by 4-H staff which outlined 
how the organization could best support LGBTQ+ youth. Disruptive 
actions like this send a clear and harmful message to the over six 
million 4-H members that LGBTQ+ youth are not welcome in the 
organization. Did you, in your role as Secretary of Agriculture, direct 
this action? What is USDA's stance on the participation of LGBTQ+ youth 
in 4-H? Would USDA be supportive of issuing nationwide LGBTQ+ 
nondiscrimination guidance?
    Answer. I cannot emphasize enough that USDA will never tolerate 
mistreatment of a student by anyone associated with the 4-H program. 
All students should be able to learn and grow in a supportive 
environment. USDA strongly affirms the dignity of all persons and we do 
not condone harassment against any 4-H participants. My First Amendment 
policy for the Department clearly sets out that the freedom of 
expression flourishes in a climate of mutual respect and tolerance 
(https://www.usda.gov/sites/default/files/documents/5817-Policy-
Statement.pdf). Further, my expectation for all USDA employees and 
affiliates is simple--``Do right and feed everyone.'' USDA's commitment 
to doing right by treating everyone with respect and dignity is 
exemplified by the Department's Civil Rights Policy Statement and Anti-
Harassment Statement, both of which are available online (https://
www.ascr.usda.gov/civil-rights-statements).
    The document that you reference was developed by state 4-H Program 
leaders in the Western Region. In March of 2018, it was published by 
the regional working group on USDA stationery, despite having not been 
reviewed or approved by the Office of the Secretary, the Administrator 
of the National Institute of Food and Agriculture, or USDA counsel. The 
4-H program has a national reach, but it is primarily run as a local 
program in coordination with the National 4-H Council, a private 
nonprofit organization, and cooperative extension programs at state 
land-grant universities. USDA firmly believes that state 4-H 
organizations should retain the power to decide issues of governance at 
a local level.
Question Submitted by Hon. Anthony Brindisi, a Representative in 
        Congress from New York
    Question. Mr. Secretary thank you for your testimony. I represent 
many family dairy farmers in Upstate New York. Coming off 4 years of 
depressed milk prices, many dairy farmers are in dire financial 
straits, so I urge you to be as flexible as possible when it comes to 
the timing for when producers must pay their premiums under the Dairy 
Margin Coverage program. It would be helpful if producers are able to 
pay in installments instead of all at once, so that they don't have to 
struggle to pay a larger amount right at the beginning. Will the USDA 
commit to flexibility when implementing this program, and keep my 
office informed about implementation?
    Answer. FSA is committed to offering flexible options to 
participate in Dairy Margin Coverage (DMC) as much as practical and 
will periodically report the progress of implementation of the DMC 
program.
Questions Submitted by Hon. Josh Harder, a Representative in Congress 
        from California
    Question 1. Mr. Secretary, as you know, new 2018 Farm Bill 
provisions within the Specialty Crop Research Initiative (SCRI) 
explicitly encourages research and development into the mechanization 
and automation of labor-intensive tasks for production and processing. 
I strongly encourage USDA do all it can to ensure all these provisions 
are implemented in an effective and timely matter.
    In addition to SCRI, I want to draw your attention to a new 
provision in the farm bill's research title; the Agriculture Advanced 
Research and Development Authority (AGARDA) pilot program. This pilot, 
essentially USDA's version of DOD's Defense Advanced Research Projects 
Agency, provides USDA with a novel mechanism for it to join with the 
private-sector in researching challenges in engineering and 
mechanization related to the growing, harvesting, handling of 
agricultural products with a priority on challenges faced by the 
specialty crop sector.
    Given that harvesting mechanization within the specialty crop has 
lagged other crops, what are your plans to ensure that USDA takes 
seriously this new authority particularly the pilot's ability to tap 
private-sector funds for incubation and commercialization of harvest-
focused mechanization and automation projects targeted at the specialty 
crop sector?
    Answer. The 2018 Farm Bill did not provide funding for AGARDA. USDA 
will implement this provision should funding be appropriated for this 
activity.

    Question 2. USDA's trade mitigation programs have provided some 
reprieve to affected farmers. Some of the latest reports state that 
roughly $7.7 billion of the originally promised $12 billion has been 
spent. I have heard concerns about some portion of the $7.7 billion 
going unclaimed. In the direct payment program there may be producers 
that can't claim money due to AGI concerns--so money will be left 
unclaimed. Additionally, the food purchasing program may have some 
funds left over as well. Secretary Perdue, have there been any internal 
discussions to reprogram the remaining funds or unclaimed/left over 
funds, either to the ATP or other assistance programs?
    Answer. Reprogramming is not under consideration at this time.
Questions Submitted by Hon. Al Lawson, Jr., a Representative in 
        Congress from Florida
    Question 1. Mr. Secretary, I want to begin by expressing my 
continued concern over the threat that Florida's tomato industry faces 
due to Mexican dumping practices. As the United States continues to 
negotiate the United States-Mexico-Canada Agreement (USMCA), I want to 
work with you to make sure that the hardworking tomato farmers in my 
district are given a fair shot in the market.
    Can you please detail what actions the Department of Agriculture is 
taking to defend Florida's tomato sector during and after USMCA 
negotiations?
    Answer. The Administration is sensitive to the challenges faced by 
Florida's tomato sector. Following the request from the Florida Tomato 
Exchange in November 2018, the Department of Commerce notified Mexican 
signatories of the existing suspension agreement of Commerce's intent 
to withdraw, terminate the agreement, and resume the anti-dumping 
investigation on fresh tomatoes from Mexico. The Department of Commerce 
has jurisdiction of anti-dumping and countervailing duty actions, 
including suspension agreements. USDA stands ready to help with 
technical assistance and policy guidance as needed.

    Question 2. On January 9, 2019, the United States Government 
Accountability Office (GAO) published a report on food insecurity 
within college student populations throughout the country. There are 
several issues highlighted in the GAO report that concern me, including 
the inaccessibility of resources and lack of communication by the Food 
and Nutrition Service (FNS) to colleges regarding student eligibility 
for SNAP. It is a priority of mine this Congress to address food 
insecurity within college student populations and to make sure that no 
student goes hungry.
    Has the Department of Agriculture made any steps to disseminate 
this information and how are you working with your state agencies?
    Answer. FNS works with its state partners to ensure that those who 
are eligible for SNAP have access to the program. FNS provides 
technical assistance and oversight to state SNAP agencies. State SNAP 
agencies, in turn, administer SNAP and are ultimately responsible for 
the certification of households and issuance of benefits.
    In order to better serve low-income college students who may be 
eligible for SNAP but not participating in a state or Federal work-
study program, FNS codified a SNAP state option related to averaging 
student work hours on a monthly, quarterly, trimester or semester basis 
instead of requiring 20 hours per week to qualify for a student 
exemption. This policy change helped reduce administrative burden on 
both state SNAP agencies and eligible, low-income students whose work 
hours were variable. Since 2014, FNS has also invested considerable 
resources in expanding state SNAP Employment and Training (SNAP E&T) 
programs and working with states to make high-quality education and 
training services available to SNAP participants, including through 
community colleges. In addition to providing employment and training 
services, state SNAP E&T programs provide participants with necessary 
supportive services such as transportation, childcare, and textbooks, 
which may make it easier for participants to complete their educational 
programs.
    FNS values the recommendation of the GAO report referenced to make 
information regarding student SNAP eligibility requirements easier to 
understand and more accessible to a variety of stakeholders. As such, 
FNS will undertake a review of the information regarding SNAP student 
eligibility requirements on its website and make changes where possible 
to reduce the amount of legal and technical language and increase 
accessibility of content for college administrators, college students, 
and other interested parties.

    Question 3. Florida's Panhandle and the entire state continue to 
struggle with the aftermath of Hurricanes Irma and Michael. Hurricane 
Michael devastated North Florida's timber industry. According to the 
Florida Forest Service, approximately 72 million tons of timber was 
destroyed, calculating to a loss value of $1.3 billion. As it stands, 
WHIP does not cover timber as a crop.
    What guarantee can the Department of Agriculture give to the people 
of Florida's Fifth Congressional District, that timber will be included 
in current and future assistance programs to help communities like 
those in my district as they recover from hurricanes and other natural 
disasters?
    Answer. FSA currently administers the Emergency Conservation 
Program (ECP) and the Emergency Forest Restoration Program (EFRP), 
which provide farm and forest land rehabilitation assistance for 
hurricane, wildfire, flood, drought, and other natural-disaster-
affected farmers, ranchers, and foresters. Additionally, the 
Apalachicola National Forest is currently engaged in post hurricane 
salvage operations to put up for sale as much downed timber as 
possible. These activities build on the Forest's long-range plan that 
outlines timber volumes to be harvested each year. That volume is 
calculated using criteria such as desired future conditions and 
allowable sale quantities to ensure sustainability of our natural 
resources.

    Question 4. Over 16,000 forest landowners were harmed by damages 
caused by Hurricane Michael in Florida's Panhandle. There are currently 
only three full time agents in the Gadsden County Farm Service Agency 
office that oversees five counties in the disaster zone. This isn't 
enough. Mr. Secretary, we need more agents on the ground in my 
district.
    Can you please provide a timeline as to when North Florida will 
receive more Farm Service Agency agents to assist with Hurricane 
Michael recovery efforts?
    Answer. USDA has been providing additional staff in recent months 
to assist Florida producers impacted by Hurricane Michael. FSA deployed 
15 employees on temporary assignment in Florida to assist with the 
Hurricane Michael recovery. These employees remained in Florida through 
April 13. The employees were deployed to the following counties: Polk, 
Glades, Jackson, Gadsden, and Holmes.
    Prior to the recent deployments, FSA sent 27 employees from 14 
states in the months of November and December to assist in Hurricane 
Michael efforts in the following counties: Holmes, Jackson, Gadsden, 
Polk, Hardee, Okeechobee, St. Lucie, Lee, Glades, and Miami-Dade.
Questions Submitted by Hon. Eric A. ``Rick'' Crawford, a Representative 
        in Congress from Arkansas
    Question 1. Cuba was once one of the largest markets for U.S. grown 
rice, with pre-embargo shipments reaching as much as a quarter million 
metric tons, accounting for more than half of Cuba's rice imports. The 
farm bill takes positive steps by allowing cooperators to utilize MAP 
and FMD dollars in Cuba and through the creation of the Priority Trade 
Fund. However, when submitting their 2019 UES application, many 
cooperators were unaware of the ability to use FAS funds in Cuba, and 
therefore it wasn't included in requests for funds. Rather than taking 
away from existing programs and priorities with the MAP/FMD funds, is 
it possible to ``apply'' for Priority Trade Funds to conduct activities 
in Cuba?
    Answer. Congress directed that the Priority Trade Fund provide a 
greater allocation to one or more of the Agricultural Trade and 
Promotion Facilitation programs. USDA is working towards implementing 
the new provision regarding the use of MAP and FMD funds for Cuba 
consistent with all relevant statutes and plans to make decisions on 
allocating the funds later in the year.

    Question 2. Cuba is a cash-deficient economy, and the Cubans need 
flexibility in attaining credit to purchase U.S. agriculture products. 
Without the extension of credit, Cuba will continue to source their 
rice from countries such as Thailand, Vietnam, and China. What steps is 
your Department taking to encourage the White House to work with the 
Cuban government to normalize relations and allow the extension of 
credit so our farmers can regain a once important market?
    Answer. USDA abides by the prohibition of United States export 
assistance and any credit or guarantees for exports to Cuba established 
in statute, (7 U.S.C. 7207(a)(1)). I respect the Administration's 
policy regarding Cuba and I respect the White House and the State 
Department in charting the course of relations with Cuba.

    Question 3. Mr. Secretary, the 2013 Census of Aquaculture reported, 
nationwide, 3,093 farms of which 1,479 utilized ponds to grow aquatic 
animals that totaled 153,040 water acres. Within the 36 states east of 
the Rocky Mountains, 1,275 farms manage 24,783 ponds with 148,466 water 
acres which we believe are underestimates for this region. Open pond 
farms are vulnerable to predation by birds such as great blue herons 
and double-crested cormorants, and the ability to protect those ponds 
from predation by federally protected birds can be limited and 
imperfect. For example, during 2016 and 2017, as a result of a Federal 
lawsuit against the U.S. Fish and Wildlife Service, the aquaculture 
industry endured massive fish losses resulting from avian predation 
without any real ability to protect fish farms. These losses are not 
covered under whole farm or Noninsured Crop Disaster Assistance Program 
coverage. In essence, aquaculture falls through the cracks when it 
comes to predation by federally protected bird losses. The Livestock 
Indemnity Program (LIP) covers bird losses but aquaculture is 
ineligible. The Emergency Livestock Assistance Program (ELAP) covers 
farm-raised fish but excludes catfish. Finally, the Noninsured Crop 
Disaster Assistance Program (NAP) covers catfish but excludes bird 
predation as an eligible loss. LIP and ELAP regulations provide 
administrative discretion to amend covered livestock and eligible 
losses under each program. What is USDA doing to assist the industry in 
finding an adequate and fair solution in dealing with bird predation 
losses across the aquaculture industry?
    Answer. USDA understands the industry's concern regarding fish 
losses due to predation by birds such as great blue herons and double-
crested cormorants. We are researching all options to find a possible 
solution to this issue using existing authorities under our disaster 
assistance programs. In addition, USDA APHIS supports aquaculture by 
providing direct and technical assistance to producers to manage 
predatory birds. APHIS conducts harassment efforts to relocate 
cormorant roosts away from aquaculture facilities in several states and 
assists producers with obtaining depredation permits from the U.S. Fish 
and Wildlife Service (USFWS). APHIS is also working with USFWS, states 
and industry in developing new techniques for managing predatory birds 
to help reduce aquaculture losses.
Questions Submitted by Hon. Vicky Hartzler, a Representative in 
        Congress from Missouri
    Question 1. Mr. Secretary, thank you for your continued support of 
broadband initiatives. What is the outlook for the broadband program 
and how will USDA hold grantees accountable under the new provisions to 
ensure that the service promised is delivered?
    Answer. The 2018 Farm Bill made several significant changes to our 
broadband program and as a result will help USDA improve broadband 
access to unserved communities. These changes include requiring 
grantees to submit an annual report to USDA for 3 years following the 
completion of their project and providing precise geolocation 
information as well as mapping for the new broadband service being 
provided. Most important, however, is that milestones and objectives 
will be part of the grantee's agreement with USDA, such that USDA may 
be able to recoup grant funds for project milestones and objectives 
that are not met. We believe these new measures will help us monitor 
our projects and ensure awardees are fulfilling the objectives for 
which the assistance was provided.

    Question 2. Secretary Perdue, a recent Informa report found that 
from 2011-2016 China's unpredictable, untimely biotech crop approval 
process inflicted more than $5 billion in losses to U.S. farm income, 
prevented the creation of nearly 34,000 U.S. jobs, and has delayed 
farmers from accessing new technologies for years. The study also found 
similar loses are expected through 2022 unless China reforms its 
regulatory process. Those hardest hit by this predatory trade practice 
are the same corn and soy growers who have already suffered years of 
low prices and are currently bearing the brunt of Chinese tariffs. As 
the Administration seeks an agreement with the Chinese to resolve the 
ongoing dispute, do you see systemic reform of China's flawed biotech 
approval process as a possible win for growers from a trade deal?
    Answer. I appreciate that the Informa report has taken on the 
difficult task of estimating U.S. economic damages caused by China's 
dysfunctional biotech regulatory system, and the estimates in that 
report are significant. The Administration is seeking an agreement with 
China to resolve several long-standing issues, including those on 
biotechnology. For too long, China's biotech policy has stymied U.S. 
agricultural innovation and restricted farmers' access to critical 
tools and technologies necessary to help feed the world as new 
challenges emerge and the global population increases.
Questions Submitted by Hon. Roger W. Marshall, a Representative in 
        Congress from Kansas
Trade
    Question 1. Mr. Secretary, I want to ask about the status of U.S.-
Japan trade agreement talks. As you know, Japan is the most important 
export market for the beef and pork industries. The U.S. Meat Export 
Federation estimates that export sales to Japan for beef totaled over 
$2 billion last year, and export sales in pork were approximately $1.6 
billion. Unfortunately, with both the Japan-EU trade agreement and the 
Comprehensive and Progressive Agreement for Trans-Pacific Partnership 
(CPTPP) now in force, our products are at a tariff disadvantage in 
Japan to many of our global competitors. The reality is we are 
beginning to lose market share in Japan.
    Can you give the Committee an update on the Administration's plans 
for a U.S.-Japan agreement and assure us there is a sense of urgency to 
reestablish a level playing field for our agricultural products there?
    Answer. On December 21, 2018, the U.S. Trade Representative (USTR) 
submitted to Congress and released to the public a summary of the Trump 
Administration's specific negotiating objectives for its U.S.-Japan 
Free Trade Agreement negotiations. One of the Administration's top 
negotiating objectives is to secure comprehensive market access for 
U.S. agriculture goods in Japan by reducing or eliminating tariffs. The 
Administration has begun negotiations, and certainly understands that 
Japan's recently negotiated agreements with other countries 
disadvantages U.S. farmers and ranchers.
Rail Rates
    Question 2. Secretary Perdue--First, thank you for your efforts to 
open markets for U.S. ag producers. One of U.S. agriculture's strengths 
as an export competitor has been world class infrastructure. Today, 
while our infrastructure is still world class, wheat farmers in Kansas 
and across the country are being priced out of using it.
    Unfortunately, Class 1 carriers' tariff rates on wheat have 
increased in each of the last 3 years resulting in wheat rates being 
priced higher than other commodities, from the same origins to the same 
destinations by nearly $.30 per bushel. This has hurt wheat's 
competitiveness in the world market, prices being paid to farmers in 
Kansas, and our overall ability of this great state and nation to 
fulfill your proclaimed new motto of ``Do right and connect everyone.''
    Can you speak to ways USDA can work with industry to curtail these 
annual price increases while in the face of these low commodity prices, 
declining wheat acres, all the while the World, our global customers, 
are consuming far more wheat today than just a decade ago?
    Answer. USDA does not have jurisdiction over rail rates, which 
falls to the Surface Transportation Board (STB). USDA has submitted 
comments to STB in various proceedings on how to make its rail rate 
challenge procedures more accessible and effective for agricultural 
shippers to challenge unreasonable rail rates. In addition, USDA met 
with STB's Rail Rate Review Task Force to suggest new and streamlined 
methods for rail rate challenges. Finally, USDA has met with industry 
representatives--with both Kansas Wheat and the National Grain and Feed 
Association--about railroad pricing of wheat movements.
Gene Editing
    Question 3. Secretary Perdue, as you know, there are several U.S. 
companies developing interesting animal biotech products that not only 
would bring jobs to rural America but also would feed a growing world 
and improve sustainability. Unfortunately, the animal biotech industry 
is frustrated by the regulatory and legislative barriers that are 
blocking their products from being marketed or approved in the U.S. As 
a result, some of these companies are leaving the U.S. market and 
looking for opportunities to sell their products overseas.
    What do you believe can be done to encourage these companies to 
stay in the U.S.?
    Answer. USDA understands that its ability to lead the way in 
agricultural innovation will lead to good jobs and economic success. We 
also know that biotechnology can help solve some of the most pressing 
challenges facing animal health, animal welfare, and agricultural 
productivity.
    We have heard from agriculture stakeholders that they want a clear, 
predictable, and transparent regulatory system. Stakeholders need to 
get an answer from regulatory agencies in a timely manner. 
Additionally, the development of a new product must have clearly 
defined rules, so stakeholders do not spend valuable time and resources 
working on a project that will not see commercialization in a 
reasonable timeframe. If USDA offers domestic developers some certainty 
and responsiveness through a solid, transparent regulatory framework, 
the U.S. will continue to outcompete and ``out-innovate'' the rest of 
the world.

    Question 3a. Additionally, could you please comment on how closely 
USDA worked with FDA on drafting the National Bioengineered Food 
Disclosure law (Disclosure Standard) final rule?
    Did FDA review the final rule on the Disclosure Standard before it 
was released on December 21, 2018?
    Have the agencies been working together to make sure that their 
policies are consistent?
    Answer. Yes, FDA reviewed the final rule before it was published on 
December 21, 2018. For both the proposed and final rules, FDA 
participated in the Office of Management and Budget's inter-agency 
review process. Since publishing the final regulations, USDA has 
continued to work together with FDA to ensure that policies are 
consistent wherever possible.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
